<html>
<title> - RESERVE COMPONENT PROGRAMS</title>
<body><pre>[Senate Hearing 111-226]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-226

                       RESERVE COMPONENT PROGRAMS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

                               __________

         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
54-509 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                       Subcommittee on Personnel

                 E. BENJAMIN NELSON, Nebraska, Chairman

EDWARD M. KENNEDY, Massachusetts     LINDSEY GRAHAM, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
KAY R. HAGAN, North Carolina         RICHARD BURR, North Carolina
MARK BEGICH, Alaska                  DAVID VITTER, Louisiana
ROLAND W. BURRIS, Illinois           SUSAN M. COLLINS, Maine

                                  (ii)






                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                       Reserve Component Programs

                             march 25, 2009

                                                                   Page

Hall, Hon. Thomas F., Assistant Secretary of Defense for Reserve 
  Affairs........................................................     6
Vaughn, LTG Clyde A., ARNG, Director, Army National Guard........    21
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard    39
Stultz, LTG Jack C., USAR, Commanding General, U.S. Army Reserve 
  Command........................................................    40
Debbink, VADM Dirk J., USN, Chief of Navy Reserve; and Commander, 
  Navy Reserve Force.............................................    77
Bergman, Lt. Gen. John W., USMC, Commander, Marine Forces 
  Reserve; and Commander, Marine Forces North....................    84
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief, Air Force 
  Reserve; and Commander, Air Force Reserve Command..............    96
May, RADM Daniel R., USCG, Director of Reserve and Training, U.S. 
  Coast Guard Reserve............................................   104

                                 (iii)

 
                       RESERVE COMPONENT PROGRAMS

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Hagan, Begich, Burris, Chambliss, Graham, and Thune.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Jennifer L. Stoker, 
security clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Paul C. Hutton IV, 
professional staff member; Christopher J. Paul, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Ali Z. Pasha and Brian F. Sebold.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Ben Nelson; Jon Davey, assistant to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Michael Harney, assistant to Senator Hagan; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Adam G. Brake, assistant to 
Senator Graham; and Chip Kennett, assistant to Senator Collins.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. Good afternoon. The subcommittee meets 
today to discuss Reserve component programs of the Department 
of Defense (DOD). I welcome back my partner and good friend on 
the subcommittee, Senator Graham. We've worked together either 
as ranking member or chairman for a number of years, and it's 
always good to work with you, Lindsey.
    Senator Graham. Thank you, sir.
    Senator Ben Nelson. Thank you for all your support and your 
encouragement.
    To our witnesses, welcome. On the first panel, we welcome 
back Mr. Thomas F. Hall, the Assistant Secretary of Defense for 
Reserve Affairs, who is also currently serving as the acting 
Under Secretary of Defense for Personnel and Readiness. Mr. 
Hall has been the Assistant Secretary of Defense for Reserve 
Affairs since October 2002, and has been Secretary Gates' point 
man on the implementation of the recommendations of the 
Commission on the National Guard and Reserves.
    I understand that Secretary Hall will leave government 
service next month, after completing more than 40 years of 
combined military and Federal civilian service. Secretary Hall 
and your wife, we're delighted to have you here today, and 
we're looking forward to your testimony one last time before 
you depart. We want to especially thank you for the past 7 
years of tireless and dedicated service as Assistant Secretary 
of Defense for Reserve Affairs.
    We're eager to hear your views of the recommendations of 
the Commission on the National Guard and Reserves, and we look 
forward to hearing your insights and recommendations based on 
your vast experience with our Reserve components.
    On our second panel, we'll have the Directors of the Army 
and Air Force National Guard and Chiefs of each of the Reserve 
components. I'll introduce each of them when we convene the 
second panel.
    The Reserve components have undergone a significant 
transformation in the past 8 years, from a Cold War-era 
strategic force to an operational force manned and equipped to 
face both the traditional and asymmetric threats of the 21st 
century. Despite the evolving operational nature of the Reserve 
components, there remains a strategic quality. The Reserve 
components respond when unforeseen events require even greater 
mobilization than the Active Duty can provide.
    Our Reserve components are engaged in all fronts of our 
operations in Iraq and Afghanistan. We know that our efforts in 
Afghanistan will not be successful by military force alone, but 
must also include a strong strategy for diplomacy, economic 
development, and sustainability. The 28th Forward Agribusiness 
Development Team, deployed from Nebraska to Afghanistan, is 
illustrative of an engagement strategy that promotes diplomacy 
and economic development. Our 52-member team from Nebraska is 
in Afghanistan to assist, teach, train, and educate farmers on 
better farming methods, to introduce the farmers to better and 
more sustainable crops, and to promote the eradication of the 
poppy trade.
    The agricultural team chief of the Nebraska unit, Eric 
Saddleburg, said it best to the National Guard Bureau: ``Our 
goal in every mission is to improve relations with the locals. 
This type of mission will strengthen the bond between 
Afghanistan and the United States because we know that we're 
here to help grow this nation, rather than destroy it.''
    This Nebraska unit is but one example of how the Guard and 
Reserve have transformed from a Strategic Reserve to an 
Operational Force. Our Reserve forces have risen to meet the 
new and constant challenges, but we must continue to monitor 
and assess this evolution to ensure that it is funded, manned, 
equipped, and trained so that it is ready and able to meet its 
missions while retaining the character and essence of the 
citizen-soldier.
    As we enter the ninth year of sustained combat, the stress 
on our All-Volunteer Force, Active and Reserve, is greater than 
ever. Last week we heard from the Vice Chiefs of the Services 
about the rising incidence of suicides, particularly in the 
Army and Marine Corps. Both General Chiarelli and General Amos 
pointed to the stress on the Force, lengthy and repeated 
deployments, as a primary factor in the rise of suicides.
    The Force as a whole is stressed, and that stress is now 
manifesting itself more than ever in the health and wellbeing 
of individual servicemembers and their families. Key to 
lessening the stress on the Force is ensuring that we adhere to 
deployment and dwell time standards. The stated goal of the 
Department for Reserve component members is 1 year of mobilized 
service with 5 years dwell time at home. This is absolutely 
vital to the long-term health of the Reserves and Reserve 
component personnel. It ensures that our reservists and 
guardsmen remain trained and proficient while providing 
predictability for their families and civilian employers. This 
predictability and transparency goes far in sustaining the 
morale and mental health of our servicemembers and allows them 
to plan both their military and civilian careers. It's good for 
the servicemembers, their families, the military, the civilian 
sector, and the Nation.
    We also learned last week that Secretary Gates has approved 
a plan to transition the Army off its use of stop-loss to keep 
military personnel on Active Duty after they complete their 
Active Duty service commitment. The Reserve components are 
scheduled to cease the use of stop loss this summer. We applaud 
this move. It enhances the predictability and transparency that 
reservists, guardsmen, and their families need to plan their 
careers and care for their families.
    This policy decision, of course, raises a number of issues. 
Stop-loss has been a tool the Army used to ensure unit cohesion 
for units deployed or preparing to deploy. Will undoing stop-
loss require additional end strength to compensate for 
servicemembers who do not have enough time left on their 
commitment to complete a deployment? Will National Guard and 
Reserve units have to rely on more cross-leveling to replace 
personnel who will not have enough time to complete the 
deployment? Does Congress need to authorize additional 
compensation authorities to incentivize short-term extensions?
    This subcommittee stands ready to act, if necessary. Ever 
mindful of the quality of life and quality of service of the 
Reserve components, this committee has sponsored and supported 
many initiatives in recent years to address the wellbeing of 
reservists, guardsmen, and their families.
    Senator Graham and I will soon introduce legislation that 
will make health benefits under TRICARE Standard available to 
gray area retirees and their families. Currently these National 
Guard and Reserve retirees are not eligible for TRICARE until 
they reach age 60.
    I'll also reintroduce legislation that will encourage and 
demand thoughtful planning of training missions away from home 
for members of the Reserve component known as Operation 
Airlift. This legislation will provide that if a Reserve 
component member is sent to training and then that training is 
suspended for more than 5 days, the military will pay for the 
travel expenses to return that member home.
    The Yellow Ribbon Program has been a resounding success. As 
General Chiarelli testified in last week's hearing, the Yellow 
Ribbon Program has helped Reserve component members and their 
families to transition from Active Duty back to civilian life.
    In 2007, Congress authorized TRICARE Reserve Select, which 
extended the military health care program, TRICARE, to members 
of the Selected Reserve and their families. As I indicated 
earlier, Senator Graham and I will soon introduce legislation 
that will enhance this program by extending TRICARE Reserve 
Select to gray area retirees.
    In 2006, Congress authorized income replacement for Reserve 
components members subject to extended and frequent Active Duty 
service. In the recently passed Omnibus Appropriations Act, we 
enhanced this benefit, fully covering Federal employees who 
experience an income loss due to Active Duty service.
    In 2008, we authorized transportation allowances for 
certain reservists on inactive duty for training who are forced 
to travel long distances. Also in 2008, Congress enacted the 
new GI Bill, complete with transferability to spouses or 
children. Given the vastly increased mobilizations of 
reservists and guardsmen, many will be eligible for these 
generous benefits under the new GI Bill, even a fully funded 
college education.
    Lastly, as I indicated earlier, we have supported an end to 
the Army's practice of stop-loss and supported compensation of 
servicemembers who have served under stop loss.
    We'll continue to look for opportunities to enhance 
benefits where prudent and needed to maintain a healthy force. 
One positive effect of a lagging economy seems to be that 
military recruiting and retention are up. With a friendlier 
recruiting environment, we expect that the quality of new 
recruits will be even better.
    We look forward to hearing today about the recruiting and 
retention successes of the Reserve components. I also look 
forward to hearing about the effect of the new GI Bill and 
transferability on both recruiting and retention in the Reserve 
components.
    Senator Graham, would you like to make an opening 
statement?

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Very briefly, Mr. Chairman. One, I'd like 
to echo what you started with, the idea that we do work well 
together. Our staffs have done a terrific job. There is a lot 
of conflict in Congress and between the parties, and that's 
just the way democracy works. But when it comes to this 
subcommittee and, generally speaking, the Senate Armed Services 
Committee in general, we do a very good job, I think, of 
working together because our men and women in uniform are not 
partisans, they're patriots. What we try to do is make sure 
that our patriotic nature overcomes our partisanship.
    You have been a very, very good chairman, and I have 
enjoyed working with you. I think, as you've just indicated, 
we've done some pretty good things. There's more to come. We're 
going to work on maybe trying to allow early retirement for 
people who volunteer for deployments. We have a program in 
place, but I think we could be even more aggressive.
    Secretary Hall, I just want to echo what Senator Nelson, 
our chairman, said. You have done a great job for the country 
for a very long period of time. I'm glad your wife is here 
today. She has, I'm sure, been a great partner here. We can't 
thank you enough. You have had a very tough assignment. It's 
been 6\1/2\ years of constant combat.
    To our Reserve members and the commanders, like Senator 
Nelson, I've been to Iraq and Afghanistan many, many times, and 
you can't tell the difference between the reservist and Active 
Duty member. The missions that the Reserves have performed have 
been absolutely essential to the outcomes in Iraq and 
Afghanistan. The civil affairs component, military police, you 
can go down the list; the Guard and Reserve has not only 
stepped up to fill in, but they've been the leading agencies, 
components, on a lot of the things that are necessary to win 
this war that we're in. So the best testament I can give to a 
member of the Guard and Reserves is that when you go to war, no 
one can tell the difference between you and your Active Duty 
counterpart.
    Secretary Hall, maybe this will be your last time before 
this committee. I don't know. We may call you back. To our Army 
National Guard (ARNG), Lieutenant General Vaughn, thank you for 
your service. The Commander of the Marine Forces, Lieutenant 
General Bergman, thank you very much for what you have done. If 
this is your last time, well done. If you come back again, 
welcome. Who knows what the future holds.
    I look forward to listening to the state of play of the 
Guard and Reserves, and thank you all for your service.
    Mr. Chairman, we'll continue to work together for the good 
of the country.
    [The prepared statement of Senator Graham follows:]
              Prepared Statement by Senator Lindsey Graham
    Thank you, Senator Nelson.
    Secretary Hall, I'd like to join Senator Nelson in acknowledging 
your long service as the Assistant Secretary of Defense for Reserve 
Affairs. The combination of these most recent 6\1/2\ years in the 
Office of the Secretary of Defense (OSD) and your previous 34 years of 
active duty in the Navy, including assignment as the Chief of the Naval 
Reserve, tells me that you have just about seen and done it all.
    Thank you for your many contributions on behalf of individual 
reservists and guardsmen and their families and for your hard work in 
ensuring that our Reserve forces have continued to become the highly 
capable, proficient, and much relied upon full partners we expect them 
to be.
    I'd also like to acknowledge the contributions of members of your 
OSD Reserve Affairs staff who have been so helpful to us over the years 
and who will soon be leaving government service--particularly Dr. John 
Winkler, Assistant Secretary Craig Duehring, and Tom Bush. Please 
extend our thanks to each of them.
    I would also like to recognize the long and faithful service of the 
Director of the ARNG, Lieutenant General Vaughn, and the Commander of 
the Marine Forces Reserve, Lieutenant General Bergman. This will 
probably be their last appearance before this subcommittee as they 
complete their terms. We appreciate greatly your leadership and the 
many contributions each of you have made to your Service.
    Mr. Chairman, the men and women of our superb Active and Reserve 
Armed Forces have been on a wartime footing now for over 7 years. They 
have performed and continue to perform magnificently. We owe a 
tremendous debt to them and their families, and, in the months ahead, I 
know that under your leadership, our subcommittee will buckle down and 
work hard to assist them in every way possible. I look forward to it.
    I thank all our witnesses for their service and for joining us 
today. I am very happy, by the way, to see that the Coast Guard has 
joined us today, given the key role that the Coast Guard plays today in 
homeland security and national defense. Welcome, Rear Admiral May.

    Senator Ben Nelson. Thank you very much, Senator Graham.
    We'll now hear from our first witness, Mr. Hall. Thank you.

   STATEMENT OF HON. THOMAS F. HALL, ASSISTANT SECRETARY OF 
                  DEFENSE FOR RESERVE AFFAIRS

    Mr. Hall. Thank you. I would like my written statement 
entered into the record.
    Senator Ben Nelson. It will be.
    Mr. Hall. I also have a brief statement, first to thank 
you, Mr. Chairman and Senator Graham, for what you have done. 
You've always been very gracious to us, and no two people have 
supported our Guard and Reserve more.
    I'd like to start out by congratulating Congress. You often 
get all the blame, but it's perhaps not known that in the past 
6\1/2\ years, over 200 provisions in the law for Guard and 
Reserve have been made and many of those at your support and 
your insistence. So we thank you for that.
    As was mentioned, over 50 years ago, I put on the uniform 
of this country, and I've had the opportunity in different 
capacities to serve our Nation. It's all I've ever known. I've 
lived the dream for that amount of time.
    One of the reasons I asked my wife to come is that for 46 
years, she has devoted her life to supporting the families and 
the troops, and she deserves more recognition than I do. She 
came to my confirmation hearing, and she's coming to what I 
hope is the last hearing. We want to thank you.
    The gentlemen behind me, I know when it's their turn, will 
give you their honest opinion, and there's just never been a 
better group of Guard and Reserve chiefs, and I say that having 
been one because they are a superb group of dedicated 
Americans.
    We've had the largest mobilization since World War II. You 
know that. Today we passed over the statistics. I saw 700,000 
guardsmen and reservists have been mobilized since September 
11. There are 127,000 on duty today, serving throughout the 
world.
    I also think that our boss, Secretary Gates, has made some 
fundamental changes which have been very critical. The January 
19 memo that you mentioned was a real watershed, where he said 
that the mobilization time will be 1 year for our Guard and 
Reserve, and that we will have deployment to dwell time ratio 
goals of 1:2 for our Active Duty, 1:5 for our Guard and 
Reserve. I can report in the 2 years since then--and I track 
these every week--we've gone from about 1:2.8 to 1:3.0, to now, 
the next group that we're going to take for mobilization, are 
at 1:4. So, within about a year, we've increased a full year.
    Part of that has been our ability to increase the size of 
the Army and the Marine Corps. Part of it has been rebalancing. 
We have rebalanced about 134,000 billets. We have plans for 
225,000 from our less stressed career groups over to our more 
stressed. That has helped us. That has helped us get there.
    We have published the Operational Reserve Directive. One of 
the recommendations of the Commission on the Guard and Reserve 
is that we need to institutionalize this. We need to make it a 
way of practice. In October, we published that directive, and 
we're proceeding along that line. In there, we talk about how 
we are going to mobilize, how we're going to recruit and 
utilize our Guard and Reserve.
    On recruiting, this is the best recruiting statistic that 
I've seen in 6\1/2\ years. As of today, these gentlemen 
combined are recruiting at 111 percent. 111 percent, I have 
never seen that. As for our quality: we are at 94 percent high 
school graduates. We have a goal of 90 percent. In this 
country, I think it's a tragedy that high school graduates are 
down to around 70 percent. We're at 94 percent.
    For our recruits in categories 1 through 3, our goal is 60 
percent high school graduates. We're at 67 percent. Most 
important, the category 4, we have a goal of no more than 3 
percent non-high school graduates; we're at only 1 percent 
nongraduates.
    Now, the economy helps. But I say these are great patriots 
today, and these young men and women are serving because 
they're patriots. It's not just the economy.
    We have made great progress in equipping our Guard and 
Reserve. When I've appeared before this committee and others, 
we've talked about it. Over $50 billion in the program of 
record is going towards our Guard and Reserve, $30 billion of 
that is towards the National Guard. I think one of our 
challenges will be to sustain that because that's in the 
program of record, but we need to sustain it.
    There is $10 billion in this year's program of equipment 
for our Guard and Reserve. If we execute that, that will bring 
the Guard up to about 78 percent of their equipment on hand. 
We've never been above 70 percent on-hand and it's been 
cascaded old equipment. This will be brand-new compatible 
equipment. So I think the committee needs to watch and make 
sure we execute that.
    One of the recommendations of the Commission on the Guard 
and Reserves is to provide a mechanism by which we track, 
finally, how we program and execute the appropriations for the 
Guard and Reserve. We have just signed on to recommendation 
number 42 and 43 in the Commission's report and the mechanism 
of how we're going to do that. Every quarter, it will be 
required that the Services report to my office how they're 
using equipment, where it is, and where it's going. Twice a 
year, although it's not required, we're going to report to you 
on the appropriations made, how we are tracking that equipment, 
so we will all know that it's ending up with the Guard and 
Reserve. So we will be doing that.
    Again, a large effort we've had is supporting our families 
and our employers. You mentioned the Yellow Ribbon Program. 
That comes under my office. We have established the Yellow 
Ribbon Program as a Center of Excellence. We have manned that 
with representatives from each one of our components. From the 
Department of Veterans Affairs (VA), we've moved that office 
into the Pentagon in my spaces. On Monday, we will hold the 
first advisory board meeting of the Yellow Ribbon Program.
    We have about $200 million this year in execution funds 
that we're putting towards that program. We have 
institutionalized the 30-, 60-, and 90-day reintegration effort 
because we know we need to get those people and their families 
back. Families notice that something is wrong sometimes before 
the trooper will admit it. So, getting them back at that 
periodicity will help us talk to them. We're going to be doing 
that.
    With the stop-loss, I'm proud to say that the Army Reserve 
on September 1 will end that; the Army Guard will end stop-loss 
after that. I do not think--and I would be interested in what 
my colleagues have to say--that that will cause a lot of 
difference in cross-leveling and with the Individual Ready 
Reserve (IRR). We've mobilized about 20,000 of the IRR since 
September 11. In the first Gulf War, we used 30,000. We have 
225,000, so we have not at all approached that. But we need to 
watch that very carefully. You hit upon something which I think 
we would welcome, which is proper manning of stop-loss. We need 
to incentivize people to extend their time, and that's going to 
require some dollars.
    So after the budget comes over, I know my colleagues won't 
be bashful. If they need money to incentivize people to extend, 
I think we will be able to do that without tapping the IRR too 
much. But you mentioned that, Mr. Chairman.
    TRICARE Reserve Select, that's been something which you 
have driven. I'm happy to report 38,421 of our people are 
taking advantage of that. The premiums are very attractive. I'm 
not a health insurance person, but they tell me those premiums, 
$47.51 for a single person, is pretty competitive. So 100,000 
have already taken advantage of the program, including 
dependents. That's growing along the way. So we appreciate 
that. I imagine there wouldn't be a grey area retiree resisting 
the fact if you pass that law.
    I think I will end there, and I will be happy to answer any 
of your questions. Thank you.
    [The prepared statement of Mr. Hall follows:]
               Prepared Statement by Hon. Thomas F. Hall
                              introduction
    Chairman Nelson, Senator Graham, and members of the committee, 
thank you for the invitation to appear before you today. I would like 
to provide an overview of the Reserve components from my perspective, 
then describe the Department's plan to act on recommendations made by 
the Commission on the National Guard and Reserves in its final report, 
and close with comments on the Yellow Ribbon Reintegration Program.
    As a whole, the Reserve components exceeded their recruiting 
objective by 5 percent in fiscal year 2008 and were below the 
established attrition ceiling. They are on the glide slope to achieving 
their recruiting goals this year. A large measure of this success is 
due the increase in compensation and enhancements in benefits you have 
authorized over the last 6 years; thanks to you. Relieving the stressed 
career fields is just about complete and, although we continue to work 
on equipment and medical readiness, we have made great strides in the 
overall readiness of the Reserve components. Over the past 7\1/2\ 
years, there has been a profound increase in the contributions the 
Reserve components have provided to support the war effort. We have 
asked a great deal of Guard and Reserve members and they unfailingly 
answer the call to duty.
    I have been fortunate to serve as the Assistant Secretary for 
Reserve Affairs for the past 6\1/2\ years. During this time, the 
Department has implemented numerous policy changes and Congress has 
passed over 200 changes in law that have improved the management of the 
Reserve components and enhanced the pay and benefits provided to Guard 
and Reserve members, and their families.
    I believe that the success we have enjoyed in recruiting new 
members into the Reserve components and retaining Guard and Reserve 
members is a direct reflection of the pride they have in serving our 
great country and the significant enhancements provided by Congress in 
compensation (basic pay, allowances and incentives) and benefits now 
available to Guard and Reserve members and their families.
    Three years into the war following the terrorist attacks on the 
World Trade Center and the Pentagon, this committee had concerns with 
the number of changes in laws governing the structure and employment of 
the Reserve components and the pay and benefits provided to Reserve 
component members and their families as the Department increased its 
reliance on the Guard and Reserve to provide operational support. 
Congress determined that a comprehensive assessment by an independent 
entity was needed and included a provision in the Ronald Reagan 
National Defense Authorization Act for Fiscal Year 2005 that 
established the Commission on the National Guard and Reserves. Congress 
charged the Commission with carrying out a study of the roles and 
missions of the National Guard and the Reserve components, and the 
compensation and other benefits, including health care benefits that 
are provided for members of the Reserve components under the laws of 
the United States.
    After nearly 2\1/2\ years of study, the Commission released its 
final report on January 31, 2008. The Commission organized its report 
into 6 major areas and made 95 recommendations supported by 163 
findings.
                 the department's review of the report
    Immediately following the release of the final report, the 
Secretary directed the Under Secretary of Defense for Personnel and 
Readiness to establish a working group of senior executives to conduct 
a comprehensive review of the report and provide him with a proposed 
course of action for each of the Commission's 95 recommendations. I led 
that working group, which was comprised of 28 general/flag officers and 
senior civilian executives from the OSD staff, the Joint Staff, the 
Military Departments and Services, the National Guard Bureau, U.S. 
Northern Command, the Reserve Forces Policy Board, the Departments of 
Homeland Security, Veterans Affairs and Labor, and the Small Business 
Administration.
    Following a comprehensive review of the report and assessing the 
recommendations made by the Commission, the working group provided the 
Secretary with a fully coordinated, comprehensive plan for addressing 
the Commission's recommendations. The Secretary published his decision 
in a memorandum dated November 24, 2008, which directed the Department 
to act on 82 of the recommendations. Of the 82 recommendations, the 
Department already had action underway or had completed action on 29 
recommendations. He deferred two recommendations to other departments 
in the executive branch because those recommendations involved issues 
that were under the purview of those departments. Finally, he directed 
that no action be taken on eleven recommendations.
         overview of action taken by the department of defense
    In addition to continuing the actions already underway, the 
Secretary directed that detailed implementation plans be developed no 
later than December 19, 2008, for the 53 recommendations requiring new 
action. This resulted in 119 individual implementation plans, which 
have been approved by the Secretary. My office is tasked with 
monitoring the implementation plans and providing the Deputy Secretary 
with an update on our progress every 6 months.
    A detailed description of the actions being taken by the Department 
in response to the recommendations made by the Commission is contained 
in the report required by section 906 of the Duncan Hunter National 
Defense Authorization Act for Fiscal Year 2009, which will be submitted 
to Congress next month. However, I would like to provide the committee 
with highlights of some of the more significant actions the Department 
is undertaking.
I. Creating a Sustainable Operational Reserve
    One of the most notable findings made by the Commission was that 
the ``. . . nation requires an operational Reserve Force, but that the 
Department of Defense (DOD) and Congress . . . have not formally 
adopted the operational Reserve. Steps taken . . .  have been more 
reactive than proactive, more timid than bold, and more incremental 
than systemic. They thus far have not focused on an overarching set of 
alterations necessary to make the Reserve components a ready, 
rotational force. Congress and DOD have not reformed the laws and 
policies governing the Reserve components in ways that will sustain an 
operational force.'' While we believe that the actions taken by the 
Department and by Congress were thoughtful, proactive and appropriate 
as reliance on the National Guard and Reserve has increased, we did 
agree that we needed to formally recognize the operational role of the 
National Guard and Reserve within the total force and to establish a 
systematic approach to managing the National Guard and Reserve in their 
operation role as well as their strategic role. To accomplish this, the 
Department published DOD Directive 1200.17, Managing the Reserve 
Components as an Operational Force, on October 29, 2008. This directive 
established the Secretary's principles and overarching policies for 
managing the Reserve components in their operational and strategic 
roles. The importance the Secretary placed on this directive is 
demonstrated by the fact that he signed the directive, rather than the 
Deputy Secretary signing the directive which is the normal practice.
    Institutionalizing policy guidance on managing the Reserve 
components in the total force in a DOD directive is a major milestone, 
since previous statements concerning the Reserve components as part of 
the total force were simply provided in a series of Secretary of 
Defense memoranda dating back to 1970. This directive addresses the 
Commission's concern that the Department has not formally adopted the 
operational Reserve in ways that will sustain the Reserve components as 
an operational force. The management principles established in the 
directive will ensure that the operational employment of the Guard and 
Reserve will be sustained, with rules governing the frequency and 
duration of activation. These rules are based on the principle of 
judicious and prudent use of the Reserve components and provide 
predictability to the member, family, and civilian employer.
II. Enhancing DOD's Role in the Homeland
    The Commission expanded on the recommendations made in its March 
2007 report regarding homeland defense and defense support to civil 
authorities. In fact several of the January 2008 recommendations 
duplicated recommendations contained in the March 2007 report. The 
Department has completed action on most of the March 2007 
recommendations and has initiated several comprehensive assessments 
based on the recommendations in the January 2008 report. These include 
an assessment of the statutory authorities to provide support to civil 
support, an assessment of the adequacy of the plans of U.S. Pacific 
Command, U.S. Northern Command, and the National Guard Bureau to deal 
with a major catastrophe that has incapacitated the civilian government 
over a substantial geographic area, an assessment of the current and 
future roles of all components in homeland defense and civil support 
and the training for homeland defense and civil support activities, and 
an assessment of the military force posture and distribution of 
capabilities to respond to domestic emergencies in addition to those 
already required by law.
    The Commission also recommended that the National Guard and 
Reserves have the lead role in, and form the backbone of, DOD 
operations in the homeland. We believe that this is a total force 
responsibility and should not discount any military capabilities that 
might be needed in the event of a major disaster in the homeland, 
whether natural or manmade. But we do recognize that there are 
particular competencies and in some cases unique capabilities resident 
in the Guard and Reserve that could be called upon to respond when a 
major disaster occurs
III. Creating a Continuum of Service: Personnel Management
    The Commission recommended that over time the Defense Officer 
Personnel Management Act and the Reserve Officer Personnel Management 
Act should be merged. It further recommended that as an interim step to 
facilitate the transition, a single commission should be created in 
lieu of a regular and Reserve commission, which has become an 
administrative barrier for officers to move between components under 
our continuum of service construct. These are both complex undertakings 
which will require time to fully explore, but the Secretary has tasked 
us to do just that. My office has the lead for both of these 
initiatives.
    The Commission made a number of recommendations concerning joint 
officer management. The recently published DODI 1300.19, DOD Joint 
Officer Management Program, includes criteria for Reserve component 
officers to receive the same joint officer designation as their active 
duty counterparts. With Active, Guard, and Reserve officers serving 
side-by-side in joint commands and task forces, it is important that 
they are given the same joint designation. Reserve component officers, 
whether serving full-time or less than full-time, can be designated as 
a joint qualified officer under the standard path (the traditional path 
to joint designation) and the new experience path. The Secretary also 
directed that we develop a plan to expand opportunities to complete 
Joint Professional Military Education Phase II outside the traditional 
in-residency program. Providing Reserve component officers with the 
opportunity to become joint qualified will enable them to successfully 
compete for the most senior leadership positions within the Department.
    We are reviewing the number of duty statuses under which Guard and 
Reserve members may serve. Currently there are 29 different duty 
statuses. Because each has a specific purpose or specific funding 
source, it is not unusual for a member to change duty statuses, even 
though serving continuously on duty. This is disruptive to the member, 
the family and the command. The desired outcome of our review is to 
significantly reduce the number of duty statuses while retaining 
sufficient oversight and specificity to justify the budget request. 
While the exact number has not yet been determined, I anticipate a 
substantial reduction in duty statuses but it is highly unlikely, and 
probably not desirable that we will get to only two duty statuses as 
suggested by the Commission--on duty or off duty.
    The Secretary did not support the Commission's recommendations to 
remove end strength limits or to eliminate Active Duty for Operational 
Support. These provisions were enacted to enable Congress to monitor 
manpower management within the Department and they provide the 
Department with useful metrics to help manage the force.
IV. Developing a Ready, Capable and Available Operational Reserve
    Developing and maintaining a ready, capable and available 
operational Reserve can only be accomplished if it is properly 
resourced. ``Funding an operational Reserve'' was one of two special 
interest items identified in the Secretary's guidance. Balancing 
resource requirements across the Department is always a challenge. 
Recognizing that the Services must properly resource the Guard and 
Reserve consistent with their force generation plans, the Secretary 
directed that each biennial Program Budget Review shall propose 
appropriate funding for the readiness requirements necessary to prepare 
and employ the Reserve components in their operational roles, based on 
the level of persistent conflict, and published utilization and fiscal 
guidance.
    The second item of special interest was the recommendation 
involving visibility and accountability of equipment for the Guard and 
Reserve. The Department has examined its current processes and 
determined a course of action for improved financial transparency and 
accountability of Guard and Reserve equipment, from funding to 
equipment delivery. This plan will include a Department-wide 
implementation of enhanced President's Budget Justification Material 
coupled with a focused effort to improve tracking of equipment 
procurements to their delivery, as well as a disciplined semi-annual 
report to the Congressional Defense Committees notifying them of any 
funding or delivery changes throughout the appropriation cycle. These 
improvements, targeted for fiscal year 2010, will also provide the 
rigor and reporting structure necessary to support annual certification 
of equipment receipt within the National Guard, as required by sections 
351 and 1826 of the National Defense Authorization Act for Fiscal Year 
2008.
    Further, the Secretary directed an assessment of equipment 
requirements for the Active component and Reserve component (as 
appropriate) for homeland defense, domestic emergency response and 
military support to civil authorities, in accordance with section 1815 
of the National Defense Authorization Act for Fiscal Year 2008.
    Full-time support personnel are critical to readiness. The level 
and mix of full-time support personnel for a strategic Reserve is not 
necessarily the level and mix of full-time support personnel to ensure 
readiness of an operational Guard and Reserve. To address this 
readiness issue, the Secretary directed a comprehensive review of the 
full-time support program with an individual assessment conducted for 
each Reserve component. This will provide the foundation for justifying 
changes needed in full-time support staffing to ensure readiness.
    Medical and dental readiness has long been a concern. The amendment 
included in the Duncan Hunter National Defense Authorization Act for 
Fiscal Year 2009, expanding the authority previously limited to the 
Secretary of the Army to provide medical screening and dental screening 
and treatment for Reserve component members identified as early 
deployers, now includes the Secretary of the Navy and the Secretary of 
the Air Force and clarifying the funding source for medical readiness 
will be very helpful to the Services as they develop plans for funding 
and providing medical and dental screening and treatment for Reserve 
component members as directed by the Secretary.
    Finally, to help senior leaders monitor the readiness of the 
Reserve components, the Secretary directed that the Defense Readiness 
Reporting System be modified to include data on full-time support 
personnel, individual medical readiness and requirements for defense 
support to civil authorities.
V. Supporting Servicemembers, Families, and Employers
    There have been enormous changes in the pay, benefits, and support 
provided to Guard and Reserve members and their families over the past 
7 years. Pay and allowances have increased significantly, Selected 
Reserve members have access to the military health care system 
regardless of duty status, there are two new educational assistance 
programs that provide benefit payments that incrementally increase 
based on the length of service, and we plan to implement the authority 
for members to transfer the post-September 11 educational assistance 
benefits to their spouse and children, in the near future.
    To maintain continuity of health care, the Commission recommended 
that Reserve component members be allowed to enroll in the Federal 
Employee Health Benefit Program in lieu of TRICARE Reserve Select and 
that the Department offer a stipend to members who want to retain their 
family in a private or employer-sponsored health plan in lieu of using 
TRICARE while on active duty for greater than 30 days. We are assessing 
both of those options.
    The Commission also made several recommendations to expand and 
enhance the support provided to Reserve component members and their 
families. The Services and their Reserve components are primarily 
responsible for delivering support services. But because Guard and 
Reserve members are geographically dispersed and often do not live near 
a military facility or their local armory/reserve center, we have been 
encouraging a joint approach for delivering support services, 
particularly for Guard and Reserve members and their families.
    The Services and their Reserve components have committed to 
providing support services to members and families at the local level 
regardless of the member's service or component affiliation. There are 
two dedicated OSD programs to assist the Services in supporting Reserve 
component members and their families. The first is the Joint Family 
Support Program. This program provides financial and material 
assistance and mobile support services, and sponsors volunteers and 
family support professionals who deliver support services and 
coordinate family assistance programs and activities provided by 
Military OneSource, Military Family Life Consultants, counselors, DOD, 
other Federal agencies, state and local agencies, and nonprofit 
entities.
    The second and most recent program is the Yellow Ribbon 
Reintegration Program, which was mandated in the National Defense 
Authorization Act for Fiscal Year 2008 to provide National Guard and 
Reserve members and their families with information, services, 
referrals, and proactive outreach opportunities throughout the 
deployment cycle. My office was designated the lead for this important 
program and within 6 weeks of the requirement to establish the program, 
we opened the Office for Reintegration Programs. We have published 
guidance on the support required across the deployment cycle--from 
predeployment through reunion and reconstitution. We also worked 
closely with the Comptroller to secure funding. We have also 
collaborated with the National Guard Bureau to develop a Decision 
Support Tool that will allow rapid deployment of a nationwide calendar 
of Yellow Ribbon events for our servicemembers and their families.
    But the real success is that the State National Guard and Reserve 
organizations are delivering support services under the Yellow Ribbon 
Reintegration Program. The most immediate need was to assist members 
returning from deployment with reintegration activities being conducted 
at the 30, 60, and 90 day interval following demobilization. (In fact, 
so far this fiscal year, the Reserve components have conducted over 160 
entire deployment cycle events for over 30,500 Guard and Reserve 
members, and their families.) During the past year, Service programs 
have rapidly expanded to also provide enhanced support services before, 
during and after mobilization and deployment. These Service programs 
ultimately improve the level of readiness for their deploying 
personnel.
    The DOD Yellow Ribbon Reintegration Program is proving to be 
extremely successful and I am confident when it fully matures, we will 
have an extremely robust program that addresses the challenges of 
deploying to a combat zone and better prepares servicemembers and their 
families for the challenges they face throughout the deployment cycle.
    The Commission included several recommendations regarding employer 
support. We are evaluating our Employer Support of the Guard and 
Reserve organization to ensure it is meeting the needs of Reserve 
component members and is effective in gaining the support of employers. 
The self-employed and small business owners require special attention 
and over the past 7 years we have worked closely with the Small 
Business Administration to address the unique challenges small business 
owners face.
VI. Reforming the Organizations and Institutions that Support an 
        Operational Reserve
    The Commission recommended that the Secretary develop a new total 
force policy to achieve the next level of integration among all 
components. The new DOD directive signed by the Secretary last October 
on managing the Reserve components as an operational force establishes 
the next level of integration. Moreover, the actions the Secretary 
directed to address the recommendations made by the Commission are the 
substantive steps to further integrate the force. We are also reviewing 
all DOD and Service regulations to identify and eliminate policies and 
programs and request amendments to laws that limit the Department's 
ability to manage personnel and programs as an integrated total force.
    Within this area, there were several recommendations on which the 
Secretary chose to take no action. There were recommendations that 
called for a complete reorganization of the categories under which the 
Reserve components are managed. The Commission recommended an 
operational category and a strategic category. The Department 
determined that while this concept appeared intriguing, in the end such 
a change would not improve the management of the Reserve components. 
This would be more about relabeling the current categories, but could 
potentially limit flexibility and would more than likely result in 
adverse resourcing implications--creating the ``haves'' and ``have 
nots.'' Another set of recommendations involved a mix of organizational 
changes that the Secretary determined were not prudent at a time of 
unprecedented use of those forces, particularly the recommendation that 
would eliminate the office established by Congress to oversee and 
advocate for Reserve Forces.
                               conclusion
    Overall, the Department's response to the Commission's report and 
the recommendations made by the Commission was positive, proactive, and 
aggressive. This response to a report of this kind was unlike any I 
have seen, with the Department undertaking nearly 120 new initiatives 
in addition to actions already underway. The priority the Department 
places on this undertaking is plainly stated in the January 29, 2009, 
memorandum approving the implementation plans.
    These plans will remove impediments to the employment of the 
National Guard and Reserve as an operational force, strengthen their 
role in providing strategic depth, and institutionalize the continuum 
of service personnel management construct. As such, these plans are 
part of the Department's top priorities and should be implemented 
aggressively.
    Over the past 7 years, there has been a fundamental change in how 
the Guard and Reserve are used and the high value the Department places 
on them. There are no more ``weekend warriors;'' there are only citizen 
warriors who continue to answer the Nation's call to serve.
    It has been my pleasure to represent these fine citizen warriors 
for the past 6\1/2\ years as the Assistant Secretary of Defense for 
Reserve Affairs. I want to close by thanking the members of this 
committee for your unwavering support for the men and women who serve 
in the National Guard and Reserve.

    Senator Ben Nelson. Senator Thune, Senator Chambliss, any 
opening statements?
    Senator Chambliss. I have no opening statement. I do just 
want to thank Tom for his great service. He's had 6\1/2\ great 
years with the Pentagon. Tom, you've done a great job. You've 
provided great service to our country, and we thank you for 
that.
    Mr. Hall. Thank you for heading that caucus, and I 
appreciated being with you the other day. I appreciate all your 
support.
    Senator Thune. No opening statement. I have some questions 
when we get to them.
    Senator Ben Nelson. Secretary Hall, I know that you led 
that working group of senior executives that were directed to 
conduct this comprehensive review of the report of the 
Commission on the National Guard and Reserves.
    What's the status of the Department's implementation of the 
recommendations of the Commission, and perhaps you can outline 
maybe the three most difficult issues that your working group 
had to address? Finally, what did your working group do with 
respect to make the concept of a continuum of service a true 
reality? But starting first with what's the status, then what 
challenges did you notice?
    Mr. Hall. We set a very aggressive timeline. The Commission 
met for about 2\1/2\ years, and I was determined in 2\1/2\ 
months to complete our staffing. We did that. It took a very 
large whip, but we accomplished that.
    Implementation of the Commission's recommendation numbers 
42 and 43, the last two, on equipment and programming, 
completes the implementation of what the Secretary directed 
regarding the implementation of 82 of the 95 recommendations. 
Of the remainder, two of them were sent to VA. The other 11 we 
required no action or did not agree with.
    So all of those 82 are in the process of being implemented. 
My office is charged with reporting monthly, and the first will 
be next month, on the status of each one of those 
recommendations. We have a timeline for each of them. We're 
going to follow them. One of the things I wanted is for it not 
to die and become another report that goes on the shelf. So 
we're required to report directly to the Secretary every month.
    The hardest ones, I think the equipment and the 
programming, were very difficult because the Services did not 
want to reduce their flexibility in how they handled the 
equipment, but at the same time we needed visibility. So, to 
obtain something which would give us flexibility and visibility 
together, we hammered for quite some time. That's been decided.
    I think the joint qualifications for our people were very 
important. I know Senator Graham is very familiar with this. We 
have now worked out, starting in October 2007, that the joint 
military qualifications are now extended to all of the Guard 
and Reserve. Most importantly, it's not just quantity of time 
you serve; it's quality of time. If you serve 6 months in a 
combat zone, that might be more quality joint time than 2 years 
on a staff. So we have the provisions for that. It's fully 
integrated.
    I also mentioned that for the adjutants general, we went 
out with a call to the adjutants general to see which ones 
thought that they would qualify for joint credit within their 
State, and 29 of them came in and set those qualifications. The 
Joint Staff approved all 29, 29 of 29, for those adjutants 
general to receive joint duty credit for their service as an 
adjutant general within the State where they have both the Army 
and the Air Force.
    I think those were some of the most challenging ones. Also, 
support to civil authorities, and of course the others have 
already been accomplished with General McKinley receiving a 
fourth star and General Blum being the first deputy commander. 
So those we implemented already. But those were the bit more 
challenging ones.
    But I think we're on track with that, Senator.
    Senator Ben Nelson. The Commission determined that the 
Reserve component personnel are called to serve in 29 different 
statuses, and it concluded that these statuses are confusing 
and frustrating to both the members and the commanders. So the 
Commission recommended that DOD reduce the number of duty 
statuses from 29 to 2. That's a substantial reduction.
    What's the Department's assessment of this recommendation?
    Mr. Hall. They once tried to teach me all 29 as an aviator, 
but they found it was impossible for me to remember all 29.
    The answer is not 2 and the answer is not 29. I commanded 
the Naval Reserve along the way and experienced all of those. 
So we're trying to do something unique this time. We're 
actually trying to turn it over to the operators, these 
gentlemen back here who use it, and say ``What amount of those 
do you think gives you the most flexibility in what you need?'' 
I think it's going to be between four to seven statuses because 
that allows flexibility. But rather than us decide it in the 
Office of the Secretary of Defense and in the Pentagon, I have 
asked them to tell us what they need, then we ought to listen 
to them, and we ought to put those four to six in. That's 
working right now. They are doing that, and I anticipate that 
the answer, whatever they give, we will implement those for 
both flexibility and what they need.
    Senator Ben Nelson. Thank you.
    Finally, the Commission made a number of recommendations to 
improve the health care benefits available to Reserve component 
members and their families. Has the Department taken any action 
or will it take any action to improve that health care? We're 
introducing legislation, but is there anything that's underway 
right now?
    Mr. Hall. I think the TRICARE Reserve Select has just been 
a watershed because when I first came into the job, it was 
predicted that we will never have the military health care 
system available to all drilling reservists and their families 
when you come on Active Duty. But you've fixed that. As I 
mentioned, it helped 100,000 servicemembers and their families. 
That can't but help us with the overall health of our families 
and our troops.
    I have been very encouraged in dental readiness, for 
instance. You have asked me each time about that, and I think 
you should ask my colleagues about it. When I first went to the 
mobilization stations at Fort Bliss, Fort Hood, the various 
places, the dental readiness of our units, the Basic Training 
Centers (BTCs), was running about 30 percent. When I visited 
with General Wyatt's 45th when he was an adjutant general in 
Oklahoma, it was at about 90 percent.
    The commercial vans that he used and they pioneered, where 
they pull a van up to a drill center and, as you say, they 
drill them while they're on drill, and they have three seats 
and you run them through one end and you take care of all of 
them, and you do that before they mobilize and you do that at 
the armory, so when they report to the mobilization station you 
don't take time away from training. They are already ready.
    Now, we're not 90 percent in every unit, but what I'm 
saying is the percentage is going up to 75 to 80 to 90. So 
we're well on the way to that.
    I think, given the medical readiness of the troops and 
their families, because of what you have done, can we improve 
some more? There are some more possible improvements on the 
margin with TRICARE, as you've mentioned for the grey area. But 
I think for our troops and their use of the system: 90 days 
prior to going to mobilization, 6 months afterwards, and you 
can use it for every 90 days you serve for up to a year. You 
could have it for 8 years after mobilization, combined with 
being able to have it any time. It is the right way forward 
because, if we're going to use 700,000 guardsmen and 
reservists, we have to have the same medical standards for them 
as the Active Duty. We're going that way. We're not perfect, 
but great progress has been made in that area.
    Senator Ben Nelson. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Secretary, one of the things that's intrigued me is 
that, due to the extensive deployments, redeployments, and the 
utilization of the Guard and Reserve, the one thing I've been 
worried about is people punching out at 20 years of service. 
For example, in my old Guard unit in South Carolina, you had to 
blow people out. They'd stay there until they were 90 if you'd 
let them because they loved the unit, loved what they did.
    Have you seen any increase in people retiring at 20 years 
of service and not staying past?
    Mr. Hall. I think my colleagues would be better prepared to 
answer that, but I think you've hit on a very important point. 
The way we work our recruiting, our retention--and I was a 
retention officer once--is we get people retained to 10 years, 
and at that point they're in the Active Force and we keep them. 
We do very little for people past 20 years.
    Now, the GI Bill is one of the things that is going to help 
with transferability and other benefits. I personally think we 
need to look at what we do for people past 20 years, and I 
think moving retirement benefits from 30 to 40 years, where you 
can continue to accrue it, is a good step forward. But we want 
to reenlist those people. I often ask, after 20, well, we don't 
have the bonuses.
    So I think if we can do things to incentivize people to 
stay longer, rather than leave earlier, that has to be our next 
step because those are the sergeants, those are the chief petty 
officers, those are the kinds of midgrade officers you need to 
keep, and your company doesn't need to lose them at the 20-year 
point.
    So I think we all need to explore what we can propose or 
what you might want for servicemembers past 20.
    Senator Graham. One of the things that I've been thinking 
about for a while is, if you'll serve 22 years, you can maybe 
retire at 50. Step down the retirement because really that's 
when you're in your military prime. That 20-year person has 
been there and done a lot; 20-year people make great teachers 
and have a lot of skills that we will need. So we'll look 
forward to working with everybody to try to find a way to make 
sure that we keep people past 20, particularly in selected key 
areas.
    You talked about the dental situation. One of the things we 
learned after September 11 is that when we started calling 
people up to Active Duty, we had a hard time getting Guard and 
reservists into deployable status because of medical problems. 
They were trained to fill in for the Fulda Gap and all of a 
sudden here we are in a global war on terror--and I'm going to 
continue to call it that. You can call it what you want to. 
That's what I'm going to call it because I think that's what it 
is--and we had a hard time getting people ready to deploy.
    About 25 percent of the Force, I think, called up to Active 
Duty was medically disqualified for dental problems initially. 
When you think about it, the enemy is depleting our forces 
without firing a shot. I know you've done some good things in 
that area, but here's a number they've given me in the book. I 
don't know if it's right or not. But in the first quarter of 
fiscal year 2009, more than half of the Army Guard and Reserve, 
52 percent, reported as nondeployable due to class 3 or 4 
dental readiness status.
    Mr. Hall. I think, again, my colleagues can speak to this. 
A lot of that in that readiness area might be because they 
haven't had the exams at all. So we'd have to break that down 
into whether it's that you haven't had the exam or you had 
treatment.
    When I first came into this job, the first place I visited 
was Fort Bragg, and a dentist came up and said: What do you 
think the record is for me pulling teeth?
    Senator Graham. Bad teeth are doing more damage to us than 
the enemy.
    Mr. Hall. The dentists say if you can't bite you can't 
fight. So that's their fight song along the way.
    But, this dentist pulled 28 of the 32 teeth. A person who 
came in was in such poor shape because it's a problem in our 
country.
    Senator Graham. We don't have private sector dental health 
care usually. It's not that the Army's just inheriting a 
problem that society has.
    Mr. Hall. I think we're getting better, but I think my 
colleagues can comment on how much better we are.
    Senator Graham. Anything you can think of to deal with this 
problem, whether you need money or legal changes, we stand 
ready to help.
    Mr. Hall. Yes, sir.
    Senator Graham. Thank you for the job you've done for the 
country, and I think you can leave your post looking back and 
saying that you were there when it mattered the most maybe 
since World War II for sure. You're a great leader. Thank you 
very much.
    Mr. Hall. Thank you, sir.
    Senator Ben Nelson. Thank you, Senator Graham.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    I do have to depart, but I have just one question. It's a 
follow-up to your question in regards to TRICARE and how it 
works. I'm just going to read a note I have here. The 
Commission on the National Guard and Reserves recommended that 
the Reserve component be allowed to enroll into the Federal 
employee health benefit program in lieu of TRICARE and that the 
Department offer a stipend to members who want to retain their 
family in a private or employer-sponsored health plan in lieu 
of using TRICARE for Active Duty for greater than 30 days. Do 
you have a comment on that?
    Mr. Hall. The chairman asked about that earlier, the status 
of our work. One of our particular work groups is looking at 
that proposal right now. I think the key for the Federal health 
care benefit program is what best advantages the individual. 
The way I would look at it is, if it's better for them to do, 
they ought to have the option. We're looking at both of those 
options.
    We have to report out to the Secretary on what we think 
about those two particular portions of that work group, and our 
first report on our progress will be next month.
    Senator Begich. I'm assuming the chairman asked, would you 
share that progress with this committee?
    Mr. Hall. Certainly. We shared the large report with the 
staff, and we will share progress reports with them as they 
come out.
    Senator Begich. The progress would be great. Great.
    Thank you.
    That's all, Mr. Chairman. I had just that one quick 
question for Mr. Hall. Thank you.
    Mr. Hall. Thank you, sir.
    Senator Ben Nelson. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Again, Mr. Secretary, let me just commend you for your 
great service to our country. Talk for a minute, if you will, 
about the readiness and about the predictability from the 
standpoint of individual members as reservists and guard 
members being able to tell their families when they're going to 
go, and, on the other side, if we are doing what we need to do 
from an employer standpoint, to try to give the employer the 
predictability that they need.
    Mr. Hall. I think the single most important thing to a 
trooper, his or her family, and his or her employers, is not 
any different than it was when I first joined a long time ago. 
Barbara wanted to know: When are you going to go, how long are 
you going to stay there, when are you going to be back, and can 
you tell me as far ahead as possible? It hasn't changed a lot.
    I think this was a primary motivation of Secretary Gates in 
establishing the predictability goals. As I say, we're up to 
about 1:4 deployment-to-dwell-time ratios. But more important 
is alerting the Guard and Reserve. When I first came into the 
job, we were giving people 30 days notice. We were more in a 
crisis mode. Then we worked so that the last groups that we 
were going to alert, we gave them 2 years notice, 20 to 24 
months notice.
    One of the things I heard is if you alert them that far 
ahead, people will leave the units. But I don't think that's 
true. I think they have stayed. So the employers that I have 
spent time with have said advance notice provides 
predictability, even that far ahead; if you can tell us 2 years 
ahead, we will plan. There has not been a huge exodus in my 
tracking of our Guard and Reserve units, and I've tracked the 
BTCs carefully. They have lost some, but it hasn't occurred 
above normal planning, so I think the predictability is key.
    When I came into the job, our Employer Support of the Guard 
and Reserve (ESGR) was funded at about $9 million. We were 
reaching a small segment of our employers. Today, we're funding 
it at $20 million. Doesn't sound like a lot, but we've doubled 
the funding, almost two and a half times. We want to reach more 
of the employers out there because the reservist has the three-
legged stool, the employer, the family, and their job. If any 
of those legs fall off, the stool will collapse.
    So I think predictability is probably the most important 
thing I hear from families and employers. We're working hard 
with ESGR. We're giving longer notifications, more alert time, 
and I think it's been well received. Yes, some people might 
leave if they learn 2 years ahead, but there hasn't been that 
exodus. These are very, very patriotic people that are proud to 
be in the units, and in the Guard and the State in particular, 
that's their unit. That's the people they work with. That's 
whom they live with. You know that, and they stay with them.
    So that's about where we are on our predictability. I think 
we ought to continue. One of the rules that was passed by 
Congress, you will not have less than 30 days notice. The goal 
is 90 days before you tell them when to mobilize. The Secretary 
of Defense said: No, it's 180 days. So he has told us that we 
have to personally report to him if we are mobilizing anybody, 
and he took it a step from 90 to 180 days. Every week, I have 
to report that if anybody is not given at least that much time 
prior to mobilization.
    So I think there's great sensitivity on his part with 
predictability.
    Senator Chambliss. Good. The 48th Brigade of the Army Guard 
from Georgia is heading to Afghanistan beginning in May. They 
did a tour in Iraq a couple of years ago. They did not get to 
take advantage, under current law, of our early retirement 
provision, but now when they go back this time, that early 
retirement provision's going to kick in for them.
    Senator Kerry and I have a bill up again to make it 
retroactive to September 11. We're going to keep working until 
we get that done.
    What kind of anecdotal feedback have you gotten from the 
Guard and Reserve folks from around the country with respect to 
their feeling about the opportunity to retire earlier than age 
60?
    Mr. Hall. It was the number one thing I got when I went to 
town halls, maybe tied with health care--no, TRICARE. But as 
Barbara and I traveled around the country, and she would go 
with me, at my expense, to talk with the families, every one of 
them mentioned TRICARE and early retirement.
    They applauded it. I think--again, it's my last hearing; 
I'll be quite honest. I don't think you would find one of them 
that would be against it being retroactive. From the 
Department's aspect, we'll carry out the law as it is passed. 
But most of them have voiced that opinion to me as I've gone 
around, and it was very important to them. They welcomed that. 
They realize that, as they go and serve now with the 48th, they 
will be able to take advantage of that.
    You set a minimum age on it, I think, of 50 years old, but 
you could reduce it all the way down. Universally at my town 
halls, that's been applauded by the Guard, Reserve, and your 
constituents. I found no one against it.
    Senator Chambliss. Great. Again thanks for your service. We 
know this is a family commitment. Miss Barbara, we thank you 
for serving your country, too, with respect to serving Tom. So 
thanks very much, Mr. Secretary.
    Mr. Hall. Thank you, sir.
    Senator Ben Nelson. Thank you, Senator Chambliss.
    Senator Burris, before you start, a vote started at 3:05 
p.m., if you'd like to go with your questions now, and then we 
can break, so that nobody misses the vote, and we'll come back.
    Senator Burris. Thank you, Mr. Chairman. Mine will be 
rather quick because it's not that involved.
    Welcome, Secretary Hall. I understand this is your last 
tour.
    Mr. Hall. Yes, sir.
    Senator Burris. God bless you and Godspeed.
    Mr. Hall. Thank you, sir.
    Senator Burris. Secretary Hall, I'm especially interested 
in the concept of transforming from Strategic Reserve Forces to 
Operational Reserve Forces. In your statement for the record, 
you said that there were recommendations made by the Commission 
on the National Guard and Reserves that called for a complete 
reorganization of the categories under which the Reserve 
components were managed, and the Commission recommended an 
operational category and a strategic category.
    So Secretary Hall, can you tell us why no action was taken 
on those recommendations?
    Mr. Hall. We looked at that carefully and we came to the 
conclusion that it was just a different way of racking and 
stacking, as they say in the Army, I guess, the categories we 
have. So we looked at each one of the categories. We looked at 
what they would name them. Then we said, at the end of the day, 
is it change for change sake or does it add value and make 
sense? We believe that taking the Selected Reserve category is 
one, and all those did not give us a material advantage to what 
we have now with the IRR, the Selected Reserve, the Retired 
Reserve, categories for Selected Reserve, and the Drilling 
Reserve.
    So we just came to the conclusion that it did not add any 
more value, and I thought we had to have a compelling reason 
for changing. I would be interested in the chiefs' view on 
this, but it looked like we understood the categories now, we 
use them, and it was functioning, so we elected to take no 
action on that.
    Senator Burris. So can we tell which is strategic and which 
is operational now? How do you distinguish?
    Mr. Hall. I think you're both. I think when you're not 
operational, you're in the strategic. I think everybody's 
strategic, ready to fight for the country, but then when you go 
forward, you're operational, and so you flow between both 
categories, and I think most reservists understand that.
    The chiefs can see, but it was pretty simple to me. When 
I'm forward, mobilized and fighting, I'm pretty operational. 
When I'm at home waiting for the fight, I'm sitting in a 
strategic way to answer the call to my country.
    Senator Burris. It makes a lot of sense to me, Mr. 
Secretary.
    Mr. Hall. Thank you.
    Senator Burris. Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator.
    Thank you, Secretary Hall. I think we will break right now 
and we'll come right back for the second panel. Senator Graham 
is coming back as soon as he votes. I'll be back as soon as I 
do. Thank you.
    Mr. Hall. Thank you, sir.
    Senator Ben Nelson. Thank you for your service.
    [Recess from 3:12 p.m. to 3:26 p.m.]
    Senator Ben Nelson. These votes always seem to get in the 
way of our other business.
    Thank you for waiting. Senator Graham will be back shortly, 
and we'll have some of the other Senators return as well.
    On our second panel, we have the Chiefs of the Reserve 
components. This includes: Lieutenant General Clyde A. Vaughn, 
Director of the Army National Guard; Lieutenant General Harry 
M. Wyatt III, Director of the Air National Guard; Lieutenant 
General Jack C. Stultz, Commanding General, U.S. Army Reserve 
Command; Vice Admiral Dirk J. Debbick, Chief of Naval Reserve 
and Commander, Navy Reserve Force; Lieutenant General John W. 
Bergman, Commander, Marine Forces Reserve, and Commander, 
Marine Forces North; and Lieutenant General Charles E. Stenner, 
Chief of Air Force Reserve and Commander, Air Force Reserve 
Command.
    We extend a very special welcome to Rear Admiral Daniel R. 
May, Director of Reserve and Training, U.S. Coast Guard 
Reserve. It's not often that we have the Coast Guard here, the 
Coast Guard falls under the Secretary of Homeland Defense when 
it's not operating as a service of the Navy. But the Coast 
Guard is a vital part of the total military force and, in fact, 
operates under many of the same statutory authorities as the 
other Services. So, we welcome you here as well.
    We welcome all of you. We look forward to hearing about the 
state of the United States Coast Guard Reserve and the other 
Reserve components. So, gentlemen, thank you so much. We'll 
start with Lieutenant General Vaughn, if you would, please.

STATEMENT OF LTG CLYDE A. VAUGHN, ARNG, DIRECTOR, ARMY NATIONAL 
                             GUARD

    General Vaughn. Thank you, Mr. Chairman. I would ask that 
my statement be entered into the record, and I'll be real brief 
since there's seven of us here.
    Thanks for the great support of this committee and your 
leadership. We had an interesting discussion a while ago about 
Operational Forces and Operational Reserve. This is the 
strongest ARNG of all time. We are indeed an Operational Force.
    But I have to remind everybody, it's all about people on 
the bottom end. You have to have all the people, you have to 
have them all trained, racked, and stacked in the right 
formations, and then you have to have the equipment and full-
time support that supports that. That's an Operational Reserve, 
and if the Nation asks it to do something or the State asks is 
to do something, then it can go do it. You just throw the money 
you want to for training to it. But you don't have to 
reorganize, cross-level, and do all this stuff that we had to 
do some time back.
    So I want to thank you for everything. We're over our end 
strength right now. We have every plan to bring it back down to 
an authorized level. We don't have the resources to pay for 
this. But I assure you that we're going to grow readiness. We 
have a plan to do that at the same time that we're lowering end 
strength back down.
    I look forward to your questions. Thanks for your 
leadership, sir.
    [The joint prepared statement of General Vaughn and General 
Wyatt follows:]
  Joint Prepared Statement by LTG Clyde A. Vaughn, ARNG, and Lt. Gen. 
                        Harry M. Wyatt III, USAF
                  introduction and executive overview

        General Craig R. McKinley, Chief, National Guard Bureau

New Beginnings
    2008 was a year filled with positive change for the National Guard. 
The National Defense Authorization Act (NDAA) of 2008, enacted in 
January, designated the National Guard Bureau (NGB) as a joint activity 
of the Department of Defense (DOD). The law also elevated the grade of 
the Chief, NGB to the rank of General. With this new stature and an 
explicit linkage to the Secretary of Defense, through the Chairman of 
the Joint Chiefs of Staff (CJCS), NGB is better positioned to represent 
National Guard issues and concerns at the highest levels in the DOD.
    The Report of the Commission on the National Guard and Reserves and 
NDAA 2008 both identified the need for a new NGB charter. After almost 
a year of close collaboration among NGB, the combatant commanders, the 
CJCS, the Armed Services and the DOD staff, Secretary Robert M. Gates 
signed DOD Directive 5105.77, NGB. This unprecedented directive 
formally lays out the full scope of NGB's functions, roles, and 
authorities--embedding NGB in DOD's strategic processes. It is sound 
DOD policy.
An Operational Force
    The depth provided by the National Guard is no longer the ``once in 
a lifetime'' use of a strategic reserve as envisioned during the Cold 
War. The National Guard has become an operational force that is an 
integral part of the Army and Air Force; it is populated by seasoned 
veterans with multiple deployments in support of operations in Iraq, 
Afghanistan, the Balkans, and many other locations around the world.
    In addition to the thousands of National Guard soldiers and airmen 
currently activated for ongoing Federal missions, the National Guard 
provides significant response to unexpected contingencies. Despite 
major overseas commitments, during the 2008 hurricane season over 
15,000 guardsmen responded on short notice to catastrophic events 
unfolding in Louisiana and Texas. The National Guard serving here at 
home also fought extensive fires and flooding and provided disaster 
relief to numerous states throughout the year.
Readiness
    Personnel
    Our most precious assets flow from our communities. Citizen-
soldiers and airmen are employed by their Governors every day to 
protect American lives and property in the homeland from weather-
related events to suspected biochemical contamination. Despite all we 
have asked of them in the overseas warfight as well as here at home, we 
are recruiting and retaining National Guard members in impressive 
numbers. Americans join and stay in the National Guard. But as 
successful as we have been to date, we need continued support for 
recruiting and retention efforts as well as increased end strength 
authorizations.
    Equipment
    The National Guard must have modern equipment if we are to remain 
successful as defenders of the homeland at home and abroad.
    Army National Guard units deployed overseas have the most up-to-
date equipment available and are second to none. However, a significant 
amount of equipment is currently unavailable to the Army National Guard 
in the States due to continuing rotational deployments and emerging 
modernization requirements. Many States have expressed concern about 
the resulting shortfalls of equipment for training as well as for 
domestic emergency response operations.
    The Army is programming $20.9 billion for Army National Guard 
equipment for fiscal year 2009 through fiscal year 2013 to procure new 
equipment and modernize equipment currently on hand. We appreciate that 
support and also the strong interest of Congress and the DOD in closing 
the gap between our domestic requirements and the available equipment 
in our armories and motor pools.
    The Air Force is in the midst of modernizing and recapitalizing its 
major weapons platforms, and the Air National Guard must be 
concurrently recapitalized, particularly in order to avoid near- to 
mid-term ``age out'' of the majority of its fighter force. Our primary 
concern is that 80 percent of our F-16s, the backbone of our Air 
Sovereignty Alert Force, will begin reaching the end of their service 
life in 8 years. To that end, we support the Air Force's 
recapitalization plan, but request that all roadmaps be inclusive of 
the Air National Guard as a hedge against this ``age out.''
State Partnership Program
    The National Guard State Partnership Program (SPP) establishes 
enduring and mutually beneficial partnerships between foreign countries 
and American states through the National Guard. This program is an 
important component of the DOD's security cooperation strategy, the 
regional combatant commanders' theater engagement program, and the U.S. 
Ambassadors' Mission Strategic Plans. A primary aim is to promote 
partnership among the many nations working with us to advance security, 
stability, and prosperity around the globe. Today, American states are 
partnered with 60 foreign nations (a 60 percent increase over the past 
5 years) to focus on military-to-military, military-to-civilian, and 
civil security activities.
    Created in 1993, SPP has helped the United States European, 
African, Southern, Pacific, and Central Commands engage the defense and 
military establishments of countries in every region of the globe. The 
program's benefits include:

        <bullet> Providing combatant commanders and U.S. Ambassadors 
        with avenues for building international civil-military 
        partnerships and interoperability during peacetime by linking 
        state capacities to the goals and objectives in the Foreign 
        Assistance Framework of the U.S. Government.
        <bullet> Enhancing current and future coalition operations by 
        encouraging and assisting partner nations to support efforts 
        such as the North Atlantic Treaty Organization's Operational 
        Mentor and Liaison Team program in Afghanistan, and exercises 
        supporting the Association of Southeast Asian Nations region.
        <bullet> Building more cultural and global awareness into 
        citizen-soldiers and airmen to help them operate in today's 
        complex multi-national and multiagency operations.

    This valuable mutual security cooperation program will continue to 
expand in size and strategic importance to the combatant commanders, 
Ambassadors, and broad U.S. Government interagency requirements as we 
enter the second decade of the 21st century.
The Future
    The National Guard, the Nation's community-based force, will always 
answer the call of the President and the Governors.
    Our priorities are constant:

        <bullet> Provide for the security and defense of our homeland 
        at home and abroad
        <bullet> Support the global war on terror
        <bullet> Respond to America's need for a reliable and ready 
        National Guard that is transformed for the 21st century

    It is an honor to be named the 26th Chief of the NGB. As a 
synchronized joint activity, we will capitalize on momentum gained over 
the past several years and will build new relationships based on our 
new roles and responsibilities.

          The National Guard will remain ``Always Ready, Always 
        There.''

    The following pages offer a full report on our recent 
accomplishments along with our ongoing responsibilities for fiscal year 
2010.
  army national guard--message from the director--lieutenant general 
             clyde a. vaughn, director, army national guard
    Army National Guard citizen-soldiers continue the proud tradition 
of service to our Nation both at home and around the world. Our 
citizen-soldiers consistently proved themselves capable of operating 
across a wide spectrum of missions in Iraq, Afghanistan, Belgium, 
Bosnia, Djibouti, Egypt, Germany, Honduras, Kosovo, Kuwait, and the 
Philippines.
    The Army National Guard continues to achieve outstanding results 
meeting recruiting and retention goals. As of December 31, 2008, Army 
National Guard assigned strength was 365,814 citizen-soldiers, a gain 
of approximately 35,000 citizen-soldiers in about 3 years. At the same 
time we have reduced our nonparticipating numbers to 5,404 (from 6,082 
in July 2005).
    With thousands of our citizen-soldiers ``on the ground'' in foreign 
lands, we are equally busy at home. National Guard units fought 
wildfires in California, aided hurricane victims on the Gulf Coast, and 
assisted numerous environmental clean-up activities around the country. 
These responses from across our land demonstrate the importance of 
training and equipping our soldiers so they are ready to render service 
and assistance to home communities.
    We are committed to deploying citizen-soldiers with the best 
equipment and training possible. The U.S. Army's similar assurance and 
ongoing congressional interest in the welfare of our people will ensure 
the success of the Army National Guard.
                 investing in present and future value
    Mobilizations, deployments, modular force conversions, counterdrug 
assistance, and disaster response dominated the Army National Guard's 
efforts to answer needs at home and abroad. But to remain America's 
vital force, the Army National Guard must invest in people, equipment, 
operations, and technology like never before.
Meeting Mission Requirements
    Heavy demands on personnel and declines in equipment-on-hand due to 
increased mobilizations and deployments continued in fiscal year 2008. 
The Army National Guard effectively met mission requirements and 
continued to support ongoing conflicts. However, for some units 
returning from deployment, equipping and training levels decreased 
readiness.
Modular Force Conversion and Rebalance
    The Army National Guard successfully met its 2008 goal of 
transforming 1,300 operating force units to a modular design. This 
brings the total number of units transformed to more than 2,800.
    Converting Army National Guard units to modular configuration in an 
era of persistent conflict has significantly increased equipment and 
modernization requirements and has also increased equipment readiness.
    The Army National Guard brigade combat teams (BCTs) are composed 
identically to the Active Army and can be combined with other BCTs or 
elements of the joint force to facilitate integration, 
interoperability, and compatibility. The Army National Guard 
transformation into these modular formations provides an enhanced 
operational force. This is key to meeting the goal of making at least 
half of Army and Air assets (personnel and equipment) available to the 
Governors and Adjutants General at any given time. This transformation 
effort impacts over 87 percent of Army National Guard units across all 
50 States, 3 territories, and the District of Columbia, and crosses 
every functional capability in the force.
                         investing in personnel
    Our greatest asset is our people. We have the best trained force in 
the world. But we also have unparalleled support of our citizen-
soldiers and their families. This support is paramount in maintaining 
our superior standing in the world.
End Strength: Recruiting and Retention
    As previously noted, recruiting and retention was exceptional with 
an end-of-calendar year assigned strength of 365,814 citizen-soldiers. 
The following programs provided the impetus for these gains.

        <bullet> The Army National Guard's Recruiting Assistance 
        Program (G-RAP) is a civilian contract recruiting program that, 
        as of December 9, 2008, has processed 80,000 enlistments since 
        its inception in December 2005. At the end of fiscal year 2008, 
        approximately 130,000 recruiting assistants were actively 
        working. In August 2007, G-RAP expanded to include incentives 
        for officer accessions.
        <bullet> The Recruit Sustainment Program, launched in 2005, 
        improves our training success rate by easing newly enlisted 
        National Guard soldiers into the military environment through 
        Initial Entry Training--a combination of Basic Combat Training 
        and Advanced Individual Training.

    The war on terror, transformation to modular formations, and 
domestic operations will continue to test the All-Volunteer Force. 
However, the Army National Guard is optimistic and confident that it 
will grow the force and have manned units to meet all missions at home 
and abroad.
Full-Time Support
    Full-time support personnel play a vital role in the Army National 
Guard's readiness both at home and abroad. Active Guard and Reserve 
(ARG) soldiers and military technicians sustain the day-to-day 
operations of the entire Army National Guard. The AGR and Technician 
force is a critical component of readiness in the Army National Guard 
as the Reserve components transition to an operational force.
Medical Readiness
    Funding, treatment authorities, and medical readiness monitoring 
through Medical Operations Data Systems have helped the Army National 
Guard increase medical readiness throughout the Nation and allow 
deploying units to report at all-time high medical readiness levels.
    In 2008, 92 percent of Army National Guard soldiers reporting to 
mobilization stations were determined to be medically deployable. This 
represents a significant improvement upon previous years. This 
increased readiness throughout the Army National Guard has reduced pre-
deployment training time lost due to required medical corrective 
actions. The Army National Guard is implementing the Army Select 
Reserve Dental Readiness System that will enable commanders to achieve 
95 percent dental readiness in support of DOD Individual Medical 
Readiness standards.
Incapacitation Pay
    The Army National Guard Incapacitation (INCAP) benefit provides 
interim pay to Army National Guard soldiers with a service-connected 
medical condition (provided that they are not on active duty). The 
INCAP pay software, released in early fiscal year 2008, facilitates the 
administration of this benefit.
    The INCAP process provides compensation in two situations. First, a 
soldier who is unable to perform military duty may receive military pay 
less any civilian earnings. Second, a soldier who can perform military 
duty, but not a civilian job, may receive lost civilian earnings up to 
the amount of the military pay. INCAP incorporates a detailed 
accounting system of tracking soldiers who receive INCAP pay, the date 
initiated, the amount received, and when terminated. INCAP quickly 
compensates soldiers, therefore allowing them to concentrate on the 
rehabilitation process, and focus on their families.
Survivor Services
    The Army National Guard renders dignified Military Honors according 
to service tradition for all eligible veterans. The Army National Guard 
supports 79 percent of all Military Funeral Honors for the Army and 51 
percent of all Funeral Honors for all Services. In fiscal year 2008, 
the Army National Guard provided Military Funeral Honors for over 
97,000 veterans and 200 soldiers killed-in-action.
                 investing in equipment and facilities
    Upgrading and maintaining our equipment and facilities is becoming 
increasingly vital as we face challenges at home and abroad. The era of 
persistent conflict demands nothing less.
Equipment on Hand and Equipment Availability
    The historic equipment on-hand (EOH) percentage for the Army 
National Guard has been about 70 percent. In fiscal year 2006, EOH 
declined to approximately 40 percent due to cross-leveling of equipment 
to support immediate deployment requirements. It increased to about 49 
percent in fiscal year 2007. By the end of fiscal year 2008, the Army 
National Guard had 76 percent of its required EOH when deployed 
equipment is included.
Equipment Readiness Levels
    When items supporting mobilized and deployed units are subtracted 
out of this equation, the current warfighting EOH percentage falls to 
63 percent of Modification Table of Organization and Equipment 
requirements available to the Governors of the 54 States and 
territories.
    Domestic response is a critical Army National Guard mission. The 
Chief of the NGB has pledged that 50 percent of Army and Air Guard 
Forces will be available to a Governor at all times to perform State 
missions.
    The Army has taken positive steps to improve the Army National 
Guard equipping posture. The Army's goal is to fully equip all BCTs, 
regardless of components, by 2015.
    Congress has been very responsive to Army National Guard equipping 
requirements through funds in the National Guard and Reserve Equipment 
account. This much needed funding has been used to procure critical 
dual-use items to support the ``Essential 10'' capabilities.
Ground and Air Operating Tempo
    The ground operating tempo (OPTEMPO) program is one of the 
keystones in equipment readiness. Direct ground OPTEMPO pays for 
petroleum, repair parts, and depot-level repairables. Indirect OPTEMPO 
pays for expenses such as administrative and housekeeping supplies, 
organizational clothing and equipment, medical supplies, nuclear, 
biological and chemical supplies and equipment, and inactive duty 
training travel which includes command inspection, staff travel, and 
cost of commercial transportation for soldier movement.
    In 2008, ground OPTEMPO funding for the Army National Guard totaled 
$901 million in base appropriation plus $73 million in supplemental for 
a total of $974 million. This funding directly impacts the readiness of 
Army National Guard units to participate in global operations as well 
as domestic preparedness. Significant equipment remains in theater 
after Guard units return from deployments. Equipment shortages at home 
stations compel greater use of what is available. These demanding 
conditions have resulted in rapid aging of equipment. While the ground 
OPTEMPO sustains equipment-on-hand, it does not replace major-end items 
that are battle-lost or left in the theater of operations.
    The air OPTEMPO program supports the Army National Guard Flying 
Hour Program which includes petroleum-oil-lubricants, repair parts, and 
depot-level repairables for the rotary wing helicopter fleet.
    In 2008, air OPTEMPO funding for the Army National Guard totaled 
$280 million in base appropriation plus $128 million in supplemental 
for a total of $408 million. This funding provides for fuel and other 
necessities so that 4,708 Army National Guard aviators can maintain 
currency and proficiency in their go-to-war aircraft. Achieving and 
maintaining desired readiness levels will ensure aircrew proficiency 
and risk mitigation, which helps to conserve resources. Army National 
Guard aviators must attain platoon level proficiency to ensure that 
they are adequately trained to restore readiness and depth for future 
operations.
Reset Process
    The Army continued to work with Army National Guard leaders to 
refine requirements for critical dual-use equipment and to ensure that 
the states and territories can adequately protect the lives and 
property of American citizens during a catastrophic event.
    Several changes helped resolve reset issues during 2008. The 
biggest change provided funds directly to the Army National Guard. This 
allowed the Army National Guard to conduct reset operations at home 
stations. The Army National Guard's initial $127 million, plus $38 
million from the Army, supported the Army National Guard's reset 
efforts. This streamlining process enabled the states to have their 
equipment immediately available.
Logistics-Depot Maintenance
    The Army National Guard Depot Maintenance Program continued to play 
an integral part in the Army National Guard sustainment activities 
during 2008. This program is based on a ``repair and return to user'' 
premise as opposed to the equipment maintenance ``float'' (loaner) 
system used by the Active Army.
    The amount of equipment qualifying for depot repair increased by 
26.7 percent in fiscal year 2009. This increase was due primarily to 
the rebuilding of the Army National Guard's aged tactical wheeled 
vehicle fleet. During 2008, the Army National Guard Depot Maintenance 
Program funded the overhaul of 3,405 tactical vehicles as well as 
calibration services.
Facilities and Military Construction
    In more than 3,000 communities across America, the local National 
Guard readiness center (armory) is not only the sole military facility 
but also an important community center. For National Guard members, 
these facilities are critical places where we conduct training, perform 
administration, and store and maintain our equipment. Many of our aging 
facilities are in need of repair or replacement. The continuing strong 
support of Congress for Army National Guard military construction and 
facilities sustainment, restoration, and maintenance funding is crucial 
to our readiness.
    In fiscal year 2008, Congress made $843 million available for 
facility operations and maintenance in the Army National Guard. This 
level of funding covered ``must fund'' operations including salaries, 
contracts, supplies, equipment leases, utilities, municipal services, 
engineering services, fire and emergency services, and program 
management.
Environmental Program
    Recent success in the Army National Guard's Environmental Program 
underscores its mission to excel in environmental stewardship to ensure 
the welfare of all citizens and communities while sustaining military 
readiness. Program highlights include:

        <bullet> The Army Compatible Use Buffer program that supports 
        soldier training by protecting an installation's accessibility, 
        capability, and capacity while sustaining the natural habitat, 
        biodiversity, open space, and working lands. Since this program 
        began in 2003, the National Guard, along with civilian 
        partnership contributions, helped to protect 40,000 military-
        use acres from encroachment at 9 Army National Guard training 
        centers.
        <bullet> Cleanup and restoration programs that continue to make 
        steady progress at Camp Edwards, MA, where five major 
        groundwater treatment projects have been completed.
        <bullet> The final stages of cleaning up an open detonation 
        area that will eventually become maneuver training land at Camp 
        Navajo, AZ.
                        investing in operations
    Sound management practices demand that we stay focused on 
operational issues and missions such as readiness, training, ground 
operating tempo, and aviation, including the Operational Support 
Airlift Agency.
Domestic Operations
    The Army National Guard Domestic Operations Branch coordinates and 
integrates policies, procedures, and capabilities to ensure critical 
operations are continued in the event of an emergency, or threat of an 
emergency, anywhere in the U.S. and its territories.
    The following missions in 2008 exemplify the National Guard's 
resolve in protecting and preserving the homeland.

        <bullet> In June, National Guard troops provided sandbagging, 
        search and rescue, power generation, logistical support, food 
        and water distribution, debris removal, shelter set up, and 
        support to law enforcement during Mississippi River flooding. 
        Over a 3-week period, more than 6,800 soldiers from Iowa, 
        Indiana, Illinois, Missouri, and Wisconsin provided their 
        respective States with critical capabilities.
        <bullet> In California last summer, 8,300 wildfires consumed 
        over 1.2 million acres. The California Army National Guard 
        supplied 1,350 citizen-soldiers to protect people and property 
        around the State, including 400 citizen-soldiers deployed to 
        the front lines to fight fires. California air crews, assisted 
        by Army and Air National Guard aviation teams from 12 other 
        States, dumped 4.2 million gallons of retardant to extinguish 
        the blazes.
        <bullet> In August, over 15,000 citizen-soldiers from Texas, 
        Louisiana, and other States supported relief efforts after 
        Hurricanes Gustav and Ike. Their mission included food and 
        water distribution, search and rescue, air medical evacuations, 
        communication support, hazardous material assessments, shelter 
        operations, and debris removal.

    Army National Guard citizen-soldiers stand ready throughout the 54 
States and territories to respond to any crisis.
Operational Support Airlift Agency
    The Operational Support Airlift Agency is a Department of the Army 
field operating agency under the NGB that supports 114 aircraft 
worldwide and over 700 personnel. During 2008, these aircraft flew over 
54,000 hours, transported about 21 million pounds of cargo, and carried 
more than 100,000 passengers. This included combat support in the 
Middle East and Africa, relief efforts for the Gulf Coast and 
California wildfires, and criminal investigation task force efforts in 
Columbia and Cuba.
Training
    Muscatatuck Urban Training Center
    The 974-acre Muscatatuck Urban Training Center (MUTC), located in 
Indiana, is a self-contained, contemporary urban training environment.
    In its second year of operation, more than 19,000 trainees from 
military (including 13,000 Army National Guard and Reserve soldiers), 
government, and private agencies used the facilities at MUTC. Training 
helps prepare soldiers to fight in foreign cities and helps prepare 
soldiers and others to deal with the aftermath of attacks on U.S. 
cities. In the future, MUTC could train as many as 40,000 troops 
annually at the urban warfare practice facility.
    Army National Guard eXportable Combat Training Capability
    The Army National Guard's eXportable Combat Training Capability 
(XCTC) is a fully instrumented group of field training exercises that 
provide tough, realistic training for every Army National Guard unit 
during pre-mobilization training.
    This training incorporates the most current tactics, techniques, 
and procedures used in theater. In fiscal year 2008, the Army National 
Guard conducted two XCTC rotations (Illinois and Oregon) and trained a 
total of eight battalions. Planning is underway to conduct 6 XCTC 
rotations that will provide training for 18 battalions.
    By training and certifying pre-mobilization training tasks, the 
XCTC reduces post-mobilization training time and thus increases the 
availability of units for ``boots on the ground'' time in the warfight.
                  investing in information technology
    During fiscal year 2008, Army National Guard information technology 
(IT) resources supported these network security projects:
Network Services
    The Army National Guard IT organization reviewed the communications 
and network service capabilities that States and territories will 
require in the event of a natural or manmade disaster or contingency. 
The solution restores access to network services should a readiness 
center (armory) lose connectivity regardless of local infrastructure 
availability. Each deployment will bring a virtual Joint Force 
Headquarters (JFHQ) node to the affected area and provide voice, video, 
Internet Protocol (IP) data, and push-to-talk services to a site within 
36 hours.
    Other specific actions include:

        <bullet> Acquiring network simulator training that provides 
        network operators and defenders a safe network environment to 
        conduct initial qualification, mission qualification, crew 
        training, position certification, and exercises.
        <bullet> Planning and implementing secure network access for 
        deploying BCTs and their supporting battalions.
        <bullet> Strengthening the Enterprise Processing Center by 
        incorporating backup and storage capability in accordance with 
        the NGB's continuity of operations requirements.
air national guard, message from the director, lieutenant general harry 
            ``bud'' wyatt iii, director, air national guard
    The Air National Guard is both a Reserve component of the Total Air 
Force (USAF) and the air component of the National Guard. As a Reserve 
component of the Total Air Force, the Air National Guard is tasked 
under title 10, U.S.C., ``to provide trained units and qualified 
persons available for Active Duty in the Armed Forces, in time of war 
or national emergency. . .''--in essence, a combat-ready surge 
capability. The Air National Guard augments the regular Air Force by 
providing operational capabilities in support of Homeland Defense both 
domestically and overseas. As the air component of the National Guard, 
the Air National Guard provides trained and equipped units and 
individuals to protect life and property, and to preserve peace, order, 
and public safety.
    As a Reserve component of the Total Air Force, Air National Guard 
members regularly perform operational missions both in the U.S. and 
overseas. For example, over 6,000 Air National Guard members vigilantly 
stand guard protecting the homeland. Overseas, more than 7,000 National 
Guard airmen are deployed at any given time, whether in Southwest Asia 
or little known locations around the world, providing airpower 
capabilities such as strike, airlift, air refueling, and intelligence, 
surveillance, and reconnaissance (ISR) to joint and coalition forces.
    The Air National Guard provides a myriad of capabilities to support 
state and local civil authorities in protecting life and property. We 
provide capabilities in areas such as airlift, search and rescue, 
aerial firefighting, and aerial reconnaissance. We also furnish 
critical support capabilities such as medical triage and aerial 
evacuation, civil engineering, infrastructure protection, and Hazardous 
Materials (HAZMAT) response. During 2008, National Guard airmen helped 
their fellow citizens after Hurricanes Gustav, Hanna, and Ike; 
protected life and property from wildfires in the West, tornados in the 
Midwest, and blizzards and ice storms across the country; and assisted 
with security at the Republican and Democratic National Conventions.
    The Air National Guard faces today's challenges by examining the 
past, serving in the present, and planning for the future. We are 
preserving our heritage as a community-based, predominantly part-time 
force while we adapt to numerous force structure changes, placing our 
Air National Guard on a clear path for future missions. While we cannot 
know every potential threat we will face, we do know that success 
depends on our ability to continually adapt and evolve toward new and 
exciting missions and capabilities. In order to adapt and effectively 
support our national security objectives, we must focus our efforts in 
three areas:

        <bullet> Modernize and recapitalize the aging Air National 
        Guard fleet of aircraft to ensure that we, as the proven leader 
        in air dominance today, do not become complacent and fail in 
        our vigilance against those who seek to challenge our mastery 
        of the air.
        <bullet> Maximize the use of associations and community basing 
        to better support the Air Force mission.
        <bullet> Evolve future mission areas to better support the 
        overall Air Force mission.
                             a quick review
    The Air National Guard's global presence throughout 2008 was felt 
in the following ways:

        <bullet> Deployed 20,231 servicemembers to 85 countries on 
        every continent, including Antarctica.
        <bullet> Participated in missions in Iraq, Afghanistan, and 
        Bosnia; humanitarian airlifts to Southeast Asia and Africa; 
        drug interdiction in Latin and South America; exercises in 
        Europe and Japan; and many other missions.
        <bullet> Provided not only airpower capabilities, but 
        capabilities in medical, logistics, communications, 
        transportation, security, civil support, and engineering.

    This was another crucial year for the Air National Guard as its men 
and women continued to defend America's interests worldwide in waging 
the global war on terror. Simultaneously, we continued to bring our 
force structure into balance following historic mission changes 
initiated by Base Realignment and Closure (BRAC), and Air Force 
modernization and recapitalization initiatives.
                      developing adaptable airmen
    The Air National Guard values our airmen, their families, 
employers, and our civilian employees as our greatest resources. The 
current corps of Air Guard members contains some of the most skillful 
and talented in our history. We remain committed to recruiting, 
retaining, and cultivating airmen who are ready, willing, and capable 
of meeting 21st century challenges and leading with a vision that looks 
beyond tomorrow.
Recruiting and Retention
    With the support of Congress, and the use of innovative approaches 
by our recruiters, the Air National Guard finished fiscal year 2008 
with an assigned strength of 107,679 airmen. We surpassed our 
recruiting objective for the first time since 2002, achieving 126 
percent of our goal. This accomplishment occurred despite a 
historically high operational tempo, executing BRAC decisions, and 
implementing Total Force Initiatives.
Guard Recruiting Assistance Program
    One program proving highly successful for Air National Guard 
recruiters was the G-RAP. With the help of current and former 
(including retired) members, our recruiters tapped into a larger circle 
of influence that let friends, family, and associates know about the 
tangible and intangible rewards that come with service in the Air 
National Guard. In fiscal year 2008, 3,676, or 34 percent, of our 
enlistments originated from leads generated by G-RAP volunteers. An 
overall 90 percent retention rate also bolstered our recruiting success 
for fiscal year 2008. By maintaining a high retention rate, the Air 
National Guard decreases the cost of replacing valuable members.
                               readiness
    Even though we met our recruiting and retention goals this year, we 
face the growing challenge of training the right people with the right 
skills to meet mission changes while responding to high wartime 
commitments and dealing with resource constraints. To deal with this we 
must focus on the three primary areas of readiness--personnel, 
training, and equipment.
Personnel
    Personnel readiness, including skills affected by equipment 
shortages which bear upon our ability to train, has the greatest impact 
upon Air National Guard overall readiness rates. As previously 
mentioned, working through a period with such a large number of units 
changing missions also skews the percentages. To a lesser degree, but 
still important, are the numbers of personnel on medical or dental 
profiles--an issue that affects our ability to deploy worldwide. The 
Air National Guard is placing increased emphasis upon these many 
challenges that affect our personnel readiness.
    The Air National Guard continues to maintain personnel readiness by 
supporting our people returning from deployments. We must maintain the 
Air National Guard readiness posture by ensuring our airmen receive 
appropriate and timely medical and dental assessment and treatment at 
all levels. We offer this through Frontline Supervisors and Landing 
Gear training programs, and through the Post-Deployment Health 
Reassessment process.
Training
    Training readiness is an ongoing challenge as we strive to meet 
training standards. In order to retain our highly qualified, 
experienced personnel, we must have the ability to train to both 
domestic operations and combat standards while meeting deployment 
demands. Equipment shortages of emergency management equipment for Air 
National Guard civil engineers, weapons for security forces, and 
aircraft engines adversely impact training capabilities, and could 
negatively affect retention rates. While the volume of mission-related 
training requirements seems to grow exponentially, we will continue to 
explore and take advantage of every opportunity to meet training 
requirements in a timely manner.
    The most significant challenge for the Air National Guard, however, 
has been to fit its wartime requirements and mission changes into the 
traditional framework of a community-based, predominately part-time 
force. Our members have a history of answering the call to service, and 
have not lost sight of their mission: to be a combat-ready Air Force 
composed of dedicated, professional airmen serving in both state and 
Federal roles.
Equipment
    Air National Guard equipment readiness presents greater challenges 
as long-term costs in operating and maintaining older aircraft continue 
to rise due to more frequent repairs, fuel prices, and manpower 
requirements. Although fuel prices have declined in recent months, the 
cost of aircraft maintenance continues to rise significantly as we 
struggle to extend the life of our aging fleet.
    The current air traffic control system is 1950s technology that 
received minor radar upgrades in the 1980s. Replacement parts are 
obsolete and no longer available on the market. Modifying and upgrading 
the old system would cost more than a new system. The Air National 
Guard provides 62.5 percent of the United States Air Force's air 
traffic control (ATC) wartime mission. In support of Operations 
Enduring Freedom and Iraqi Freedom, the Air National Guard deployed 
five mobile ATC Radar Approach Controls. Additionally, the Air National 
Guard has peacetime obligations to support the National Airspace 
System, providing ATC services at designated military/civil airports.
    In the final analysis, the Air National Guard will meet 21st 
century challenges by proactively shaping its future with combat-ready, 
adaptable airmen at its core.
                       modernize and recapitalize
    The age of the Air National Guard fleet is of grave concern. 
Aircraft and equipment in both the regular Air Force and the Air 
National Guard are quickly wearing out. The average age of Air National 
Guard aircraft is now over 25 years, with KC-135s being the oldest at 
49 years. The high operational tempo since 1990 has added flying hours 
that have accelerated this aging process. As already mentioned, long-
term costs to operate and maintain these older aircraft have increased. 
Additionally, our potential adversaries have improved their 
capabilities, raising concerns about the ability of our current 
aircraft to defend U.S. interests around the globe.
    Modernization of our equipment and training platforms is based on 
capabilities needed by the Air Force. As the Air National Guard moves 
increasingly into the worlds of command and control, intelligence, 
reconnaissance, surveillance, unmanned systems, and cyberspace, the 
process has expanded to include expert warfighters in these areas. As a 
capabilities-based force, the Air National Guard can better assess, 
plan, and support its Federal (title 10) and State (title 32) missions, 
remain relevant to operations, and be interoperable with other forces.
    Changing the force structure and orientation of units away from 
airborne platforms to unmanned systems and capabilities is a difficult, 
yet necessary transition. These efforts to redefine the Air National 
Guard will be expanded upon in the Future Mission Areas section of this 
report.
    The Air National Guard is committed to seamlessly integrating into 
the operational environment. Our modernization program is based on Air 
Force and Combatant Command requirements and vetted among Reserve 
component and active duty warfighters. Some examples include:
    Mobility Aircraft
    The Air National Guard will pursue further modifications to flight 
instruments, communications, navigation, and terrain/traffic avoidance 
systems along with upgrades to engines and missile warning and 
countermeasures on Air National Guard mobility aircraft (C-5, C-17, C-
130, KC-135) and other aircraft.
    Combat Aircraft
    Air National Guard combat aircraft (A-10, F-15, and F-16) comprise 
about one-third of the Air Force's combat capability. Eighty percent of 
our F-16s will begin reaching the end of their service life in 8 years. 
While our maintainers continue to keep our fleet combat ready and 
available, we must replace our legacy systems to remain viable and 
relevant.
    Unmanned Aircraft Systems
    The Air National Guard expansion into the world of unmanned 
aircraft systems continues to move forward in Arizona, California, 
North Dakota, New York, Nevada, and Texas Air National Guard units, as 
illustrated with the development of integrated Predator and MQ-9 Reaper 
Operations Centers. These centers will not only allow smooth operation 
and control of current and future transformational warfighting and 
homeland defense missions, but will integrate multiple systems 
currently running independently. The RQ-4 Global Hawk continues to 
provide high quality intelligence, surveillance, and reconnaissance 
(ISR) support for Operation Iraqi Freedom while also supporting 
homeland missions.
    MC-12 and Project Liberty
    Mississippi's 186th Air Refueling Wing is taking on an additional 
mission, training aircrews for the Air Force's newest manned ISR 
platform, the MC-12. Designated Project Liberty, the program will train 
nearly 1,000 airmen during the next 2 years at Key Field near Meridian, 
MS, at a cost of about $100 million. The MC-12 is expected to bolster 
the DOD's intelligence gathering capability in Operations Iraqi Freedom 
and Enduring Freedom.
    Dual-Use Capabilities
    Developing and fielding ``dual-use'' capabilities are the 
cornerstone to the Air National Guard's cost effective contribution to 
combat and domestic operations. Many domestic operations capabilities 
are outlined in the NGB's ``Essential 10'' core military capabilities 
relevant to Civil Support. In fiscal year 2010, with the support of 
Congress, we will address critical shortfalls in medical, 
communications, transportation, logistics, security, civil support 
teams, engineering, and aviation. The Air National Guard will continue 
to increase capabilities for use during domestic missions for the 
foreseeable future.
    Competing sustainment costs and funding requirements for 
recapitalization present challenges for the Total Force. However, by 
similarly equipping the Air National Guard and the regular Air Force, 
we directly support efforts in Total Force Integration (TFI). In short, 
the Air National Guard needs to be concurrently equipped with the 
Active-Duty Force to support our total Air Force mission--to be the 
dominant air power, second to none.
Maximize Associations and Community Basing
    Since Vietnam, the Air Force has understood the importance of unit 
integrity on combat effectiveness, and has reflected this in war plans 
for unit mobilizations. As such, the Air National Guard, Air Force 
Reserve (AFRES), and active Air Force have formed unique alliances that 
promise to increase mission effectiveness while reducing costs.
    Under three types of constructs known as ``associations,'' Air 
National Guard, AFRES, and Active Air Force units share not only 
facilities and equipment, but knowledge and experiences (many Air 
National Guard members spend their careers with the same unit and 
equipment).

        <bullet> Under ``classic associations'' the Active Duty unit 
        retains principal responsibility for its equipment and the 
        Reserve unit shares in operating and maintaining it.
        <bullet> With ``active associations'' Active Duty personnel are 
        assigned to Reserve units in local communities where they share 
        in the operation and maintenance of Reserve-assigned assets.
        <bullet> The last association, called ``Reserve associate,'' is 
        similar to the ``Active'' and ``classic'' relationships in that 
        one Air Reserve unit retains ownership of the assets and 
        another unit shares in operating and maintaining the equipment 
        as an air Reserve component associate unit.

    ``Community basing'' is a core characteristic that forms the 
foundation of our competitive edge as a cost effective combat-ready 
Reserve. Over 60 percent of the Air National Guard force consists of 
``traditional'' part-time, professional airmen, who train to the same 
standards, supply the same capabilities and provide the same response 
times as the regular Air Force.
    The Air National Guard is closely tied to our communities. 
Generally our members are recruited locally, hold civilian jobs there, 
and maintain close ties throughout most of their careers in the Air 
National Guard. Unlike regular Air Force Bases which tend to be self-
sufficient, we also depend on our local communities for many common 
resources needed to support the mission.
    Shared infrastructure, such as retail stores and housing, reduces 
operating costs significantly (66 of 88 Air National Guard flying units 
are co-located at civilian airports, sharing runways, taxiways, and 
fire/crash emergency response).
    The synergy resulting from these relationships is fundamental to 
the mission readiness of the Air National Guard in these ways:

        <bullet> Ties to the local area provide personnel stability, 
        resulting in a high level of unit integrity and experience.
        <bullet> Long-term relationships position the Air National 
        Guard to plan, exercise, and respond to natural and manmade 
        domestic emergencies.
        <bullet> Shared civil/military workforce provides the Air 
        National Guard and the community with broad skill sets.
Future Mission Areas
    The Air National Guard is prepared to take on more mission sets to 
better support the overall Air Force mission. The Air National Guard 
will continue to work with the Adjutants General to refine and update 
the modernization and recapitalization plans outlined previously. We 
will not only support our Governors at home with quick responses to 
natural and manmade disasters, but will also support the combatant 
commanders with improved mobility, agile combat support, and other 
mission sets, both tried and new.
    Rapid Global Mobility
    Continuing Air National Guard participation in inter-theater or 
strategic airlift (C-5, C-17), intra-theater or tactical airlift (C-
130, future C-27/JCA), and air refueling (KC-135, KC-10, future KC-45) 
is important. Within the Strategic Reserve construct, strategic airlift 
and air refueling are central due to their surge-to-demand operation 
and ability to meet scheduled operational force requirements rapidly. 
Tactical airlift fits well with dual capabilities required by the Air 
National Guard's State and Federal roles. Its versatility makes it 
especially valuable in responding to domestic needs, such as Modular 
Aerial Firefighting, and aerial delivery of food and supplies to 
disaster victims, and in search and rescue.
    Agile Combat Support
    Expeditionary Combat Support (ECS) units will continue to provide 
essential combat service support in sustaining all elements of 
operating forces, providing medical support, services, security forces, 
civil engineers, transportation, logistics support, and airfield 
maintenance. ECS also includes Air National Guard support to National 
Guard Civil Support Teams (CSTs) and Chemical, Biological, 
Radiological, Nuclear, and high-yield Explosives (CBRNE) Enhanced 
Response Force Packages (NG-CERFP) to assist civil authorities' 
response to domestic CBRNE incidents. These units are at the forefront 
of our dual-use capabilities in responding domestically to manmade and 
natural disasters as well as overseas disasters and operational 
missions.
    Intelligence, Surveillance, and Reconnaissance (ISR)
    The Air National Guard can help meet rapidly increasing ISR 
requirements for the Joint Force, in areas such as the following:

        <bullet> ISR in Special Operations
        <bullet> Distributed Ground Stations
        <bullet> Human Intelligence
        <bullet> National Tactical Integration
        <bullet> ISR Center of Excellence (Nellis AFB, NV)
        <bullet> Air Force Expeditionary Signals Intelligence
        <bullet> Computer Network Exploitation
        <bullet> Tactics Analysis
        <bullet> Global Aviation Analysis Support Team
        <bullet> All Source Intelligence Analysis

    United States Special Operations Command requested investment in 
manning ISR aerial ports, which points to the need to further invest in 
small aircraft to support specific ISR requirements, something the Air 
National Guard is uniquely qualified to do since it already possesses 
the appropriate aircraft and experienced aircrews. Platforms such as 
these have dual-use capability for both homeland and expeditionary 
operations. Specifically, it can support DOD's ``Building Partnership 
Capacity'' efforts with nations desiring a partnership arrangement 
involving a low-cost multi-utility platform, which could further 
enhance the National Guard SPP. This manned ISR mission, using the 
small aircraft platform, is potentially the most promising initiative 
for the Air National Guard in the near future.
Cyberspace
    This year the Air National Guard continued to grow into cyberspace 
by establishing three more information operations squadrons, raising 
the number of operational units to eight. These new units include the 
166th Network Warfare Squadron based at New Castle Airport, Delaware, 
the 273rd Information Operations Squadron (IOS), Lackland AFB, Texas, 
and the 229th IOS, located in the Vermont National Guard Armory. While 
the specifics of each unit's mission vary slightly, all are dedicated 
to deterring the ever growing number of daily attacks against this 
nation's cyber-based infrastructure.
Space Operations
    Air National Guard units support space and missile operations at 
several locations in Alaska and the continental United States. Air 
Force Space Command desires increased Air National Guard involvement in 
space operations, to include Missile Warning associate squadrons, 
Missile Operations support squadrons, Distributed Command and Control 
Mission expansion, and Space Launch/Range operations.
Continuing Missions
    The Air National Guard will retain some existing mission sets, such 
as those associated with Global Persistent Attack. This mission is a 
surge task that requires a large number of fighter aircraft, 
particularly in the early stages of a conflict. The Air Force Reserve 
components provide the most cost effective way to maintain this surge 
capability.
    The Air Force will not be able to recapitalize its fighter force 
structure on a one-to-one basis, which means that some Air National 
Guard fighter units have been required to transition to other mission 
areas. Developing active and classic associations such as those 
mentioned above are now underway as we transform to new and promising 
mission sets.
    For fiscal year 2010, fully rebalancing and training will involve a 
complex interchange of people, training, and resources. These mission 
changes will directly impact about 15,000 Air National Guard members 
across the Nation.
    In an environment where change is considered a constant instead of 
a variable, we continue to move forward knowing a more capable Air 
National Guard will better serve the needs of our Nation tomorrow and 
far into the future.
joint staff, message from the director, major general peter m. aylward, 
              director, joint staff, national guard bureau
    Today's National Guard faces a more complex and challenging world 
than ever before. There are no easy solutions to our comprehensive 
problems. America must remain ready to fight and win across the full 
range of military operations. Enemies are finding new ways to overcome 
the difficulties of geographic distance. The increase in travel and 
trade across U.S. borders has created new vulnerabilities for hostile 
states and actors to exploit opportunities to perpetrate devastating 
attacks on the U.S. homeland. U.S. military forces enjoy significant 
advantages in many aspects of armed conflict, but we will be challenged 
by adversaries who possess or design novel concepts to overcome our 
advantages.
    At home, the terrorism threat coincides with violent drug-
trafficking organizations and border security challenges. These trends 
produce a geopolitical setting that is increasingly complex and 
unpredictable. Therefore, the National Guard must be flexible and 
prepared for the unexpected. In addition, the way the National Guard is 
organized, equipped, and trained provides the unique ability to respond 
quickly and effectively to natural disasters and manmade catastrophic 
events. The NGB's Joint Staff has taken on these challenges with the 
following efforts, teams, and programs.
                          domestic operations
Weapons of Mass Destruction Civil Support Teams (WMD-CST)
    The National Guard continues to strengthen its ability to respond 
to chemical, biological, radiological, nuclear, and high-yield 
explosive incidents with 55 WMD-CSTs and 2 newly established units 
going through the DOD certification process. These units are manned by 
22 full-time Army and Air Guard personnel who provide each Governor 
with an immediate response capability, specialized expertise, and 
technical assistance that can be provided to local incident commanders 
nationwide. WMD-CSTs do not duplicate state CBRNE response 
capabilities, but support civil authorities by identifying CBRNE agents 
or substances, assessing current or projected consequences, advising on 
response options, and assisting with requests for State support. 
Congress recently expanded the use of CSTs to include response to 
intentional or unintentional HAZMAT incidents and natural or manmade 
disasters.
    The National Guard's Civil Support Teams, which are so essential to 
the security of the American people on an almost daily basis, depend on 
the availability of adequate operations and maintenance funds to carry 
out their tasks. Any reduction in funding below that requested carries 
the risk of hindering the operational capability of these essential 
teams.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        (CBRNE)--Enhanced Response Force Package (CERFP) Teams
    Army and Air National Guard citizen-soldiers and airmen with 
technical response skills in this area make up 17 CERFP teams covering 
every region of the country. The CERFP team is designed to locate and 
extract victims from a collapsed structure in a contaminated 
environment, perform medical triage and treatment, and conduct 
personnel decontamination from a weapon of mass destruction incident.
CBRNE Consequence Management Response Forces (CCMRFs)
    Each CCMRF provides 4,700 trained and equipped Active and Reserve 
component military personnel ready to assist civil authorities in 
response to a CBRNE incident. CCMRF capabilities include:

        <bullet> CBRNE reconnaissance and detection
        <bullet> Casualty search and extraction
        <bullet> Decontamination
        <bullet> Hazardous material handling and disposal
        <bullet> Medical triage, treatment, and care
        <bullet> Aero-medical evacuation
        <bullet> Explosive ordnance disposal
        <bullet> Air and land transportation
        <bullet> Mortuary affairs

    The NGB continues to support planning for the standup of all 
CCMRFs.
Joint Force Headquarters-State (JFHQ-State)
    The National Guard continues to strengthen and refine the 54 Joint 
Force Headquarters throughout the United States. JFHQ-State works to 
enable effective domestic responses while conducting traditional state 
National Guard training responsibilities for Army and Air Force Reserve 
component forces. Each JFHQ-State provides the Governor with 
information and command and control for effective National Guard 
response; provides improved situational awareness to DOD before, 
during, and after an emergency response; and facilitates unity and 
continuity of military (Federal and State) effort during Continental 
U.S. (CONUS) operations.
Critical Infrastructure Program--Mission Assurance Assessment (CIP-MAA) 
        Teams
    National Guard CIP-MAA teams are comprised of citizen-soldiers and 
airmen trained to assess the vulnerability of industrial sites and 
critical U.S. Government infrastructure to attack. Their analysis helps 
various government agencies direct prevention, deterrence, mitigation, 
and response efforts. Currently, 3 teams are assessing Defense 
industrial base sites and 10 teams are assessing Department of Homeland 
Security sites.
Joint Enabling Team
    The NGB's highly-trained professionals making up Joint Enabling 
Teams (JETs) establish a logistics and support link between NGB, the 
supported state, and supporting States and agencies. The JETs help 
identify potential mission shortfalls and facilitate missions by 
assisting with the collection, reporting, and sharing of information. 
They ensure that resources are available and that personnel directly 
involved in the mission are effectively supported for domestic 
operations involving floods, hurricanes, and tropical storms.
National Guard Reaction Force (NGRF)
    Within hours of an incident, upwards of 500 individuals can assist 
State and local law enforcement by providing site security, presence 
patrols, show-of-force, establishment of roadblocks and/or checkpoints, 
control of civil disturbances, force protection and security for other 
responders, and protection of DOD assets as required.
Task Force for Emergency Readiness
    The Task Force for Emergency Readiness (TFER) program enlists 
National Guard officers at the State level to write comprehensive 
``State'' Homeland Security Plans that address the eight national 
planning scenario sets. The Federal Emergency Management Agency (FEMA) 
is currently funding five pilot States (Hawaii, Massachusetts, South 
Carolina, Washington, and West Virginia) with the intent of expanding 
TFER to all States based on the anticipated success of the pilot 
program.
                          counterdrug programs
    In 2008, some 2,400 National Guard personnel supported law 
enforcement agencies in seizing illegal drugs with a street value of 
approximately $28 billion. The National Guard supports law enforcement 
counterdrug operations with 125 specially equipped Army National Guard 
OH-58A helicopters and 11 Air National Guard counterdrug RC-26B fixed-
wing aircraft.
    Synchronizing counterdrug information-sharing among law enforcement 
agencies, the National Guard, and DOD agencies has greatly increased 
the efficiency and speed of the effort.
Stay on Track
    In 2008, National Guard personnel reached over 3 million people 
with their positive anti-drug messages. Drug demand reduction programs 
such as Stay on Track have reached over 115,000 middle school students 
in 215 schools around the country since 2007. In 2009, Stay on Track 
plans to reach out to another 150,000 students.
                          operation jump start
    The National Guard and the U.S. Border Patrol marked the end of the 
Operation Jump Start (OJS) mission in 2008 with ceremonies in 
Washington, DC, Operation Jump Start began June 15, 2006, and 
officially ended July 15, 2008. At its peak, the operation saw up to 
6,000 National Guard citizen-soldiers and airmen assisting the Border 
Patrol to increase security and vigilance along the Nation's southern 
border.
    OJS assistance not only freed up hundreds of Border Patrol agents 
to perform their normal law enforcement duties, but it also allowed 
time for the Border Patrol to hire and train more agents.
    ``Within law enforcement, there is one word that we put a lot of 
weight on,'' said David V. Aguilar, Chief of the Border Patrol. ``That 
is the word `partner.' Today, I am very proud to call every individual 
who wears the uniform of the National Guard, has ever worn it, or will 
wear it, or is in any way affiliated with the National Guard . . . our 
true partners, and for that we truly thank you.''
    Over the 2-year period, more than 29,000 troops from all 54 States 
and territories participated. As we look back on this operation, we 
count the following successes:

        <bullet> Assisted with over 176,000 immigration violation 
        apprehensions
        <bullet> Aided in seizing over 315,000 pounds of marijuana
        <bullet> Aided in seizing 5,000-plus pounds of cocaine
        <bullet> Helped build more than 19 miles of road
        <bullet> Helped repair more than 717 miles of road
        <bullet> Helped construct 38 miles of fencing
        <bullet> Helped erect 96 miles of vehicle border barriers

    The National Guard provided the Border Patrol logistical and 
administrative support by operating detection systems, providing 
communications, and analyzing border-related intelligence. Citizen-
soldiers and airmen also built new infrastructure, conducted training, 
and provided additional aviation assets and ground transportation.
                     joint and interagency training
    To continue providing quick and effective support of local and 
State response forces, the National Guard must continue expanding its 
capacity to conduct joint and interagency training in a domestic 
environment. We can accomplish this by increasing the number of 
National Guard, State and local response forces, DOD, and Federal 
agencies participating in the U.S. Northern Command (USNORTHCOM) and 
NGB Joint Interagency Training Capability (JITC) programs.
    Increased participation by these and other agencies will improve 
tactical interoperability as well as unity of effort among State, 
local, and Federal agencies during catastrophic manmade or natural 
disasters. Increasing the number and scope of National Guard regional 
training centers (such as the Joint Interagency Training and Education 
Center (JITEC) in West Virginia) will also improve response proficiency 
and standardize tactics, techniques, and procedures for National Guard 
teams dealing with chemical, biological, radiological, nuclear, and 
high-yield explosives (CBRNE).
Joint Interagency Exercise Program (Vigilant Guard)
    This exercise program conducts four National Guard regional 
exercises each year that provide valuable experience and training 
opportunities to the following force elements:
    JTF Commander Training Course
    This course prepares potential JTF commanders to operate, organize, 
and function in the unique Federal and State environment. The 4-day in-
residence course is conducted twice a year at USNORTHCOM in Colorado 
Springs.
    JFHQ/JTF Staff Training Course (JSTC)
    This course provides comprehensive training and education for joint 
staff to support JFHQ and JTF missions in State or Federal status.
    Collective CBRNE Training Program
    Seventeen CBRNE Enhanced Response Force Packages (CERFPs) and 57 
Weapons of Mass Destruction-Civil Support Teams (WMD-CSTs) learn to 
respond to a catastrophic CBRNE event in this program.
    Joint Interagency Training and Education Center
    In addition to the Joint Interagency Training Capability, JITEC 
plays an integral part in continuing the National Guard's 
transformation for the future by building relationships and 
capabilities with our interagency partners. Joint Interagency 
highlights include:

        <bullet> Providing more than 30,000 duty-days of training and 
        interaction in over 800 exercises to some 90 different 
        organizations and agencies since September 11, 2001
        <bullet> Scheduling more than 200 training, exercise, or 
        assessment activities in 2010

    With continuing support from both DOD and Congress, the National 
Guard will continue to transform itself into a premier homeland 
security and defense organization, leveraging state and Federal 
responses, capabilities, and expertise.
       technology revolutionizes emergency response and training
    Technology has played a key role in enhancing the National Guard 
Joint Staff's effectiveness in America's emergency preparedness and 
response. Emergency response training, information exchange, and 
command and control activities are more robust than ever to support 
local communities during a time of catastrophic events. The following 
highlights our progress.
Joint CONUS Communications Support Environment (JCCSE)
    The JCCSE is the NGB and USNORTHCOM umbrella platform that 
establishes communications and information sharing for Homeland Defense 
and Civil Support missions from the national to the State or territory 
level. The JCCSE platform ensures the National Guard's capacity to 
provide Command, Control, Communications, and Computer (C4) support 
necessary to carry out National Guard responsibilities. These 
capabilities directly supported FEMA operations during Hurricanes 
Gustav and Ike.
    Communications, situational awareness, and command and control were 
bolstered with the following JCCSE enhancements:

        <bullet> NGB acquired 84 Joint Incident Site Communications 
        Capability (JISCC) systems to be distributed to the 54 States 
        and territories. These sets provide interoperable 
        communications at the incident site along with a satellite link 
        to command and control centers to share information and tools 
        needed to request or direct support.
        <bullet> NGB established a Joint Command, Control, 
        Communications, and Computer (C4) Coordination Center (JCCC) to 
        monitor the status of all National Guard communications to the 
        Joint Force Headquarters in each State, FEMA, and all emergency 
        agencies involved. During an incident, the JCCC provides help-
        desk and satellite link support to teams deploying with JISCC.
        <bullet> NGB established the Joint Information Exchange 
        Environment (JIEE) as a web-based application to provide a 
        common operating picture of all non-federalized National Guard 
        activities. JIEE provides the ability to monitor, track, and 
        share operational information with mission partners in a 
        trusted domestic operations environment that extends down to 
        the incident level. This capability is not currently available 
        in DOD programs of record.

    The domestic information environment in which JCCSE must 
interoperate continues to evolve. Consequently, NGB will continue to 
request funding to both sustain and adapt JCCSE capabilities as the 
domestic response requirements emerge.
Emergency Management Staff Trainer
    The Emergency Management Staff Trainer is a new virtual training 
application that provides extremely low-cost, scenario-driven training 
that can be repeated as many times as needed. This capability offers 
training that is geographically specific, allowing National Guard and 
civilian emergency management personnel to engage in training specific 
to their own city or State.
    Scenarios developed to date include Hurricane Preparation and 
Response, Earthquake Response, Building Collapse, and Pandemic 
Influenza Response.
Regional and State Online Resource--Emergency Management (RaSOR-EM)
    RaSOR-EM supports training activities by combining commercially 
available mapping programs with links to thousands of emergency 
management databases and other information sources, dramatically 
enhancing speed and access to this critical information. All 54 States 
and territories, numerous Federal agencies, and personnel from the 
Department of Homeland Security currently use the program. Data layers 
have been added to include critical infrastructure data, locations of 
schools and Reserve centers, and other valuable data.
                       supporting the warfighter
    An effective citizen-soldier or airman is one who knows his or her 
family is safe, secure, and able to function efficiently while he or 
she is deployed. An effective soldier or airman also needs support in 
transitioning back to civilian life after long deployments. Keeping our 
soldiers and airmen ready, both physically and mentally, requires the 
National Guard's support through programs for the individual and the 
family.
Transition Assistance Advisors
    Sixty-two Transition Assistance Advisors (TAAs) were hired in the 
States, territories, and District of Columbia to provide personalized 
service to Guard and family members. They educate and assist them on 
constantly evolving benefits information, assist them in obtaining 
their Federal and State benefits and entitlements, and help them file 
and track benefits claims. These personalized services include linking 
Guard members and families to behavioral health resources, disability 
claims filing, and obtaining disability compensation. These advisors 
work closely with the liaisons from the NGB and Department of Veterans 
Affairs and have proven themselves invaluable by educating National 
Guard leadership, Guard members, and veterans on the myriad of complex 
benefits and entitlements earned through their military service.
    In one instance, the TAA, the Seattle Veterans' regional office, 
and the Washington National Guard teamed up to test an idea that allows 
persons to file for Veterans Administration benefits and process them 
within 6 to 8 days of their units returning from active duty--a method 
previously reserved only for returning active duty units. This is made 
possible by allowing access to military medical records, often a large 
factor for delays in claims. The units also complete medical benefits 
forms on site.
National Guard Joint Family Program
    The National Guard Joint Family Program (JFP) provides direct 
support to the 54 State and territory family program directors, youth 
coordinators, and 92 Wing Family Program Coordinators. The JFP office 
provides guidance, resources, and support to National Guard families 
when guardsmen are deployed at home or abroad. JFP conducts all 
training events and national-level seminars and workshops for all of 
the above positions as well as for an estimated force of over 10,000 
National Guard family volunteers.
    The program office provides training to families via computer-based 
training modules, centralized classes, and locally provided training to 
help make families self-reliant throughout the deployment cycle 
process.
Family Assistance Centers
    Consider these actual family situations:

        <bullet> A New Jersey National Guard soldier, training for 
        deployment to Afghanistan, receives word that his family's home 
        is gutted by fire.
        <bullet> A soldier suffers from severe post traumatic stress 
        disorder as he deals with his wife's declining health and the 
        threat of losing their home.
        <bullet> A catastrophic auto accident has left a soldier a 
        quadriplegic.

    These are just a few of the situations Family Assistance Centers 
(FACs) deal with each day to help our soldiers. More than 300 FACs 
across the 54 States and territories provide information, referral, and 
outreach to families of geographically dispersed members from all 
Services, whether Active or Reserve component. FACs are critical to 
mobilization and demobilization and to the long-term health and welfare 
of servicemembers and their families. The FAC team believes that 
soldiers who know their families are cared for, safe, and secure at 
home, can better concentrate on their tasks and missions in theater.
Yellow Ribbon Reintegration Program
    The Yellow Ribbon Program provides information, services, 
referrals, and proactive outreach to servicemembers, spouses, 
employers, and youth from the beginning through the end of the 
mobilization lifecycle.
    The program provides a flexible family support system to meet the 
servicemember and family readiness needs of the expeditionary service 
component and geographically dispersed families. The program focuses on 
ensuring servicemembers and their families receive the information and 
tools necessary to cope during the mobilization lifecycle.
    Yellow Ribbon Program services include:

        <bullet> Marriage Enrichment
        <bullet> Employer Support for the Guard and Reserve
        <bullet> Warrior Transition Unit Information
        <bullet> Traumatic Brain Injury Information and Support
        <bullet> Child Behavioral Counselors
        <bullet> Veterans Affairs Information
        <bullet> TRICARE/Medical Benefit Information
        <bullet> Family Counseling
        <bullet> Legal Counseling
        <bullet> Financial Counseling
        <bullet> Community Relations
        <bullet> School Support
        <bullet> Child Care Services
        <bullet> Informational meetings and briefings
        <bullet> Preparations for reintegration
        <bullet> Employment opportunities
Division of Psychological Health
    The newly created Division of Psychological Health will direct and 
manage a comprehensive psychological health service dedicated to Guard 
members and their families on a variety of conditions associated with 
post traumatic stress disorder(s) and/or traumatic brain injury. Fifty-
four licensed mental health practitioners will cover all the States and 
territories.
    The Psychological Health service goals include:

        <bullet> Providing high quality services that are National 
        Guard member-specific
        <bullet> Overseeing an individual's mental health and 
        readjustment needs to civilian life
        <bullet> Addressing individual health care situations that may 
        hinder reintegration to civilian life
        <bullet> Consulting State and territory National Guard senior 
        management on specific mental health needs and trends based on 
        membership demographics

    The NGB Division of Psychological Health is committed to providing 
quality care and will develop and implement a program that is 
practical, meaningful, and beneficial for our Guard members and their 
families, thereby ensuring our maximum operational readiness.
A Leader in Equal Opportunity
    In 2008, the NGB Office of Equal Opportunity and Civil Rights 
developed Reasonable Accommodations procedures that are a model for 
other Federal agencies. The NGB is also officially partnering with 
Operation War Fighter through job fairs, resume reviews from the 
internet, and participation in ongoing work groups to enhance 
employment opportunities within NGB for wounded servicemembers during 
their rehabilitation.
    This office ensures the effective management of National Guard 
Affirmative Action programs to achieve a military and civilian 
workforce structure that reflects the diversity of the 54 States and 
territories.
    With the ongoing support from Congress and the American people, the 
National Guard will continue to secure the American homeland while 
defending her interests abroad.
    Your National Guard is ``Always Ready, Always There.''

    Senator Ben Nelson. Thank you, General.
    General Wyatt.

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Thank you, Mr. Chairman. I'm honored and 
privileged to be here before you and the committee today, and 
thanks again for all the hard work the committee has done for 
your Air National Guard (ANG).
    I'm privileged to be in the chamber this afternoon with the 
senior enlisted adviser of the ANG, ANG Command Chief Master 
Sergeant Dick Smith from Ohio, who is backing me up here, and 
is responsible, as I am, for the over 94,000 enlisted members 
of the ANG.
    As we meet today, Mr. Chairman, your ANG is protecting our 
skies over the United States of America at 16 of 18 air 
sovereignty alert sites. They're ready to respond to disasters 
like hurricanes, tornadoes, and fires, and are currently 
responding to floods in North Dakota, Minnesota, and snow 
storms in Montana.
    We do all this while, at the same time, volunteering at 
unprecedented rates to support the worldwide contingencies. We 
cannot forget the backbone of our Force, our traditional Guard 
members, who are providing not only day-to-day Air 
Expeditionary Force (AEF) rotation capabilities, but also that 
critical surge capability for our Air Force that makes the 
Guard such a vital component of the entire Air Force.
    In the personnel domain, talking about four major themes 
today, and then I'll pass the microphone. Our primary priority 
this year is targeted and precision recruiting. As you're 
aware, we are over our end strength for the first time since 
2002. We will be focusing our recruiting efforts on getting the 
right folks in the right place and doing the right jobs. 
Incentives and bonuses are key to that.
    We also seek to leverage the inherent ANG efficiencies and 
take on additional Air Force missions as appropriate when asked 
by the United States Air Force and when resourced by the Air 
Force. We attempt to maximize the use of association, the 
association constructs where we work with the Active Duty Air 
Force Reserve brothers and sisters in forming these new 
constructs, and look to community basing to better support the 
Air Force mission.
    Thank you very much. It's an honor and privilege to be 
here, and we look forward to answering your questions, sir.
    Senator Ben Nelson. Thank you, General.
    General Stultz.

STATEMENT OF LTG JACK C. STULTZ, USAR, COMMANDING GENERAL, U.S. 
                      ARMY RESERVE COMMAND

    General Stultz. Mr. Chairman, Senator Burris, and others: 
Thank you for the opportunity to testify before you, to 
represent over 204,000 Army Reserve soldiers who are serving 
this Nation. Thank you for what you've done, for you and for 
the staffers there, for all the support you've given us for our 
soldiers, the things that we talked about previously with 
Secretary Hall, TRICARE, retirement, other benefits, that we're 
able to take back to those soldiers and say, thank you for what 
you're doing for this Nation; this is what Congress is doing 
for you.
    Today, I can report to you that your Army Reserve is in 
excellent shape. We're at 204,000-plus. That's up 7,000 this 
fiscal year, on top of 7,000 last year. We're growing at a 
tremendous pace. Recruiting is good, retention is good. The 
theme that we're using in the statement that I submitted for 
the record is ``A Positive Investment for America.'' The Army 
Reserve is giving this Nation a great return on investment. The 
dollars that we're given in our budget are used wisely and 
we're returning back to America, not only in terms of the 
military capability, but the civilian capability.
    I brought with me today, since 2009 is the year of the 
Noncommissioned Officer (NCO) for the Army, three great NCOs 
that I'd ask just to stand up to be recognized. I use them as 
an example of when I talk about a return on investment. 
Sergeant Jason Ford that you see in front of you, he's a drill 
sergeant in the Army Reserve. When he is on duty with the Army 
Reserve, he's training soldiers, not Army Reserve soldiers, 
Active Duty soldiers, at our BTCs like Fort Leonard Wood. He 
also trained Iraqi soldiers for a year in Iraq, working under 
General Petraeus over there in Multi-National Security 
Transition Command-Iraq (MNSTC-I) Mission, where he was wounded 
while on a combat patrol leading 25 Iraqi soldiers by himself, 
and received the Purple Hurt and Bronze Star.
    Back here in America, in Brockton, MA, he's a law 
enforcement officer. So he comes back and continues to serve in 
uniform for the Nation, both in a Reserve status and as a 
civilian.
    I also have Sergeant Henry Farve, who was deployed to Iraq 
when his son, who was deployed with 3-2 Stryker from Fort 
Lewis, was wounded in action. Sergeant Farve could not get to 
his son, but instead said: ``Continue the mission; I have a 
mission over here with my unit.''
    Sergeant Larry Limon, a first sergeant over there for a 
unit that was providing combat patrols, was hit by an 
improvised explosive device while over there leading the unit, 
but continued the mission.
    All these gentlemen serve their country proudly in uniform, 
but they come back and serve in civilian capacities or work for 
the Government back here. So we do have a positive return on 
investment because we give back not only in defense, we give 
back in the civilian community.
    Thanks for your support. For all the staffers there, thank 
you for what you've done for us. I look forward to your 
questions, sir. Thank you.
    Senator Ben Nelson. Thank you, General. Thank you all. 
Let's give them a round of applause.
    [Applause.]
    [The prepared statement of General Stultz follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    Senator Ben Nelson. Admiral Debbink.

STATEMENT OF VADM DIRK J. DEBBINK, USN, CHIEF OF NAVY RESERVE; 
               AND COMMANDER, NAVY RESERVE FORCE

    Admiral Debbink. Chairman Nelson, Senator Burris: Thank you 
for the opportunity to appear before the committee this 
afternoon. This is my first opportunity to appear before this 
committee. I want to begin by thanking you for your terrific 
support for the 67,217 Navy Reserve sailors, and their 
families, that make up your Navy's Reserve component.
    This afternoon as I testify, Navy Reserve sailors, of 
course, are operating in every corner of the world. You'll see 
these sailors in the news, but you won't see a caption that 
reads ``Reserve'' because we are part of the Navy's Total Force 
and we operate that way around the world.
    From certifying Strike Groups before they deploy overseas 
to our sailors and Naval Special Warfare Groups in Iraq, 
Afghanistan, and elsewhere around the world, our sailors truly 
are making a significant contribution across the full spectrum 
of both naval and joint operations.
    Following a strength reduction of nearly 25 percent since 
2003, the central focus of our manpower strategy now is the 
establishment of a true ``Continuum of Service'' culture. This 
offers our sailors the opportunity to truly be sailors for 
life, providing that life-work balance that accommodates 
individual circumstances while at the same time sustaining the 
inventory of skilled and experienced professionals that we need 
to fulfill our Total Force commitments.
    I believe that we have proven ourselves to be a ready, 
responsive, and very adaptable operational force while 
maintaining the strategic depth that Secretary Hall talked 
about earlier today. This is a very important and, I think, 
very meaningful time for any one of us to be serving in our 
Nation's defense, and I would assert particularly so as a 
reservist.
    So I thank you for your continued support, and we look 
forward to answering your questions, sir.
    [The prepared statement of Admiral Debbink follows:]
            Prepared Statement by VADM Dirk J. Debbink, USN
                            i. introduction
    Chairman Nelson, Senator Graham, and distinguished members of the 
Personnel Subcommittee, thank you for the opportunity to speak with you 
today about the capabilities, capacity, and readiness of the dedicated 
men and women who serve in our Navy's Reserve component (RC). I offer 
my heartfelt thanks for all of the support you have provided these 
great sailors.
    On July 22, last year, I had the distinct honor of reporting to the 
Chief of Naval Operations (CNO), Admiral Gary Roughead, as the 12th 
Chief of Navy Reserve. In that capacity, I have the privilege of 
working for over 67,000 sailors in our Navy's RC. I take to heart that 
each of them has promised to support and defend the Constitution of the 
United States, against all enemies, foreign and domestic. That promise 
is their covenant to our Nation, and my covenant back to these Sailors 
is to do everything I can to make their service truly meaningful, 
significant, and rewarding; these sailors form an incredibly capable 
and motivated force, and they deserve nothing less. I find myself 
amazed and truly in awe of the daily sacrifices our RC sailors are 
making for our Nation and our Navy.
    My predecessor, Vice Admiral John Cotton, laid a strong foundation 
during the past 5 years for a more responsive and operational force, 
and we are a better Navy because of his leadership. We remain steady on 
course and we will look to increase speed where able by improving upon 
our strengths and efficiencies to further advance our ``Support to the 
Fleet . . . Ready and Fully Integrated.'' We are also working on new 
initiatives in order to more fully implement the Navy Reserve's vision 
of: ``Ready Now. Anytime, Anywhere.''
    The Navy Reserve is an integral component of our Total Force--
inextricably linked with the Active component (AC), civil servants, and 
contractor personnel. Our focus is on strategic objectives and specific 
initiatives that will enable us to optimize our support for the CNO's 
priorities: (1) Build the Future Force, (2) Maintain Warfighting 
Readiness, and (3) Develop and Support our sailors, Navy civilians, and 
families. Within this framework, I would like to take this opportunity 
to update you on the operational contributions, support to the sailor 
and family, and the people policies and programs of the Navy Reserve.
                     ii. operational contributions
    The Navy's RC contributions are directed when and where they make 
the most operational and cost-effective sense--the right sailor, in the 
right assignment, at the right time, and importantly, at the right 
cost. Leveraging valuable military and civilian skill-sets and 
capabilities--when possible and consistent with volunteerism--Navy 
reservists operate in all corners of the world. RC sailors are on the 
ground in Iraq and Afghanistan; they help project power from the 
Arabian Gulf; and they aid in providing a stabilizing influence in the 
Eastern Mediterranean. They patrol waters off the Horn of Africa and 
deliver humanitarian assistance and disaster relief throughout the 
world.
    To meet global requirements, the Navy continues to mobilize 
thousands of Selected Reserve (SELRES) RC personnel. These mobilized 
SELRES personnel provide a growing spectrum of capabilities to 
prosecute our current fights by integrating seamlessly into a multitude 
of augmentation missions, in addition to mobilizing as Navy units. We 
are called to execute missions well beyond core requirements with new 
capability missions (Civil Affairs Units, Mobile Training Teams, and 
Provincial Reconstruction Teams, in particular) and mission-unique 
training such as Detainee Operations and Customs Inspection battalions. 
One-third of Navy augmentees currently serve in nontraditional missions 
that involve new capabilities or require unique training. Mobilized 
SELRES sailors have sustained their largest footprints in Iraq (1,018 
sailors), Kuwait (796 sailors), and Afghanistan (277 sailors). At the 
Landstuhl Regional Medical Center (LRMC), more than 90 percent of the 
expeditionary medical support personnel are RC augmentees. Navy RC 
medical augmentees are generally activated for mobilization employment 
periods from 3 months to 1 year from various Operational Health Support 
Units to form the highly valued Navy Expeditionary Medical Units 
(NEMUs). Over 380 RC medical personnel served in our NEMUs in 2008, and 
294 are expected to serve in 2009 and 2010.
    In addition to the contributions of mobilized SELRES and those 
conducting Active Duty Operational Support in fiscal year 2008, an 
additional 21,803 Navy reservists provided 385,291 man-days of Fleet 
Operational Support above the traditional 39 days each SELRES provides 
under current law. The Navy Expeditionary Combat Command (NECC) sets 
the example of RC's operational contributions. Led by Rear Admiral 
Carol Pottenger--a Full Time Support (FTS) Officer of the RC (the Navy 
RC equivalent of Active Guard and Reserve (AGR)), its expeditionary 
forces deployed across 5 continents and 12 countries in 2008, and 
continue supporting Overseas Contingency Operations and the Global 
Maritime Strategy. With 51 percent of the NECC force comprised of RC 
members, NECC's global support to the Navy component commanders (NCCs) 
and unified combatant commanders (COCOMs) is only executable with 
integral contributions from the RC. In 2008 alone, nearly 2,300 RC 
members from 17 NECC units deployed globally, with more than 95 percent 
of the deployed units and personnel supporting Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) in the Central Command 
(CENTCOM) Area of Responsibility (AOR). NECC RC forces continue to 
support operations that include: construction/engineering operations 
with the Naval Construction Forces (e.g., Construction Battalions, or 
SEABEEs), maritime expeditionary landward and seaward security with 
Maritime Expeditionary Security Forces (MESF), Customs Inspections and 
port/cargo operations with Navy Expeditionary Logistics Support Group 
(NAVELSG), warfighting documentation with Combat Camera, document and 
electronic media exploitation with Navy Expeditionary Intelligence 
Command, and Anti-Terrorism/Force Protection (AT/FP) training with the 
Expeditionary Training Command.
    The Navy's RC has been the driver behind an enormous success story 
Navy-wide through its lead role in the critical Customs Inspection 
mission, currently providing virtually the entire deployed footprint 
with more than 500 RC sailors on Individual Augmentee (IA) assignments. 
The Navy is projected to sustain this footprint in 2009 with planned 
Customs rotations throughout the year. The mobilized Customs Inspectors 
include police officers, corrections officers, State police/sheriffs, 
full-time students, engineers, and small business owners. Others 
include teachers, postal clerks, carpenters, nurses, emergency medical 
technicians, auto technicians, and fire fighters. The most recent 
rotation of RC sailors to deploy for an 8-month Customs/Ports tour of 
duty in Iraq and Kuwait departed in November. These Customs personnel 
are drawn from 96 Navy Operational Support Centers (NOSCs) representing 
38 States and territories, including Puerto Rico and Guam.
    RC sailors are also found in the Navy Special Warfare (NSW), 
Maritime Expeditionary Security, and Explosive Ordnance Disposal (EOD) 
communities. reservists comprise 17 percent of the NSW community, 
including SEALs and Special Warfare Combatant-Craft Crewmen (SWCC). As 
a CNO initiative to relieve stress on the AC EOD force, the RC EOD 
force was established in 2007. In 2008, RC EOD units deployed to 
support two OIF/OEF/Global Naval Force Presence Posture (GNFPP) 
requirements. Through Maritime Expeditionary Security units, the Navy's 
RC also directly augments the Maritime Expeditionary Security mission.
    The RC aviation community is equally involved in Total Force 
operational support. Electronic Attack Squadron 209 (VAQ 209) 
mobilized, deploying 188 FTS and SELRES personnel to Bagram Air Base, 
Afghanistan in support of coalition operations from January 14 thru 
March 14, 2008. Helicopter Sea Combat Squadron 84 (HSC 84) continues 
its deployment to Balad Air Base, Iraq to conduct air assault combat 
missions in support of CENTCOM Joint Special Operations. RC members of 
Helicopter Sea Combat Squadron 85 (HSC 85) are deployed to Kuwait to 
support the 2515th Naval Air Ambulance mission, while RC members of 
Helicopter Mine Countermeasures Squadron 15 (HM 15) are deployed 
alongside the AC to the CENTCOM AOR for Fifth Fleet and Navy tasking by 
the U.S. Central Command. Eight RC sailors from HM 14 are also deployed 
to Korea, conducting Airborne Mine Countermeasures and Vertical Onboard 
Delivery (VOD) missions.
    A detachment from Carrier Airborne Early Warning Squadron 77 (VAW 
77), consisting of more than 30 FTS/SELRES personnel and 25 maintenance 
contractors completed 4 month deployments in 2008 to various sites in 
the Southern Command (SOUTHCOM) AOR for counternarcotics operations, 
directly assisting in the capture of cocaine and heroin with an 
approximate street value of $700 million. A 25-person detachment from 
Helicopter Antisubmarine (Light) Squadron 60 (HSL 60) deployed aboard 
the USS Dewert (FFG 45) last year to support SOUTHCOM and Fourth Fleet 
counternarcotics operations, assisting in the interdiction of cocaine 
that was valued at $350 million. Currently, HSL 60 has another 25-
person detachment onboard USS Samuel B. Roberts, seizing 7 metric-tons 
of narcotics to date. The Navy Air Logistics Office scheduled aircraft 
and forward-deployed detachments from all 15 Fleet Logistics Support 
Wing (VR) squadrons, enabling the efficient and effective transport of 
more than 127,000 personnel and 21.7 million pounds of cargo to/from 
various overseas locations in support of COCOM and theater-validated 
requirements. The VR Wing routinely fulfills three CENTCOM Deployment 
Orders, and in excess of 160 RC personnel from the VR Wing are deployed 
to Japan, Italy, Qatar, and Bahrain each day.
    The VR Wing also enables the Fleet Readiness Training Plan (FRTP) 
by transporting personnel and cargo throughout the Continental U.S. in 
support of FRTP airlift requirements for Carrier Air Wings (CVWs), 
Carrier Strike Groups, Fleet Replacement Squadron (FRS) detachments, 
and NSW training requirements. Fighter Squadron Composite 12 (VFC 12), 
Fighter Squadron Composite 13 (VFC 13), Fighter Squadron Composite 111 
(VFC 111), and Strike Fighter Squadron 204 (VFA 204) also enable FRTP 
initiatives by executing adversary sorties for multiple CVW and FRS 
detachments. The Squadron Augmentation Units (SAUs) from Commander, 
Naval Air Training Command (CNATRA) flew 20 percent of all sorties 
conducted in support of student Pilot/Naval Flight Officer (NFO) 
production during 2008, while the FRS SAUs flew nearly 10 percent of 
the syllabus flight events in support of Pilot/NFO and aircrew 
production.
                    iii. equipping the navy reserve
    For Navy reservists to continue providing superior operational 
support to the Navy through the competencies they have acquired both in 
the Fleet and in their civilian careers, the Navy must also have 
interoperability between all elements of the Total Force. The 
acquisition of AC and RC equipment, enhancements and upgrades to 
programs, and equipment redistribution (AC to RC, as well as RC to AC) 
have virtually eliminated capability and compatibility gaps between AC, 
RC, and Joint Forces. Current and future RC equipment requirements that 
are vital to our combat forces include aircraft and NECC equipment.
    The aircraft needed to recapitalize the RC and ensure complete 
alignment with the AC are: the EA-18G ``Growler'' for Electronic 
Attack, the P-8A ``Poseidon'' Multi-Mission Aircraft, the KC-130J 
``Hercules'' for over- and out-sized cargo intra-theatre transport, and 
the C-40A ``Clipper'' for intra-theatre cargo and passenger transport. 
In addition to RC operators, the AC will also have aircrew personnel 
who will operate the EA-18G, P-8A, and the KC-130J (USMC AC). The C-40A 
is unique among these aircraft as it is only operated by RC aircrew 
personnel--the AC does not have any ``Clipper'' operators. Further, the 
C-40A is essential to providing flexible, time-critical, and intra-
theater logistics support, serving as a connector between strategic 
airlift points of delivery to Carrier Onboard Delivery and VOD 
locations. The C-40A is the replacement for aging DC-9/C-9B and C-20G 
aircraft, and it can simultaneously transport cargo and passengers. The 
Clipper has twice the range, payload, and days of availability of the 
C-9 models, and it has twice the availability and eight times the 
payload of the C-20G. The C-40A is an outstanding asset and has 
provided enormous operational support, while facilitating the FRTP, 
since its arrival in 2001.
    NECC provides equipment for its subordinate commands, such as 
SEABEE, MESF, EOD, and NAVELSG units. The equipment utilized by these 
type commands include counter-Improvised Explosive Device equipment, 
tactical vehicles, construction and maintenance equipment, material 
handling equipment, communications gear, boats, and expeditionary camp 
equipment. Like NECC's mission, the equipment it operates is both 
dynamic and diverse.
    The Navy has trimmed the RC force structure to the appropriate 
capacity and capability required to sustain the operational Reserve 
Force. The perceived value and the return on investment that the RC 
delivers in personnel and equipment to the Total Force are measured on 
a daily basis. Critical recapitalization continues to be a priority, 
and budgetary dynamics make us ever reliant on a combination of the 
service priority and the direct appropriation for these aging and 
depreciating assets. Some of these requirements have been mitigated by 
your continued support through the National Guard and Reserve Equipment 
Appropriation.
                  iv. supporting the sailor and family
    As we continue supporting the Fleet, we proactively extend our 
support to individual sailors and their families. Our sailors will do 
almost anything we ask of them, and we see evidence of their dedicated 
service everyday, especially in Iraq and Afghanistan. Their expectation 
that we will support their families while they are away from home is 
both fair and reasonable.
    With so many RC sailors filling IA and mobilization requirements, 
the July 2008 release of the RC IA Business Rules (Navy Administrative 
message 235/08) directly addressed how we care for our RC sailors. In 
particular, these business rules authorized RC sailors who volunteer 
for unit mobilization to combat zones inside their 1:5 ``Dwell Time,'' 
to reset their ``Dwell Clock'' and receive Post-Deployment/Mobilization 
Respite Absence (administrative leave).
    To ensure that our Reserve Force was ready to deploy at any time, 
the Navy's RC introduced the Medical Readiness Reporting System (MRRS) 
to address Individual Medical Readiness. MRRS use was expanded in 
fiscal year 2008, and is now used by the Navy's AC and RC, as well as 
the Coast Guard and Marine Corps. In addition, MRRS was recently 
enhanced to allow more accurate tracking of those sailors at risk due 
to combat operational stress, and to ensure they receive the 
appropriate attention during Post-Deployment Health Reassessments 
conducted 90-180 days after demobilization.
    To facilitate a continuum of readiness, given the stress that 
oftentimes results from operational deployments overseas, funding was 
approved in 2008 to establish the Navy Reserve Psychological Health 
Outreach Program. This program provides outreach services to reservists 
returning from deployment, both during the reintegration process and 
beyond. It ensures early identification and timely clinical assessments 
of Navy reservists at risk for stress injuries. The Program 
Coordinators facilitate access to psychological health support 
resources for the servicemembers and their families, and serve as 
facilitators at Psychological Health/Traumatic Brain Injury seminars 
and Returning Warrior Workshops.
    The Navy Reserve continues to make exceptional progress in 
advancing a standardized, world-class Continuum of Care for SELRES 
sailors, FTS sailors, and their families through all phases of the 
mobilization deployment cycle. United States Fleet Forces (USFF), as 
executive agent for IA and IA Family Support, was vital to the 
evolution of a Total Force Continuum of Care in 2008 by standing up the 
IA and IA Family Cross Functional Team and Executive Steering 
Committee. The Navy Reserve is a lead stakeholder supporting USFF in 
this initiative, and is well-aligned with the Total Force in developing 
and implementing deployment support and reintegration programs for 
deploying IA personnel and units throughout all phases of the 
mobilization cycle.
    The Returning Warrior Workshop (RWW) is now available to RC and AC 
sailors, marines, and their spouses throughout the country. The RWW 
serves as a model in the development of a broad spectrum of additional 
``Continuum of Care'' programs and events. The workshops epitomize 
sailors taking care of sailors; they reflect the Navy's dedication to 
supporting, educating, and honoring our sailors and families, and they 
communicate a strong message that the Navy values their service and 
sacrifice.
    RWWs are ``five-star events'' conducted on weekends and attended by 
up to 200 sailors, marines, and spouses. Attending participants have 
the opportunity to address personal, family, or professional situations 
experienced during deployment and receive readjustment and 
reintegration support and resources from a network of counselors, 
psychological health outreach coordinators, chaplains, and Fleet and 
Family Support Center representatives. Throughout the weekend, 
participants benefit greatly from considerable counseling opportunities 
to educate and support the Navy Family and assist sailors in re-
acclimating with their families and to civilian lives.
    The future for RWWs is bright given the unprecedented success of 
the workshops completed in 2008 and those already completed in 2009. 
The recent event in Albuquerque, NM, was the 21st successful event 
since the inception of the program by Navy Region Southwest Reserve 
Component Command (at Navy Operational Support Center, Phoenix) in late 
2007. Looking ahead, 29 additional workshops are contracted and funded 
through July 2010.
    Our Return-Reunion-Reintegration team is placing strong emphasis on 
the development, implementation, and enhancement of several other 
transformational programs and events. These high profile initiatives 
include:

        <bullet> Full implementation of DOD's Yellow Ribbon 
        Reintegration Program by Navy
        <bullet> Modification of the Chaplain's Religious Enrichment 
        Development Operation retreats to provide a ``One-Day Up-
        Check'' for returning sailors as an alternative to the RWW
        <bullet> Development of comprehensive roles and 
        responsibilities for Psychological Health Outreach Coordinators 
        assigned to each region
                    v. people policies and programs
    A central component of Navy's Total Force strategy is the 
establishment of a culture of a ``Continuum of Service'' to provide 
opportunities for sailors to transition in and out of active service at 
different stages of their careers. The Continuum of Service represents 
a new operating paradigm which can be summarized by the phrase: 
``Recruit once, Retain for life.'' Last year, the Navy's accession and 
retention bonuses for RC sailors increased to $108 million, enhancing 
our ability to recruit and retain the right people for the right job. 
For fiscal year 2008, Navy Recruiting Command achieved 100 percent of 
the RC enlisted accession goal, and 105 percent of RC General Officer 
goal. As recently stated by our Chief of Naval Personnel, VADM Mark E. 
Ferguson, we believe we are on track to repeat this success in fiscal 
year 2009. Once we recruit, train, and lead these sailors through their 
initial tours of duty, our imperative is to give them opportunities to 
transition between the Active and Reserve components, allowing them to 
find the life/work balance that's right for them. This will strengthen 
the focus on retention and reduce the burden on recruiting.
    In addition to achieving the Navy's recruiting goals, the retention 
and attrition for RC personnel have been just as successful. Improved 
retention and lower attrition rates are attributed to a slowing economy 
and an effective recruiting campaign through our ``Stay Navy'' 
initiatives. These efforts target affiliation and retention bonuses on 
skill sets we need the most. In fiscal year 2009, we continue to target 
high-demand/low-supply communities and critical skill sets with 
competitive monetary incentives.
    Navy Reserve end strength has declined by approximately 20,000 
sailors from 2003 through 2008 (88,156 RC sailors in 2003 to 68,136 RC 
sailors in 2008). The anticipated steady state end strength is 
approximately 66,000 in fiscal year 2013. During fiscal year 2008, to 
provide for a stable RC inventory, we implemented several force shaping 
measures that included a reduction in prior service accessions, as well 
as proactive management of Transient Personnel Units, overmanned 
designators, and sailors reaching High Year Tenure. These measures 
proved to be effective, as the Navy ended fiscal year 2008 with 68,136 
RC personnel (approximately 0.5 percent above our statutory end 
strength authorization of 67,800).
    In fiscal year 2009, we already see higher retention and fewer 
losses than planned in the enlisted and officer populations. To 
mitigate this over-execution, we continue to enforce current policies 
and adjust enlisted prior service accessions. Our goal is to finish 
fiscal year 2009 with a more stable, balanced inventory of sailors that 
positions our Reserve Force for continued Total Force support.
    Vice Admiral Ferguson and I are identifying legislative, financial, 
technological, and policy barriers impeding a Continuum of Service and 
developing management practices to quickly and efficiently transition 
sailors between components to meet changing workforce demands. One of 
our key initiatives is to implement a process that transitions sailors 
between the AC and RC within 72 hours. As we provide opportunities to 
transition seamlessly between Active and Reserve statuses, Navy's Total 
Force will capitalize on the spirit of volunteerism to encourage a 
sailor's lifetime of service to the Nation.
    The Navy needs Total Force systems that will reduce administrative 
impediments to a Continuum of Service. The administrative 
inefficiencies created by multiple electronic pay and manpower systems 
create waste and unnecessary burdens on sailors, and they also hinder 
force readiness. A common AC/RC pay and personnel system is crucial to 
building seamless transitions and the success of our sailor for Life 
and Continuum of Service initiatives. In the future, manpower 
transactions will ideally be accomplished with the click of a mouse, 
and records will be shared through a common data repository within all 
DOD enterprises. Navy fully supports this vision of an integrated set 
of processes to manage all pay and personnel needs for servicemembers, 
concurrently providing necessary levels of personnel visibility to 
support joint warfighter requirements. Manpower management tools must 
facilitate audits of personnel costs, and support accurate, agile 
decisionmaking at all levels of DOD.
    One constraint to seamless transitions is the multiple RC funding 
categories. We are working closely with the Office of the Secretary of 
Defense to reduce the number of duty types, aiming to improve 
efficiency while retaining the flexibility Navy reservists need to 
manage their careers and personal lives. Coupled with a well-developed, 
web-enabled personnel management system, this initiative will enable RC 
sailors to rapidly surge to support validated requirements. The 
consolidation of most RC order writing to the Navy Reserve Order 
Writing System has been a significant evolution in Navy's effort to 
integrate its Total Force capabilities by aligning funding sources and 
accurately resourcing operational support accounts.
    The Honorable Secretary of the Navy Donald C. Winter recently 
approved the Navy's request to transition to a community management-
based promotion policy for the RC Officer community--both SELRES and 
FTS. As a result, the Navy has implemented a policy change to 
``decouple'' its Reserve Officer promotion zones from the AC officer 
promotion zones, as was the current practice under the Running Mate 
System (RMS). In place since 1947, the RMS linked RC and AC promotion 
zones without consideration of RC community needs. Under the Navy Total 
Force construct, Officer Community Managers now have the flexibility to 
develop promotion plans and policies that meet individual community and 
component needs, especially for SELRES Officers.
    For Navy reservists who look to further their professional 
development, the Navy has recently obtained Joint and Combined 
Warfighting class quotas for RC personnel (both FTS and SELRES) at the 
Joint Forces Staff College. These new class quotas complement the 
Advanced Joint Professional Military Education course that is already 
in place. The Navy is also in the early stages of establishing an RC 
Foreign Area Officer (FAO) program. RC FAOs will be part of a cadre of 
Officers aligned with the AC who have the skills required to manage and 
analyze politico-military activities overseas.
                             vi. conclusion
    Since September 11, nearly 53,000 contingency activation 
requirements have been filled by SELRES personnel, along with an 
additional 4,300 contingency requirements filled by FTS sailors in 
support of ongoing conflicts in Iraq, Afghanistan, and the Horn of 
Africa. On any given day, more than 18,000 Navy reservists, or about 26 
percent of the Force, are on some type of orders that provide support 
to global operation requirements of Fleet Commanders and COCOMs. Our 
more than 67,000 sailors serving in the RC are forward deployed in 
support of coalition forces, at their supported commands around the 
world, or in strategic reserve, ready to surge 24/7 each day if more 
Navy Total Force requirements arise.
    I am proud to be a Navy reservist, and I am humbled by the 
commitment of the men and women of our Navy Reserve. It is very 
rewarding and fulfilling to stand shoulder to shoulder with the Navy's 
AC as we meet our Nation's requirements. Although I readily admit my 
bias, there has never been a more meaningful time to be part of the 
Navy-Marine Corps team, and our Navy Reserve is clearly an integral 
part of the this hard-working, high-spirited and amazingly capable 
force.
    The Navy's ability to be present in support of any operation, in 
war and peace, without permanent infrastructure in the area of 
operations, is a key advantage that will become even more important in 
the future. Our Navy remains the preeminent maritime power, providing 
our Nation with a global naval expeditionary force that is committed to 
global security, while defending our homeland as well as our vital 
interests around the world. The Navy Reserve's flexibility, 
responsiveness, and ability to serve across a wide spectrum of 
operations clearly enhances the Navy Total Force, acts as a true force 
multiplier, and provides unique skill sets towards fulfilling Navy's 
requirements in an increasingly uncertain world.
    On behalf of the sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and our Navy's Total Force.

    Senator Ben Nelson. Thank you.
    General Bergman.

STATEMENT OF LT. GEN. JOHN W. BERGMAN, USMC, COMMANDER, MARINE 
       FORCES RESERVE; AND COMMANDER, MARINE FORCES NORTH

    General Bergman. Good afternoon, Senator Nelson, Senator 
Burris. It's an honor to be here to thank you for all the 
support you've given your Marine Corps Reserve because without 
it, we wouldn't be the ready and relevant fighting force that 
we are today.
    We heard the term ``Operational Reserve'' put out a little 
bit earlier. No matter what you call it, Operational Reserve, 
Strategic Reserve, all I know is that our marines and our 
sailors who are attached to us, and their families and their 
employers are standing up and continuing to stand up to sustain 
the level of operations worldwide that the Marine Corps Reserve 
is involved in.
    As we contemplated what do we call this deployable Reserve, 
we called it an Operational Reserve and put it into what we 
call a Force Generation Model, which drives us towards the most 
important word that I think we can use here for our preparation 
of forces, which is predictability. When you let someone know 
in advance, well in advance, what they're going to be doing, 
where they're going to be going, so the employers, the 
families, and everybody knows what the mission is, know what 
the timeframe is, we have found that has helped us minimize the 
amount of cross-leveling that has occurred amongst our units.
    So we are very, very deep into the maturation of the Force 
Generation Model that will allow us in that 5-year dwell time 
to try and meet the 1:5 dwell time ratio criteria for the 
Reserve component, to man, equip, train, and get our units 
ready to go. Of course, all that is tied to budgeting. If we 
get this right, we will provide not only a ready and relevant 
force, but a force that was done with a relatively wise use of 
all the dollars available.
    I suggest to you there's nothing more adaptable than a 
marine in the fight. As we've been adapting to growing the 
Marine Corps to 202,000 here over the past few years, we're 2 
years ahead of schedule. That will allow us to refocus some of 
our manpower planning and policies to shape this Operational 
Reserve and our large units so that we're ready to go for the 
long term.
    I look forward to your questions, sir.
    [The prepared statement of General Bergman follows:]
          Prepared Statement by Lt. Gen. Jack W. Bergman, USMC
    Chairman Nelson, Senator Graham, and distinguished members of the 
subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve.
    I am pleased to report that your Marine Corps Reserve continues to 
equip and train the best and brightest of our Nation's sons and 
daughters. In an environment where the Marine Corps continues to 
rapidly adapt to broad strategic conditions and wide-ranging threats, 
your Marine Corps Reserve--a primarily Operational Reserve--continues 
to meet all challenges and commitments. Whether in Iraq today, 
Afghanistan tomorrow or in subsequent campaigns, your Marine Corps 
Reserve continues to answer the clarion call to arms in defense of this 
great Nation.
    On behalf of all our marines, sailors, and their families, I would 
like to take this opportunity to thank the subcommittee for its 
continuing support. The support of Congress and the American people 
reveal both a commitment to ensure the common defense and a genuine 
concern for the welfare of our marines, sailors, and their families.
                    i. today's marine corps reserve
    Your Marine Corps Reserve continues to be fully capable of 
warfighting excellence. As a vested partner in the Total Force Marine 
Corps, we faithfully continue our steadfast commitment to provide 
Reserve units and personnel who stand shoulder-to-shoulder with their 
Active component counterparts in all contingencies, operations, and 
exercises.
    As of March 3, 2009, 52,369 Reserve marines and approximately 99 
percent of U.S. Marine Corps Reserve units were activated since 
September 11--98 percent of our activated units deployed to the U.S. 
Central Command area of responsibility.
    Today's Marine Corps Reserve is characterized by a strong resolve 
that enables us to sustain the current operational pace during the 
longest mobilization period in our Nation's history. However, to 
continue this unprecedented pace will require adequate funding. Without 
the total funding, currently provided through baseline and supplemental 
processes, we would be unable to maintain a truly Operational Reserve.
    The Force Generation Model, implemented in October 2006, continues 
to provide predictability of future activation and deployment schedules 
for our marines and sailors. The predictability the Model provides has 
been well received by our marines, sailors, and employers. The model 
provides our reservists the opportunity to effectively plan their lives 
throughout their Reserve contractual agreement, enabling them to 
creatively strike a successful balance between family, civilian career 
and service to community, country, and Corps. I am happy to report that 
we recently activated the fifth rotation based upon the model to 
Operations Iraqi and Enduring Freedom (OIF and OEF) with 5,500 marines 
being activated and deployed during fiscal year 2008. Additionally, we 
have activated approximately 2,500 more marines during the timeframe 
November 2008 to February 2009.
    The Force Generation Model continues to assist Service and Joint 
Force planners in maintaining a consistent flow of fully capable Marine 
Corps Reserve units. This steady flow of Reserve units is essential in 
enabling our Active component to reach a 1:2 dwell time. The Model, 
based on 1-year activation to 4-plus years in a non-activated status, 
continues to be both supportable and sustainable. Predictable 
activation dates permit unit commanders to focus training on core 
mission capabilities early in the dwell period; and then train to 
specific OIF and OEF mission tasks once the unit is within 12 to 18 
months of activation. Additionally, the amount of cross-leveling has 
been significantly reduced. With each subsequent rotation, the 
requirement to cross-level continues to decrease. For example, the 
upcoming activation of the St. Louis, MO-based 3rd Battalion, 24th 
Marine Regiment, will require minimal cross-leveling of enlisted 
personnel.
    We believe the full benefit of the Force Generation Model will 
begin to be realized once we have completed a full cycle of nine 
rotations and the active Component reaches the authorized end strength 
of 202,000. A very important byproduct of the Force Generation Model 
will be our emerging ability to more accurately budget for training and 
equipment requirements during the 5 year dwell time.
    In addition to the 5,500 marines activated and deployed during 
fiscal year 2008 in support of OIF and OEF, we deployed an additional 
3,300 marines worldwide in support of joint and/or combined Theater 
Security Cooperation Exercises. In each of the past 3 years, between 
OIF, OEF, Theater Security Cooperation Exercises, and recently emerging 
security cooperation mobile training teams that conduct Phase-0 
operations, nearly one-third of our force has deployed outside the 
continental United States both in an activated and nonactivated status.
    During this past year, more than 3,300 marines from 4th Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, military police, and 
truck units. Of particular note, the El Paso, TX-based Battery D, 2nd 
Battalion, 14th Marine Regiment, became the second Marine Corps High 
Mobility Artillery Rocket System (HIMARS) unit to be deployed. Another 
highlight was the success of New Orleans, LA-based 3rd Battalion, 23rd 
Marine Regiment, in al-Anbar Province. This infantry battalion, with 
companies in Louisiana and Texas, played a key role in the 
redevelopment of the Haditha K3 Oil Refinery and transport of crude oil 
in al-Anbar Province. Their efforts, spurred primarily by several of 
the battalion's marines who are consultants and executives within the 
U.S. oil and energy industry, resulted in the successful rail transport 
of crude oil into Anbar and restart of the oil refinery by July 2008, 
several years after the refinery and rail system had ceased to operate. 
Also of note was the ability and flexibility of the Division units to 
train for and conduct ``in lieu of'' or provisional missions due to 
changing operational requirements in OIF/OEF.
    Fourth Marine Division also deployed two of its regimental 
headquarters in the role of Marine Air Ground Task Forces (MAGTF) 
command elements. Kansas City, Missouri-based 24th Marine Regiment 
deployed as a Special Purpose MAGTF to U.S. Southern Command to support 
the new Partnership of the Americas series of small combined Theater 
Security Cooperation Exercises in South America. The San Bruno, CA-
based 23rd Marine Regiment led a combined joint regimental headquarters 
in support of exercise African Lion in Morocco as well as a combined 
joint battalion headquarters in support of Exercise Shared Accord in 
Ghana. These 3 exercises alone incorporated the deployment of more than 
1,100 marines from across Marine Forces Reserve. Fourth Marine Division 
also conducted training to assist our allies in foreign militaries from 
Korea to the Republic of Georgia. Calendar year 2009 will be a busy 
year for the division as they conduct training in Benin, Brunei, 
Ukraine, the Dominican Republic, the Bahamas, Brazil, Guatemala, and 
Guyana. Returning to exercises in Morocco and Australia and supporting 
the 50th anniversary of UNITAS Gold with a command element from 24th 
Marine Regiment will be key engagements. From May through August 2009, 
an activated Reserve reinforced rifle company from the 24th Marine 
Regiment and a composite platoon of marines from the 4th Amphibious 
Armored Battalion, in partnership with the U.S. Navy, will conduct 
training and exercises in Brunei, Singapore, Malaysia, Indonesia, 
Thailand, and the Philippines during exercise Cooperation and Readiness 
Afloat Training.
    Fourth Marine Aircraft Wing has continued to provide essential 
exercise support and predeployment training normally provided by Active 
component squadrons. The Marine Corps' premier predeployment training 
exercise, Mojave Viper, received a majority of air support from our 
fixed wing and helicopter squadrons. Fourth Marine Aircraft Wing 
deployed Mt. Clemens, MI-based, Marine Wing Support Squadron 471 as a 
Provisional Security Company to Camp Lemonier, Djibouti, in the Horn of 
Africa, provided a truck platoon to support combat operations for the 
Active component's 3rd Battalion, 7th Marine Regiment in Iraq, and 
sourced multiple Marine Air Control detachments from Chicago, IL-based 
Marine Air Control Group 48. Marine Transport Squadron Belle Chasse 
(Louisiana) Detachment is currently in theater with the UC-35 Citation 
Encore aircraft providing critical Operational Support Airlift 
capability to U.S. Central Command.
    Additionally, Fourth Marine Aircraft Wing has participated in 
multiple combined, bilateral and joint exercises in Africa, Asia, 
Europe, and South America. Humanitarian Assistance construction 
projects were conducted in Trinidad-Tobago, Peru, and Honduras. 
Participation in these exercises includes support of U.S. and Marine 
Corps forces and facilitates training and interoperability with our 
allies. For example, African Lion participation enabled the Moroccan 
Air Force to develop better close air support and aerial refueling 
techniques.
    Fourth Marine Aircraft Wing continues to be an integral partner in 
the Marine Corps Aviation Transition Strategy. In the near term, 
transition from legacy to leap-ahead aviation capabilities (i.e. MV-22, 
UH-1Y, AH-1Z, and JSF) in the Active component required a transfer of 
certain Reserve component aviation manpower, airframes and support 
structure to the Active component Marine Corps. As a result, two 
Reserve Fighter/Attack F/A-18 squadrons were placed in cadre status and 
a light attack UH-1N/AH-1W helicopter squadron, a Heavy Lift CH-53E 
helicopter squadron, an Aviation Logistics Squadron and two of four 
Marine Aircraft Group Headquarters were decommissioned. A second Heavy 
Lift CH-53E helicopter squadron has been reduced in size. As the Active 
component transitions to the new airframes, 4th Marine Aircraft Wing 
has assumed the Fleet Replacement Squadron role for the legacy model 
KC-130s, UH-1s, and AH-1s. Additionally, as part of the Aviation 
Transition Strategy, two Tactical Air Command Center Augmentation Units 
were commissioned. To complete the Aviation Transition Plan, beginning 
in 2014, 4th Marine Aircraft Wing will begin transitioning to the new 
airframes and Command and Control (C2) capabilities.
    Fourth Marine Logistics Group continues to provide fully capable 
units, detachments, and individuals prepared to deliver sustained 
tactical logistics support. In the past year, 4th Marine Logistics 
Group provided approximately 1,300 marines and sailors from across the 
spectrum of combat service support to augment the Active component's 
1st and 2nd Marine Logistics Groups engaged in OIF. In addition to the 
requirements of the Force Generation Model, 4th Marine Logistics Group 
provided additional support to OIF by sourcing 265 marines to staff the 
al-Taqauddam Security Force and to OEF by sourcing 279 marines from the 
Portland, OR-based 6th Engineer Support Battalion to staff Provisional 
Security Company 8 at Camp Lemonier, Djibouti, in the Horn of Africa.
    Increased augmentation in support of OIF/OEF will include a 
complete Combat Logistics Battalion (CLB-46) formed with more than 800 
marines and sailors from across 4th Marine Logistics Group's nine 
battalions. Combat Logistics Battalion 46 will provide tactical level 
logistics support to a Marine Regimental Combat Team in al-Anbar 
Province, Iraq. This will be the first CLB formed and deployed by 4th 
Marine Logistics Group.
    Continuing to aggressively support overseas joint and combined 
exercises, training, and other events in support of the Combatant 
Commanders' Phase-0 operations, 4th Marine Logistics Group participated 
in 29 overseas events spread across all of the Unified Commands, 
ranging in size from exercises involving 75 marines down to 3-person 
Traveling Country Teams that conducted engagement with foreign 
militaries. Olympic Thrust in June 2008 began the preparation of 4th 
Marine Logistics Group's battalions' staffs to form the nucleus of a 
CLB headquarters. Exercise Javelin Thrust (June 2009) will be a 
capstone preparation event for CLB-46.
    Fourth Marine Logistics Group has taken the lead on coordinating 
Marine Forces Reserve's participation in Innovative Readiness Training 
(IRT) program events. The purpose of the IRT program is to provide 
civic assistance projects in the United States, possessions and 
territories while simultaneously improving military readiness. Fourth 
Marine Logistics Group has initiated and conducted IRT planning during 
the last year and will execute two events in Alaska and one event in 
the Marianas Islands during 2009. These events will focus on 
infrastructure improvements and medical/dental assistance projects.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of OIF. Air-Naval Gunfire Liaison Detachments from Marine Forces 
Reserve have augmented the supported Marine Air Ground Task Forces and 
adjacent commands with air/ground fires liaison elements. Marine Forces 
Reserve also continues to provide intelligence augmentation, to include 
Human Exploitation Teams, Sensor Employment Teams, and Intelligence 
Production Teams.
    The trend in recent years toward increased participation of marines 
in the Individual Ready Reserve (IRR) continued in fiscal year 2008. 
During the fiscal year, the Marine Corps Mobilization Command (MOBCOM) 
mustered more than 1,500 marines from the IRR to screen and prepare 
them for activation. More than 1,500 sets of mobilization orders were 
issued with a total of 1,002 IRR marines reporting for activation 
during fiscal year 2008. MOBCOM also processed more than 8,100 sets of 
shorter duration active duty orders for IRR marines during fiscal year 
2008. We have expanded our family programs to reach out to the families 
of our deployed IRR marines, using local Peacetime/Wartime Support 
Teams as well as MOBCOM assets. With the advent of Yellow Ribbon 
Legislation, we continue to develop programs to better support our 
deploying and returning marines and their families.
    MOBCOM modified its IRR muster program during 2008, from large 
scale metropolitan musters to a combination of large scale musters and 
smaller, more personalized musters at Reserve sites. We completed the 
fiscal year screening of approximately 11,000 of the 55,000 marines in 
our IRR population. Our screening effectiveness continues to rise as we 
continue to develop better communication methods with our IRR 
population. For example, MOBCOM contacted and engaged the IRR marines 
through email, letter correspondence, and telephone calls. Higher 
quality communications keeps our marines better informed and prolongs 
their connection with each other and our Corps. We believe that these 
longer-term connections will be critical as we truly seek to create the 
Continuum of Service necessary to support a sustainable Operational 
Reserve.
    The Marine Corps Reserve's continuing augmentation and 
reinforcement of the Active component is not without cost. Continuing 
activations and high Reserve operational tempo highlight personnel 
challenges in select military occupational specialties and significant 
strain on Reserve equipment.
                             ii. personnel
    The Selected Marine Corps Reserve is comprised of Reserve unit 
marines, Active Reserve marines, Individual Mobilization Augmentees, 
and Reserve marines in the training pipeline, which when added 
together, form the inventory of the end strength in the Selected Marine 
Corps Reserve.
End Strength
    Although we continue to benefit from strong volunteerism of our 
Reserve marines, a degradation in our ability to achieve authorized end 
strength has occurred. Fiscal years 2002 to 2005 had percentages of 
authorized end strength above 100 percent and fiscal year 2006 
percentage of authorized end strength at 99.71 percent. Fiscal years 
2007 and 2008 percentages of authorized end strength were at 97.36 and 
94.76 percent--shortfalls of 1,044 and 2,077 marines respectively. This 
resulted in the only fiscal years since September 11 that the Selected 
Marine Corps Reserve fell below the Title 10-allowable 3 percent 
variance from authorization.
    As previously stated in my testimonies before the House and Senate 
Appropriations Committees' Subcommittees on Defense during 2008, we 
anticipated an adverse affect on meeting an acceptable percentage of 
authorized Marine Corps Selected Reserve end strength as greater 
numbers of Reserve component marines volunteered for full-time active 
duty due to the Marine Corps' accelerated build to a 202,000 Active 
component Marine Corps.
    During the past fiscal year, we accepted the short-term risk in our 
ability to obtain our Selected Marine Corps Reserve component end 
strength of 39,600 as the Reserve accession plans were adjusted and our 
experienced and combat tested Reserve marines were encouraged to 
transition back to active duty to support the build effort, and they 
responded in force: From 2007 to present, approximately 1,946 Reserve 
marines returned to, or are awaiting return to, active duty.
    The fact is that the Active component Marine Corps will continue to 
rely heavily upon augmentation and reinforcement provided by our 
Reserve marines. I firmly believe our authorized end strength of 39,600 
is still highly relevant and appropriate, and will consequently drive 
recruiting and retention. This number provides us with the marines we 
require to support the Force and to achieve our goal of a 1:5 
deployment-to-dwell ratio in the Selected Marine Corps Reserve.
    Additionally, it is worth noting, the Marine Corps is on pace to 
reach an active duty end strength of 202,000 by the end of fiscal year 
2009, which will enable the Marine Corps to refocus the Reserve 
recruiting and retention efforts to achieve the expected percentage of 
authorized Selected Marine Corps Reserve component end strength. The 
bonuses and incentives for recruiting and retention provided by 
Congress are essential tools for helping us accomplish this goal and I 
thank you for your continued support.
Recruiting
    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the direction 
of the Marine Corps Recruiting Command. Operationally, this provides 
the Marine Corps with tremendous flexibility and unity of command in 
order to annually meet Total Force Marine Corps objectives.
    Like the Active component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve marines, their families, and 
employers remains extraordinarily high.
    The Marine Corps Recruiting Command achieved 100 percent of its 
recruiting goal for nonprior service recruiting (5,287) and exceeded 
its goal for enlisted prior service recruiting (2,672) during fiscal 
year 2007; and achieved 100 percent of its recruiting goal for nonprior 
service recruiting (4,235) and prior service recruiting (4,501) in 
fiscal year 2008. As of February 1, 2009, 1,756 nonprior service and 
1,227 enlisted prior service marines have been accessed, which reflects 
48 percent of the annual enlisted recruiting mission for the Selected 
Marine Corps Reserve. We fully expect to meet our Selected Marine Corps 
Reserve recruiting goals again this year.
    An initiative implemented during June 2006 at Marine Forces Reserve 
to enhance recruiting efforts of prior service marines was the Selected 
Marine Corps Reserve Affiliation Involuntary Activation Deferment 
policy. Realizing that deployments take a toll on Active component 
marines, causing some to transition from active duty because of high 
personnel tempo, we continue to offer this program. This program allows 
a marine who has recently deployed an option for a 2-year deferment 
from involuntary activation if they join a Selected Marine Corps 
Reserve unit after transitioning from active duty. The intent of the 2-
year involuntary deferment is to allow transitioning marines the 
opportunity to participate in the Selected Marine Corps Reserve without 
sacrificing the ability to build a new civilian career.
    Junior officer recruiting and consequently meeting our Reserve 
company grade requirement remains the most challenging area. 
Historically, the Active component Marine Corps has been the source of 
company grade officers to the Selected Marine Corps Reserve, due to 
initial active duty contractual requirements of all Reserve-
commissioned officers. There are, however, three programs in place now 
that enable Reserve officer accessions without the typical 3- to 4-year 
active duty obligation: the Reserve Enlisted Commissioning Program 
(RECP), the Meritorious Commissioning Program--Reserve (MCP-R) and the 
Officer Candidate Course--Reserve (OCC-R).
    These programs strive to increase the number and quality of company 
grade officers within deploying Reserve units while addressing our 
overall shortage of junior officers in our Reserve units. The 3 
programs combined to access 108 Reserve officers during fiscal years 
2007 and 2008, and are an essential tool to help mitigate company grade 
officer shortages in the Selected Marine Corps Reserve.
    Eligibility for the RECP was expanded to qualified Active Duty 
enlisted marines. The MCP-R was established for qualified enlisted 
marines, Reserve and Active, who possess an Associates Degree or 
equivalent number of semester hours. The third program, the OCC-R, has 
proven to be the most successful as 93 candidates have been 
commissioned second lieutenants in the Marine Corps Reserve during 
fiscals years 2007 and 2008. We anticipate commissioning between 50 and 
75 more second lieutenants through the OCC-R this fiscal year.
    The OCC-R focuses on ground-related billets, with an emphasis on 
ground combat and combat service support within Reserve units that are 
scheduled for mobilization. The priority to recruit candidates is tied 
to the Marine Forces Reserve Force Generation Model. Refinement of the 
OCC-R program to target geographic company grade officer shortfalls is 
a logical next step.
Retention
    All subordinate commanders and senior enlisted leaders at each 
echelon of command are required to retain quality marines. On a monthly 
basis, these leaders identify marines who either have to re-enlist or 
extend. Identified marines are counseled concerning the opportunity for 
their retention in the Selected Marine Corps Reserve.
    Enlisted retention trends remain a concern and are being monitored 
very closely, but were obviously affected by the Active component 
202,000 build. The good news is that the Active component Marine Corps 
is no longer making a concerted effort to draw personnel from the 
Selected Marine Corps Reserve to active duty.
    For fiscal year 2008, Reserve officer retention remained at the 
same level as during the previous fiscal year, which was above historic 
levels.
    We continue to offer retention incentives for enlisted marines in 
the Selected Marine Corps Reserve, to include the maximum allowable 
$15,000 Selected Marine Corps Reserve Affiliation Bonus for an initial 
3-year commitment. We also offer a $10,000 Selected Marine Corps 
Reserve Officer Affiliation Bonus for those officers who affiliate with 
a Selected Marine Corps Reserve unit and agree to participate for 3 
years. I greatly appreciate the continuance of the increased 
reenlistment incentive, which was initially provided in the National 
Defense Authorization Act for Fiscal Year 2008.
    These incentives are necessary tools to help us retain quality 
marines and consequently assist us in achieving an acceptable 
percentage of authorized Selected Reserve end strength.
    I read with interest the memorandum of July 24, 2008, by Secretary 
Gates concerning the recommendations of the Commission on the National 
Guard and Reserves. I am pleased to see the strong emphasis on study of 
the various recommendations that pertain to the Continuum of Service 
personnel management construct. As the Continuum of Service concept is 
refined, it should facilitate the affiliation of prior service marines 
into the Selected Marine Corps Reserve as well as retain those good 
marines already serving.
                             iii. equipment
    The Marine Corps Reserve, like the Active component, has two 
primary equipping priorities: first--equipping individual deploying 
marines and sailors, and second--equipping our units to conduct home 
station training. We will continue to provide every deploying marine 
and sailor with the latest generation of individual combat and 
protective equipment. Our unit equipping efforts include the full 
complement of equipment to support training efforts across the MAGTF. 
This complement includes essential communications; crew-served weapon 
systems such as Light Armored Vehicles (LAVs), Assault Amphibian 
Vehicles (AAVs), Tanks, and Artillery; ground mobility; and ground 
support equipment, which requires continued adequate funding of our 
Operations and Maintenance accounts. Your continued support in this 
area has enabled us to adequately sustain home station training and 
predeployment operations.
    As with all we do, our focus will continue to be on the individual 
marine and sailor. Ongoing efforts to equip and train this most valued 
resource have resulted in obtaining the latest generation individual 
combat and protective equipment: M16A4 service rifles, M4 carbines, 
Rifle Combat Optic scopes, improved helmet pad suspension systems, 
enhanced Small Arms Protective Insert plates, Modular Tactical Vests, 
and the latest generation AN/PVS-14 Night Vision Devices, to name a 
few. Every member of Marine Forces Reserve has deployed fully equipped 
with the most current authorized individual combat clothing and 
equipment to include personal protective equipment.
    Marine Forces Reserve's unit equipping priority is to obtain the 
principal end items necessary to establish or replenish the appropriate 
inventory of equipment to the level dictated by our training allowance. 
Training allowance is the amount of equipment needed by each unit to 
conduct home station training. Our Reserve units should train with the 
equipment necessary for Marine Forces Reserve to effectively augment 
and reinforce the Active component.
    Currently, our equipping focus is on mitigating the short-term 
impact of reduced supply of certain principal end items, e.g.; seven 
LAV variants, Digital Terrain Analysis Mapping Systems, and the Theater 
Provide Equipment Sensors. We employ adaptive resourcing and training 
management approaches to ensure our Reserve units can adequately train. 
The inherent latency in procurement timelines and competing priorities 
for resources continue to challenge the training and equipping of our 
Operational Reserve. Since the Marine Corps procures and fields 
equipment as a Total Force, equipment modernization efforts of the 
Marine Corps Reserve are synchronized with the efforts of the Active 
component. The approved $37.3 million fiscal year 2009 National Guard 
and Reserve Equipment Appropriation (NGREA) will provide Marine Forces 
Reserve the funds to procure much needed Tactical Laptop Computer 
Packages (Ruggedized Laptops and General Purpose Laptops), Supporting 
Arms upgrade to Digital Virtual Training Environment (DVTE), Bright 
Star FLIR, LAV 25 A2 Variant (LAV-25A2), and a Tactical Remote Sensor 
Suite.
    To maintain an inventory of current equipment necessary to conduct 
home station training, Marine Forces Reserves utilizes several 
resources and programs. Routine preventive and corrective maintenance 
are still performed throughout the country by our marines. However, 
ground equipment maintenance efforts have expanded over the past few 
years, leveraging contracted services and depot-level capabilities. 
Marine Corps Logistics Command, through mobile maintenance teams, 
provides preventive and corrective maintenance support to our Reserve 
units. Marine Forces Reserve is actively involved in the Marine Corps 
Depot Level Maintenance Program to support the continued operation of 
principal end items. Marine Corps Logistics Command continues to 
uniquely provide Marine Forces Reserve a ``Repair and Return'' program 
which enables us to request additional maintenance support when 
requirements exceed the Marine Forces Reserve maintenance capacity.
    Another key maintenance program utilized by Marine Forces Reserve 
is the Corrosion Prevention and Control program which extends the 
useful life of all Marine Corps tactical ground and ground support 
equipment. This program reduces significant maintenance requirements 
and associated costs due to corrosion through the application of 
corrosion-resistant compounds, establishing environmentally-safe wash-
down racks, and providing climate controlled storage. Additionally, the 
program identifies, classifies, and effects repair, or recommends 
replacement of equipment that has already succumbed to the elements.
    Marine Corps Reserve ground equipment readiness rates are currently 
above 90 percent (Maintenance--97 percent and Supply--92 percent as of 
March 9, 2009), based on our Reserve equipment Training Allowance. The 
Marine Corps Reserve equipment investment overseas MAGTF operations 
since 2004 is approximately 5 percent of our overall equipment and 
includes various communications, motor transport, engineer, and 
ordnance equipment, as well as several modern weapons systems such as 
the new HIMARS artillery system and the latest generation LAV. This 
investment has presented challenges for our home station training 
requirements yet greatly adds to the warfighting capability of the 
Marine Corps. Deliberate planning at the Service level is currently 
underway to reset the Total Force, to include resourcing the Reserve 
equipment. This resourcing will enable the Marine Corps Reserve to 
remain ready, relevant, and responsive to the demands of our Corps.
    Marine Corps Reserve equipment requirements are captured as part of 
Marine Corps Total Force submissions. Priority Reserve equipment 
requirements that cannot be timely met with these vehicles are 
identified in the Commandant's Unfunded Programs List and/or my NGREA 
request.
    We especially appreciate Congress' support of the Marine Corps 
Reserve through NGREA. It would be impossible for me to overstate the 
importance of NGREA and in particular, the consistency of these 
appropriations. Since 2002, NGREA has provided more than $240 million 
for equipment procurements. The stability of NGREA funding has 
significantly increased our ability to forecast meeting priority 
equipment requirements. The NGREA provides immediate flexibility, 
allowing procurement of items necessary to meet specific combat 
capability, training, and support requirements.
    In the last 3 years, we have been able to close the gap on combat 
equipment requirements necessary to effectively train our marines and 
sailors. Examples of high-priority combat equipment purchases we have 
made or will make through fiscal years 2007, 2008, and 2009 NGREA 
funding are: the Litening II Targeting Pod; the AN/ARC-210 (V) Multi-
Modal Radio system for our KC-130 aircraft; the UC-12+ aircraft; 
multiple C2 systems component; and as previously stated, the Brite Star 
FLIR; the Tactical Remote Sensor System; and the LAV-25A2. Through 
consistent NGREA funding, we have been able to completely eliminate 
some deficiencies.
    Additionally, with NGREA, we have been able to establish a robust 
ground combat modeling and simulation program, our NGREA-procured 
Virtual Combat Convoy Trainers (VCCTs), Combat Vehicle Training 
Simulators, Medium Tactical Vehicle Replacement-Training Systems, HMMWV 
Egress Trainer, and DVTEs enable us to overcome many resource and time-
related challenges while increasing the individual and unit's combat 
readiness. Our fiscal year 2009 NGREA plan includes Supporting Arms-
Helmet Mounted Displays for our DVTEs, giving our marines the ability 
to enhance Forward Air Control and Indirect Fire Control proficiency 
without leaving the Reserve Training Center. It is accurate to say that 
we could not have provided some critical capabilities without these 
NGREA funds.
                              iv. training
    The collective lessons wrought from our unit and individual combat 
experiences, Theater Security Cooperation Exercises and other Active 
component operational tempo relief deployments have helped improve 
nearly all facets of our current Reserve component training. In this 
regard, one of the most exciting areas where we are continuing to 
transform the depth and scope of our training remains the cutting-edge 
arena of Modeling and Simulations Technology.
    Rapid advancement in modeling and simulation software, hardware and 
network technologies are providing new and increasingly realistic 
training capabilities. Marine Forces Reserve is training with and 
continuing to field several complex digital video-based training 
systems which literally immerse our Reserve component marines into 
``virtual'' combat environments, complete with the sights, sounds and 
chaos of today's battlefield environment in any clime or place, day or 
night, spanning the full continuum of warfare from high-intensity 
conventional warfare to low-intensity urban conflict.
    One new capability that we are fielding to support our Reserve 
marines is the Indoor Simulated Marksmanship Trainer-XP. This 
interactive audio/video weapons simulator provides enhanced 
marksmanship, weapons employment and tactical decision making training 
for a variety of small arms. The system consists of infantry weapons 
instrumented with lasers that enable marines to simulate engaging 
multiple target types.
    Another system addressed in lasts year's testimony that continues 
to prove invaluable in the predeployment training of our tactical 
drivers is the Virtual Combat Convoy Trainer-Reconfigurable Vehicle 
System. This is an advanced, full-scale vehicle simulator that trains 
marines in both basic and advanced combat convoy skills using variable 
terrain and roads in a variety of weather, visibility and vehicle 
conditions. The simulator is a mobile, trailer-configured platform that 
utilizes a HMMWV mock-up, small arms, crew-served weapons, 360-degree 
visual display with after-action review/instant replay capability. 
Marine Forces Reserve was the lead agency for initial procurement, 
training and evaluation of this revolutionary training system, which is 
now being used throughout the Marine Corps. We are now preparing to 
accept the fourth generation of this invaluable training system at Camp 
Wilson aboard the Marine Air Ground Combat Center in Twentynine Palms, 
CA. Upon installation, student throughput capability for combat convoy 
training will double.
    It is important to recognize the key role that Congress has played 
in the fielding of all four generations of the VCCT. Procurement of the 
VCCT resulted directly from NGREA. Of all the training packages our 
deploying units complete, returning combat veterans have consistently 
praised the invaluable benefits of having had the opportunity to train 
in tactics, techniques, and procedures using this advanced simulation 
system.
    Beginning this summer, Marine Forces Reserve will field the newly 
developed DVTE. This advanced, first-person, immersive, simulation-
based training system, made up of 16 laptops and peripherals packaged 
in ruggedized deployable cases, is capable of emulating and simulating 
a wide variety of weapons systems and generating hifidelity, relevant 
terrain databases. The DVTE also provides small-unit echelons with the 
opportunity to continuously review and rehearse Command and Control 
procedures and battlefield concepts in a virtual environment. The 
system consists of two components, the Combined Arms Network, which 
provides integrated first person combat skills, and Tactical Decision 
Simulations, which provides individual, fire team, squad and platoon-
level training associated with patrolling, ambushes and convoy 
operations. Additional features include combat engineer training, 
small-unit tactics training, tactical foreign language training and 
event-driven, ethics-based, decisionmaking training.
    One of our newest and rapidly advancing training initiatives 
involves the collocation of a select number of the previously cited 
training systems aboard Camp Upshur at Marine Corps Base Quantico, VA. 
Our intent is to provide an advanced, unit-level training capability 
within easy access of the I-95 corridor. When fully established this 
summer, the Camp Upshur training capabilities will include eight mobile 
VCCT trailers, two mobile HMMWV egress trainers, a mobile multi-
platform tactical vehicle operator simulation system, three Indoor 
Simulated Marksmanship Trainers that are networked for combined arms 
training, and 80 DVTE terminals. These resources, in combination with 
the billeting, training ranges and facilities available aboard MCB 
Quantico, will provide the opportunity for reinforced battalions to 
conduct training and force-on-force exercises using combinations of 
live, virtual, and constructive training systems and resources. This 
initiative provides state-of-the-art training support to units while 
revitalizing long-established Camp Upshur into a cost effective, vital 
and dynamic training resource for Marine Forces Reserve and other 
agencies. In addition to facilitating training at Camp Upshur, the 
numerous mobile training systems will remain available for movement and 
redeployment anywhere in the lower 48 States in support of training 
Reserve marines.
    All of these advanced training systems have been rapidly acquired 
and fielded with vital supplemental and NGREA funding. These critical 
funding resources are not only providing a near-term training 
capability in support of combat deployments, but are also providing a 
solid foundation for the transformation of our training environment 
from legacy static training methods to more realistic virtual combat 
training environments designed to prepare our marines and sailors to 
succeed on future battlefields.
                             v. facilities
    Marine Forces Reserve is comprised of 185 locations in 48 States, 
the District of Columbia, and Puerto Rico. These facilities are 
comprised of 32 owned and 153 tenant locations. In contrast to Active 
Duty installations that are normally closed to the general public, our 
Reserve sites are openly located within civilian communities. This 
arrangement requires close partnering with State and local entities 
nationwide. Thus, the condition and appearance of our facilities may 
directly influence the American people's perception of the Marine Corps 
and the Armed Forces as well as possibly impacting our recruiting and 
retention efforts.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the Military Construction 
Navy Reserve (MCNR) program and a strong FSRM program are essential to 
addressing the aging infrastructure of the Marine Corps Reserve. With 
more than 57 percent of our Reserve centers being more than 30 years 
old and 44 percent being more than 50 years old, the continued need for 
support of both MCNR and FSRM cannot be overstated.
    The Base Realignment and Closure (BRAC) 2005 continues to move 
forward and the Marine Corps Reserve will begin relocating many Reserve 
units to new consolidated Reserve centers during fiscal year 2009. Like 
other BRAC Business Plans, the Marine Corps Reserve BRAC program is 
tightly linked to other Service's business plans for our shared Reserve 
centers. Of the 25 BRAC actions for the Marine Corps Reserve, 21 are in 
conjunction with Army and Navy military construction projects.
    In September 2008, the Department of the Navy (DON) and the State 
of Louisiana signed a lease for a new Federal City in New Orleans, 
which will provide a new headquarters compound for Marine Forces 
Reserve. The State of Louisiana is providing construction dollars for 
the new headquarters facility and saving the Federal Government more 
than $130 million.
    Our Marine Forces Reserve Environmental Program promotes accepted 
stewardship principles as well as compliance with all regulatory 
requirements in support of training both on site and outside the fence 
line. We employ the Environmental Management System (EMS), which uses a 
systematic approach ensuring that environmental activities are well 
managed and continuously improving. Additionally, Marine Forces Reserve 
has initiated a nationwide program to reduce waste production and 
ensure proper disposal at our centers. We have also executed several 
major projects to protect the Nation's waterways near our Reserve 
centers.
                          vi. health services
    Military healthcare support (medical prevention and treatment) 
programs have grown exponentially over the past few years--fiscal year 
2008 being one of the most significant. A myriad of programs are now 
provided to our marines, sailors, and their families during 
predeployment, deployment, and post-deployment.
    Our Health Services priorities are: 1) maximize education and 
awareness of TRICARE support for reservists; 2) attain Department of 
Defense (DOD)/DON Individual Medical Readiness goals; and 3) ensure 
general awareness of all health service programs in support of our 
servicemembers.
    TRICARE remains the foundation of our medical support programs, 
providing the full spectrum of medical, dental and behavioral health 
services. As a result of the 2009 Defense Authorization Act analysis of 
TRICARE Reserve Select costs, monthly premiums for TRICARE Reserve 
Select dropped by 42 percent for individual coverage and by 29 percent 
for family coverage on Jan. 1, 2009. reservists now pay $47.51 a month 
for single coverage, down from $81, while the cost for families is down 
from $253 to $180.17 a month. reservists and their family members are 
eligible for different TRICARE benefits depending on their status: as a 
member of the Select Reserve, a reservist may qualify for and purchase 
TRICARE Reserve Select; on military duty for 30 days or less a 
reservist is covered under line-of-duty care; when activated he and his 
family are covered by TRICARE Prime; and when deactivated a reservist 
is eligible for transitional health plan options.
    All deploying servicemembers are now required to complete a 
Baseline Predeployment Neuro-Cognitive Functional Assessment. The tool 
used to complete this assessment is called the Automated Neuro-
Psychological Assessment Metric (ANAM). Results from the ANAM will 
assist leaders and medical providers with evaluating servicemembers who 
screen positive and require necessary medical treatment. The intent is 
that ANAM results and implementation of the Psychological Health 
Outreach Program will provide standardized guidance for providers who 
follow up on identified issues and concerns from results of the Post-
Deployment Health Assessments, to include development of protocols and 
creation and implementation of an information/benefits tracking system. 
Our commanders and staff are coordinating with the Navy's Bureau of 
Medicine (BUMED) in order to ensure that deploying marines and sailors 
are properly evaluated prior to deployment.
    Efforts to assess health post-deployment have also increased 
significantly over the past year. In addition to completing a Post-
Deployment Health Assessment prior to returning to the United States, 
our marines and sailors now complete a Post-Deployment Health 
Reassessment (PDHRA) 3 to 6 months after returning from deployment. The 
PDHRA is crucial in identifying and addressing health concerns with 
specific emphasis on mental health issues which may have emerged since 
returning from deployment. Active tracking of this process ensures that 
we meet the post-deployment health care needs of our marines and 
sailors.
    The Psychological Health Outreach Program, introduced by BUMED, is 
another specialty program which addresses post deployment behavioral 
health concerns. This program is designed to provide early 
identification and clinical assessment of our Reserve marines and 
sailors who return from deployment at risk for not having stress-
related injuries identified and treated in an expeditious manner. This 
program, funded by supplemental Defense Health Program appropriations, 
provides outreach and educational activities to improve the overall 
psychological health of our reservists and identifies long-term 
strategies to improve psychological health support services for the 
Reserve community. We are currently developing our concept and 
implementation strategy to best support the Force.
    Individual medical and dental readiness for our marines and sailors 
remains a top priority. To improve current readiness of our reservists, 
which is 64 percent and 73 percent as of March 1, 2009 respectively, we 
continue to utilize the Reserve Health Readiness Program. This program 
funds medical and dental contracted specialists to provide health care 
services to units specifically to increase individual medical and 
dental readiness. During fiscal year 2008, this service provided more 
than 3,020 Preventive Health Assessments; 4,013 Dental examinations, 
402 Dental Panoramic x-rays; 529 blood draws; 803 immunizations; and 
3,149 PDHRAs for our marines and sailors.
    The Armed Forces Health Longitudinal Technology Application, which 
provides electronic health records for the entire U.S. Armed Forces, is 
currently being rolled out to all Reserve components to include Marine 
Forces Reserve. The transition to electronic medical records will 
enable optimal health services to our marines and sailors with the end 
result being increased individual and unit medical readiness.
                          vii. quality of life
    We continue to aggressively institute new Family Readiness 
Programs, revitalize services, and proactively reach out to our 
reservists and their families to ensure our programs and services meet 
the needs and expectations of our marines and their families.
    As part of widespread Marine Corps reforms to enhance family 
support, we are placing full-time Family Readiness Officers (FROs), 
staffed by either civilians or Active Duty marines, at the battalion/
squadron level and above to support the commander's family readiness 
mission. Modern communication technologies, procedures and processes 
are being expanded to better inform and empower family members 
including spouses, children, and parents of single marines.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to servicemembers, families, retirees, 
and civilian employees. More than 1,200 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $2.4 million that funded more than 4,000 courses 
during fiscal year 2008. Tuition Assistance greatly eases the financial 
burden of education for our servicemembers while enabling them to 
maintain progress toward their education goals.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for servicemembers and their families in selecting child care, before, 
during, and after a deployment in support of overseas contingency 
operations. The Boys and Girls Clubs of America provide outstanding 
programs for our Reserve Marines' children between the ages of 6 and 18 
after school and on the weekends. Under our agreement with BGCA, 
Reserve families can participate in more than 40 programs at no cost. 
With NACCRRA, we help families of our reservists locate affordable 
child care that is comparable to high-quality, on-base, military-
operated programs. The NACCRRA provides child care subsidies at quality 
child care providers for our reservists who are deployed in support of 
overseas contingency operations and for those Active Duty marines who 
are stationed in regions that are geographically separated from 
military installations. We also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services for family 
members of our reservists who reside in isolated and geographically-
separated areas. Additionally, our Marine families (on active duty 30 
or more days) enrolled in the Exceptional Family Member Program are 
offered up to 40 hours of free respite care per month for each 
exceptional family member. This allows our families the comfort that 
their family member will be taken care of when they are in need of 
assistance.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle 
(predeployment, deployment, post-deployment, and follow-on) by 
providing educational opportunities at unit family days, predeployment 
briefs, return and reunion briefs, and post-deployment briefs. This is 
accomplished through unit level Family Readiness programs that are the 
responsibility of the commanding officer managed by the full-time, 
nondeploying FRO and supported by trained volunteers and force level 
programs such as Lifestyle Insights, Networking, Knowledge, and Skills 
(L.I.N.K.S.).
    Every Marine Corps Reserve unit throughout the country has a Family 
Readiness program that serves as the link between the command and 
family members--providing official communication, information, and 
referrals. The FRO proactively educates families on the military 
lifestyle and benefits, provides answers for individual questions and 
areas of concerns, and enhances the sense of community and camaraderie 
within the unit. The L.I.N.K.S. program is a training and mentoring 
program designed by marine spouses to help new spouses thrive in the 
military lifestyle and adapt to challenges--including those brought 
about by deployments. This program has recently been expanded to 
support the extended family of a marine--children and parents. Online 
and CD-ROM versions of L.I.N.K.S make this valuable tool more readily 
accessible to families of Reserve marines who are not located near 
Marine Corps installations.
    To better prepare our marines and their families for activation, 
Marine Forces Reserve is fully engaged with the Office of the Secretary 
of Defense (OSD) to implement the Yellow Ribbon Reintegration Program, 
much of which we have had in place for quite some time. We continue to 
implement an interactive approach that provides numerous resources and 
services throughout the deployment cycle. Available resources include, 
but are not limited to, family-related publications, online volunteer 
training opportunities, and a family readiness/mobilization support 
toll free number. Family readiness educational materials have been 
updated to reflect the current deployment environment. Specifically, 
deployment guide templates that are easily adapted to be unit--specific 
were distributed to unit commanders and family readiness personnel, as 
well as Marine Corps families, and are currently available on our Web 
site. Services such as pastoral care, Military OneSource, and various 
mental health services are readily available to our Reserve marines' 
families. Also, through the DOD contract with the Armed Services YMCA, 
the families of our deployed Reserve marines are enjoying complimentary 
fitness memberships at participating YMCA's throughout the United 
States and Puerto Rico. Our Active Duty marines and their families 
located at Independent Duty Stations have the ability to access these 
services as well.
    Managed Health Network is an OSD-contracted support resource that 
provides surge augmentation counselors for our base counseling centers 
and primary support at sites around the country to address catastrophic 
requirements. This unique program is designed to bring counselors on-
site at Reserve Training Centers to support all phases of the 
deployment cycle. Marine Forces Reserve has incorporated this resource 
into post-demobilization drill periods, family days, predeployment 
briefs, and return & reunion briefs. Follow-up services are scheduled 
after marines return from combat at various intervals to facilitate on-
site individual and group counseling. Additionally, we are utilizing 
these counselors to conduct post-demobilization telephonic contact with 
IRR marines in order to assess their needs and connect them to 
services.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs at our Reserve sites provides families 
of activated and deployed marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System. During their homecoming, 
our marines who have deployed consistently cite the positive importance 
of family support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. The current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
corresponds to current requirements. We are particularly supportive of 
Military OneSource, which provides our reservists and their families 
with an around-the-clock information and referral service via toll-free 
telephone and Internet access on a variety of subjects such as 
parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    Marines and their families, who sacrifice so much for our Nation's 
defense, should not be asked to sacrifice quality of life. We will 
continue to be a forceful advocate for these programs and services. We 
will continue to evolve and adapt to the changing needs and 
environments in order to ensure that quality support programs and 
services are provided to our marines and their families.
         viii. casualty assistance and military funeral honors
    One of the most significant responsibilities of the Reserve site 
support staff is that of casualty assistance. It is at the darkest hour 
for our marine families that our support is most needed. By virtue of 
our dispersed composition, Marine Forces Reserve site support staffs 
are uniquely positioned to accomplish the vast majority of all Marine 
Corps casualty notifications and are trained to provide assistance to 
the family. Historically, Marine Forces Reserve personnel have been 
involved in approximately 90 percent of all notifications and follow-on 
assistance to the next of kin. There is no duty to our families that we 
treat with more importance, and the responsibilities of our casualty 
assistance officers continue well beyond notification. We ensure that 
our casualty assistance officers are adequately trained, equipped, and 
supported by all levels of command. Once a casualty assistance officer 
is designated, he or she assists the family members in every possible 
way, from planning the return and final rest of their marine to 
counseling them on benefits and entitlements to providing a strong 
shoulder to lean on when needed. The casualty assistance officer is the 
family's central point of contact and support; available to serve as a 
representative or liaison with the media, funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units provide significant 
support for military funeral honors for our veterans. The active duty 
site support staff members, with augmentation from their Reserve 
marines, performed more than 12,000 military funeral honors in 2008 (91 
percent of the Marine Corps total) and we anticipate supporting nearly 
13,000 during 2009. The authorization and funding to bring Reserve 
marines on active duty to assist in the performance of military funeral 
honors has greatly assisted us at sites such as Bridgeton, MO; Chicago, 
IL; and Fort Devens, MA; where we frequently perform more than 10 
funerals each week. As with casualty assistance, we place enormous 
emphasis on providing military funeral honor support.
                             ix. conclusion
    The Marine Corps Reserve--your Operational Reserve--continues to 
shoulder the war fighting burden with our Active component 
counterparts. OEF/OIF, as well as support to Combatant Commanders' 
Theater Support Cooperation Exercises, have required continuous 
activations of Selected Marine Corps Reserve Forces. We will continue 
to focus upon the future challenges to the Total Force and 
corresponding requirements of modernization, training, and personnel 
readiness to ensure that the Marine Corps Reserve remains on equal 
footing with our Active component. Your consistent and steadfast 
support of our marines, sailors, and their families directly 
contributes to our ability to do so. Semper Fidelis!

    Senator Ben Nelson. Thank you, General.
    General Stenner.

STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF, AIR 
    FORCE RESERVE; AND COMMANDER, AIR FORCE RESERVE COMMAND

    General Stenner. Chairman Nelson, Senators: I truly 
appreciate being here today as the Chief of the Air Force 
Reserve. I'm also honored to have with me Chief Master Sergeant 
Troy McIntosh, who is my Command Chief Master Sergeant and the 
highest ranking enlisted member of our Major Command. He takes 
great pride in doing the job that he's doing in helping me take 
care of that enlisted force, which truly is that backbone of 
our Air Force and our Air Force Reserve. So, Troy, thank you 
very much for what you've done, and thank you all here for what 
you have done as well for our Air Force and our Air Force 
Reserve.
    I say that as a proud member of a three-component Air 
Force. The Air Force Reserve is a part of how we do business on 
a daily basis. We are funded, and we appreciate that, to a 
tier-one level so that our forces are prepared and ready to go 
on 72-hours notice, and we are interchangeable and deploy as 
such with all of our ANG partners and our Active Duty partners 
as well.
    That, in my mind, is the most efficient way to do business, 
and continuing to do business that way with the Reserve as a 
Strategic Reserve that we leverage as an Operational Force 
makes great sense for the Nation. The 14 percent of the 
manpower that we have as an Air Force Reserve for about 5 
percent of the budget, again, remains a very effective and 
efficient way to deliver that capability to the warfighter and 
to the combatant commander.
    That reservist that we're talking about is, in fact, the 
most precious commodity we have. The reservist, in fact, is an 
individual who has a civilian job, who also has that employer 
to be concerned with. Reservists are just as much a part of 
delivering that capability we are using around the world with 
their support for our citizen-airmen that are out there doing 
the job in a military fashion, as well as making sure that the 
families are taken care of along the way.
    So that Reserve triad is very precious, I know not only to 
the Air Force Reserve or the Guard, but all of our components 
sitting right here at this table.
    Finally, we have brand new mission areas that we're out 
there growing, and on behalf of the 67,400 Air Force 
reservists, we are growing to deliver that capability in 
unmanned aerial systems, intelligence, surveillance, 
reconnaissance, the cyber space arena that we are all growing 
into, that will be not only the force of today, but the force 
of tomorrow.
    So I'm a proud Commander and Chief of Air Force Reserve and 
look forward to your questions.
    [The prepared statement of General Stenner follows:]
      Prepared Statement by Lt. Gen. Charles E. Stenner, Jr., USAF
    Mr. Chairman and distinguished members of the subcommittee, I 
appreciate the opportunity to appear before you today and discuss the 
state of the Air Force Reserve.
    The Air Force Reserve is a powerful manifestation of the finest 
American qualities; pursuit of happiness and dedication to nation. It 
is an organization of ordinary working people, wedded to the fabric of 
our great Nation through their individual pursuits. Reserve airmen are 
linguists, utility technicians, police, railway engineers, 
entomologists, school teachers, salespeople, analysts, aviators, and 
nurses, to name just a few. All are dedicated to the greater purpose of 
serving our Nation; all are essential.
    The Air Force Reserve provides these dedicated individuals the 
opportunity to be a citizen and an airman. Like the Reserve components 
from our sister Services, we perform the essential task of bringing 
citizens to service. In doing so we gain from them their civilian 
skills, capabilities, and experience; alternative approaches to solving 
problems; and expertise and judgment. Civilian employers benefit from 
Air Force reservists who are instilled with the enduring values of the 
Air Force--integrity, service before self, and excellence in all we do.
    Secretary of Defense Robert Gates recently remarked that if we are 
to meet the myriad of challenges facing our Nation, we must strengthen 
and fully integrate other important elements of national power; that 
military success is not sufficient to win in conflict; that we must 
urgently devote time, energy and thought to how we better organize 
ourselves to meet these challenges.
    The Air Force is already recognizing the benefits of using all of 
its resources from the Reserve, Guard, and regular components as it 
increasingly relies on reservists to support operational missions 
throughout the world. Moreover, the Air Force is encouraging the 
Reserve and Guard to integrate more fully with the Regular Air Force in 
a whole host of missions, adding tremendous value to the forces the Air 
Force provides to the joint warfighter.
    As the Nation looks for ways to strengthen its organizations and 
integrate all of the untapped resources it will need in facing the 
challenges of the 21st century, we submit that a model by which 
ordinary people, dedicated to serving their country in a way that meets 
both their needs and the needs of the Nation, is already manifest in 
the U.S. Air Force everyday--in the extraordinary Americans of the Air 
Force Reserve.
    I'm proud to serve along side these great airmen and as chief and 
commander of the Air Force Reserve, I have made a promise to them that 
I will advocate on their behalf for resources and legislation that will 
allow them to serve more flexibly in peace and war with minimum impact 
to their civilian career and employer. I will work to eliminate 
barriers of service, so that they can more easily serve in the status 
that meets their needs and those of the Air Force. I will work to 
efficiently and effectively manage our Air Force Reserve to meet the 
requirements of the joint warfighter and the Nation.
                        recruiting and retention
    Over the last 8 years, the Air Force Reserve has exceeded its 
recruiting goals. Our success in great part has been due to the 
accessions of experienced regular Air Force members upon completion of 
their active duty commitments. Indeed, recruiting highly trained 
individuals is essential to lowering training costs for the Air Force 
Reserve. For the past couple of years we have been able to recruit 
experienced airmen from the regular Air Force as a result of force 
structure changes and program budget decisions.
    We no longer have the luxury of large numbers of experienced airmen 
leaving regular Service. As both the regular Air Force and the Air 
Force Reserve once again build end strength, we expect we will face 
some recruiting challenges in the near future: not only will the Air 
Force Reserve have access to fewer prior servicemembers, but we will be 
competing with all other Services for non-prior recruits.
    We are also facing challenges with retention. The Air Force Reserve 
continued to execute force structure changes in fiscal year 2008, to 
include Base Realignment and Closure and Total Force Initiatives, which 
prompted a reduction of over 7,000 positions. As a result, we again 
missed our historical officer and enlisted retention targets but met 
end strength requirements. Second Term reenlistments and extensions 
fell slightly for the third straight year--we also attribute this to 
the large population of airmen affected by the Air Force drawdown over 
the past few years. There is, however, a bright spot: in fiscal year 
2008, for the first time in 3 years, we saw a dramatic upswing in 
reenlistments/extensions for first-termers and a modest gain for career 
airmen.
    Nevertheless, our forecast models indicate that we will continue to 
face challenges. Accordingly, as outlined in our Air Force Reserve 
priorities discussed below in greater detail, we are striving to 
improve Reserve airmen awareness of benefits, incentives, and policies 
affecting deployments; we are emphasizing the importance of the 
Employer Support of the Guard and Reserve (ESGR) program and the Yellow 
Ribbon Reintegration Program (YRRP); and we are striving to better 
understand this very complicated dynamic by surveying the attitudes and 
beliefs of our airmen on the array of policies, benefits, and 
incentives that affect them to determine what appropriate adjustments 
can be made to improve our retention outlook. The Department of Defense 
(DOD) and the Air Force have improved our ability to make deployments 
more predictable. As I discuss below, I believe we need to take a hard 
look at the number of airmen held in Reserve.
    I am confident that as we act on not only our Air Force Reserve 
priorities, but those of the Air Force and the DOD, and with the 
continued support of this committee and Congress, we will be able to 
continue to meet the needs of combatant commanders and the Nation with 
a viable operational and strategic Air Force Reserve.
 preserving, leveraging, and improving air force reserve value and our 
                               priorities
    The Air Force Reserve is a repository of experience and expertise 
for the Air Force. Air Force Reserve airmen are among the most 
experienced airmen in the Air Force. Air Force Reserve officers average 
roughly 15 years of experience, and enlisted members average 14 years 
of experience, compared to 11 years and 9 years for regular Air Force 
officers and enlisted respectively. In fact, roughly 64 percent of Air 
Force Reserve airmen have prior military experience.
    Airmen of the Selected Reserve remain mission-ready, training to 
the same standards, and maintaining the same currencies as those in the 
regular Air Force, and are capable of deploying within 72 hours of 
notification. These airmen provide the insurance policy the Air Force 
and the nation need: a surge capability in times of national crises.
    Reserve airmen are a cost-effective force provider, comprising 
nearly 14 percent of the total Air Force authorized end strength at 
only 5.3 percent of the military personnel budget. Put differently, Air 
Force Reserve airmen cost per capita is 27.7 percent of that of Regular 
Air Force airmen, or roughly 3.5 Reserve airman to 1 regular airman.\1\
---------------------------------------------------------------------------
    \1\ Fiscal year 2008 budget, figures derived from Automated Budget 
Interactive Data Environment System, the budget system currently in use 
by the Air Force and recognized as the official Air Force position with 
respect to the Planning, Programming, and Budget Execution system. 
Inflation data used for any constant dollar calculations were based on 
average Consumer Price Index for All Urban Consumers rates for the past 
10 years: roughly 2.6 percent average annual rate of inflation. 
Medicare Eligible Retirement Health Care (MERHC) is an accrual account 
used to pay for health care of Medicare-eligible retirees (age 65 and 
beyond). Cost per capita figures were derived dividing cost of Selected 
Reserve program by Selected Reserve end strength. When MERHC figures 
are included, the cost of Air Force Reserve airmen to regular Air Force 
airmen increases to 30.4 percent.
---------------------------------------------------------------------------
    The Air Force leverages the inherent value of the Air Force Reserve 
in furtherance of its priorities, which are to: reinvigorate the Air 
Force nuclear enterprise; partner with the joint and coalition team to 
win today's fight; develop and care for airmen and their families; 
modernize our air and space inventories, organizations, and training; 
and recapture acquisition excellence.
    Preserving, utilizing, and improving this value in pursuit of Air 
Force priorities underlie each of our Air Force Reserve priorities. We 
must provide an operational, combat ready force while maintaining a 
Strategic Reserve. We must preserve the viability of the triad of the 
relationships reservists must sustain with their families, the Air 
Force Reserve and their employers. We must broaden Total Force 
Initiatives. We must modernize our equipment and facilities. Each of 
these priorities is vital to preserving our value and sustaining our 
forces as we meet the needs of the Nation.
 operational, combat ready force while maintaining a strategic reserve
    The Air Force Reserve is first and foremost a Strategic Reserve, 
providing the Air Force with a surge capacity in times of national 
crisis. Over time, the Reserve has become a mission-ready reserve force 
capable of serving operationally throughout the world. Since Operation 
Desert Storm, Air Force Reserve airmen have been continuously engaged 
around the world supporting ongoing contingencies, serving side by side 
with the joint team.\2\
---------------------------------------------------------------------------
    \2\ Airmen of the Selected Reserve are mission-ready, capable of 
performing ongoing operations. Collectively, they have met the 
operational needs of the Air Force for decades--largely through 
volunteerism, but also through full-time mobilization. For example, 
Reserve and Guard airmen have continuously supported Operation Coronet 
Oak in Southern Command year-round, 24/7, since 1977. Between 1991 and 
2003, reservists supported the no-fly areas of Operations Northern and 
Southern Watch. Since the attacks on 11 Sept 2001, 54,000 reservists 
have been mobilized to participate in Operation Enduring Freedom, 
Operation Noble Eagle, and Operation Iraqi Freedom--6,000 remain on 
active duty status today. It is a fact that the Air Force, more than 
any other time, now relies on members of the Reserve and Guard to meet 
its operational requirements around the globe.
    Our Reserve community continues to answer our Nation's call to duty 
with large numbers of volunteer reservists providing essential support 
to combatant commanders. Forty-six percent of the Air Force's strategic 
airlift mission and 23 percent of its tanker mission capability are 
provided by Reserve airmen. We currently have over 450 C-17, C-5, KC-
135, and KC-10 personnel on active duty orders supporting the air 
refueling and airlift requirements.
    In Operations Enduring and Iraqi Freedom, Reserve C-130 crews flew 
over 6,000 hours in 2008; Reserve F-16 and A-10 crews flew over 3,700 
hours. The Air Force Reserve provides 24 crews and 12 fighter aircraft 
to U.S. Central Command (CENTCOM) in their regularly scheduled 
rotations for the close air support mission.
    The Air Force Reserve maintains 60 percent of the Air Force's total 
Aeromedical Evacuation (AE) capability. Reserve AE crews and operations 
teams provide a critical lifeline home for our injured warfighters. Our 
highly trained AE personnel fill 39 percent of each AEF rotation and 
fulfill 12 Tanker Airlift Control Center tasked AE channel missions 
each quarter--all on a volunteer basis. On the home front in 2008, the 
Air Force Reserve provided 21 of 24 AE crews, 88 percent of the mission 
requirement, for the response to Hurricane's Ike and Gustav. 
Additionally, the Reserve provided four standby crews, 100 percent of 
the mission requirement, in support the Democratic and Republican 
National Conventions.
    In 2008, the men and women of our Combat Search and Rescue forces 
have been heavily engaged in life saving operations at home and abroad. 
Since February, airmen of the 920th Rescue Wing at Patrick Air Force 
Base, FL, and their sister units in Arizona and Oregon, flew over 745 
hours and saved more than 300 U.S. troops on HH-60 helicopter missions 
in support of U.S. Army medical evacuation operations in Iraq and 
Afghanistan. While mobilized for 14 months in support of combat 
missions abroad, the 920th continued to provide humanitarian relief in 
response to natural disasters at home, as well as provide search and 
rescue support for National Aeronautics and Space Administration 
shuttle and rocket launches.
    The Reserve made use of its organic Intelligence, Surveillance, and 
Reconnaissance (ISR) and firefighting capabilities to protect the lives 
and property of our citizens threatened by an especially severe fire 
season. Defense Support to Civilian Authorities engagement started with 
planning and directing exploitation and analysis of the first Global 
Hawk imagery to support Incident Analysis & Assessments. In fact, the 
first Distributed Ground System Mission Commander was an Air Force 
Reserve Officer that directed analysis of the areas devastated and 
movement of the fire lines. Aircrews in the 302nd Air Expeditionary 
Group (AEG) flew more than 980 airdrops and delivered in excess of 1.3 
million gallons of fire retardant to help firefighters on the ground 
and mitigate further damage and destruction. The AEG is a Joint unit 
made up of eight C-130 Hercules aircraft equipped with the Air Force 
Modular Airborne Firefighting System, six Marine Corps helicopters, and 
two Navy Reserve helicopters. Two of the C-130s belong to the Air Force 
Reserve's 302nd Airlift Wing at Peterson Air Force Base, CO. Reserve 
and Guard personnel helped fight the more than 2,000 fires that ravaged 
the California wilderness this past summer.
    The Air Force Reserve provides 100 percent of the airborne weather 
(hurricane hunting) capability for the DOD. This past hurricane season 
tied as the fourth most active with 16 named storms and 5 major 
hurricanes. Throughout the year, Air Force Reserve ``Hurricane 
Hunters,'' C-130J aircraft flown by citizen airmen of the 403rd Wing at 
Keesler Air Force Base, MS, flew over 1,000 hours, collecting 
lifesaving data that was sent directly to the National Hurricane Center 
in Miami, FL, contributing to better forecasts and landfall 
predictions. Following the end of the hurricane season in the 
Caribbean, the 403rd deployed two aircraft and four crews to the 
Pacific region to continue its support of storm research.
    In addition to our hurricane mission, the Air Force Reserve 
provides 100 percent of the aerial spray mission in support of the 
Federal Emergency Management Agency, the Centers for Disease Control, 
and State public health officials. Air Force Reserve aircrews and C-
130s from the 910th Airlift Wing, Youngstown Air Reserve Station, OH, 
sprayed more than 1 million storm ravaged acres of land with pesticides 
to control the spread of disease.
    Our ISR professionals are providing critical information as they 
answer the Nation's call to service. In 2008, 192 intelligence 
personnel deployed in support of worldwide contingency missions to 
include Afghanistan and Iraq. For the foreseeable future, Reserve 
intelligence professionals will continue to be deployed throughout the 
combatant command theaters, engaged in operations ranging from 
intelligence support to fighter, airlift, and tanker missions to ISR 
operations in Combined Air Operations Centers and Combined/Joint Task 
Forces.
    These are but a few examples of the dedication and contributions 
our Air Force Reserve airmen have made and will continue to make around 
the clock, around the world, each and every day.
---------------------------------------------------------------------------
    Using reservists in operational missions makes sense: it leverages 
the experience and comparatively lower costs of a predominantly part-
time force. Moreover, it improves relationships between regular Air 
Force and Air Force Reserve members--it gives airmen of each component 
an opportunity to demonstrate their capability and relevancy to each 
other, as well as sister Services and coalition forces; it provides 
airmen of each component the opportunity to lead each other. Equally 
important, operational duty provides Reserve airmen the benefit of 
operating as a member of the joint team in diverse environments. 
Operational taskings also improve unit morale and enhance unit pride--
important factors in achieving and sustaining high performance.
    Yet, for all of our operational capability and contributions, we 
must not lose sight that we--along with our Air National Guard brothers 
and sisters--are also a Strategic Reserve that must be available to 
surge in times of national emergency. For us to serve as both an 
Operational and Strategic Reserve, it is critical that we find the 
right balance between the two. Too few Reserve airmen means a higher 
operational tempo for all airmen--regular or Reserve; it means less 
capacity to surge in times of national emergency; it means exhausting 
our people and jeopardizing the cornerstone of Air Force Reserve 
Service.
    We are now 18 years in continuous combat operations, and in our 8th 
year of Operation Enduring Freedom; soon to be in our 6th year of 
Operation Iraqi Freedom. By any measure, our airmen are performing 
admirably. But, our retention rates are dropping, our experience levels 
are dropping, indeed the Air Force is ``going deep'' into the Inactive 
Ready Reserve and Retired Reserve with its Limited Pilot Recall 
Program. Are these anomalies that can each be explained; or are they 
the signposts of a more serious problem? My concern and challenge, 
indeed our collective challenge, is to ensure we are able to refocus, 
reconstitute and recapitalize while remaining engaged in the full 
spectrum of operations--in a word, our efforts must be ``sustainable'' 
over the long run.
    Volunteerism is vital to the overall capability of not just the Air 
Force Reserve, but the entire Air Force--today we meet roughly 80 
percent of our taskings through volunteerism. Without it, I do not 
believe we can sustain this level of commitment indefinitely. From this 
essential fact flow all of my other priorities.
   preserving the viability of the reserve triad--(family, air force 
                         reserve, and employer)
    Air Force Reserve airmen must strike a balance between their 
commitments to the Air Force, their families and their civilian 
employers, i.e. their main source of income. We must be ever mindful of 
these commitments and the balancing act our reservists undertake to 
sustain these relationships. We must strive to preserve these 
relationships through open communication with each of these essential 
partners. We must strive to provide predictability in deployments, and 
parity with benefits. Doing so is critically important in ensuring we 
provide ready and capable Reserve airmen to the Nation.
    This past year, the Air Force Reserve has endeavored to improve 
communication with reservists by rolling out awareness campaigns 
concerning the differences in benefits Congress has provided over the 
past few years, and how these accrue for those who voluntarily deploy 
and those who are mobilized. We have also put a spotlight on other 
important benefits such as reduced eligibility age for retirement pay, 
improved availability of health benefits, and lower premiums for 
TRICARE Reserve Select. We have begun surveying focus groups within the 
Air Force Reserve to better understand the needs of our reservists and 
whether we are meeting these needs. I personally send emails to all of 
our Selected Reserve members to highlight important issues concerning 
their service. In the coming months, as we learn more, we will be 
rolling out an awareness campaign on the post-September 11 GI Bill and 
how it works vis-a-vis other education benefits.
    We have worked with the Small Business Association to provide 
reservists and employers awareness of improved access to increased, 
uncollateralized, low interest loans that Congress authorized last 
year. We have made it a point to educate our airmen about the 
importance of the ESGR program, and we have asked that they nominate 
their employers for ESGR recognition and take time to accurately fill 
out employer data in the DOD employer database. I am pleased to report 
that we have increased our nominations by 149 percent this past year.
    We are moving ahead with implementation of the Air Force YRRP to 
support Reserve members and their families throughout the entire 
deployment cycle. Prior to the enactment of this program, Air Force 
Reserve Wings dedicated time and a notable level of effort to support 
their deploying airmen and families, as evidenced by the number of 
deployment support and reintegration activities in the past. In 2008, 
the Air Force Reserve hosted 58 YRRP events that served over 1,250 
airmen and 500 family members.
    In addition, the Air Force Reserve Command has formed a Yellow 
Ribbon Reintegration Office. This multi-functional team has begun 
identifying challenges, assessing strategic, operational and fiscal 
gaps, and evaluating effective and implementable options. We're working 
towards full implementation of DOD directives.
    In the future, the Air Force Reserve will publish an overarching 
YRRP strategy that optimizes benefits to servicemembers and their 
families. A key component of this strategy will be to support and unify 
the current independent efforts, and identify the successes of those 
efforts.
    As a Total Force, we continue to work through Continuum of Service 
challenges to better enable varying degrees of service commitment that 
members can provide as their life circumstances change throughout their 
career. The Air Force and the Air Reserve components are taking a 
coordinated approach to identifying the issues that make Reserve 
component members disinclined to frequently volunteer for active duty 
tours. We're identifying barriers and options for reducing or removing 
impediments to service. These impediments range from financial, 
cultural, technological to policy, and legislative. Through this 
program, the Services have thus far identified dozens of impediments, 
three of which were mitigated by improving policies concerning enlisted 
promotion, chaplain service age waiver, and security clearances. 
Although still in its formative stage, the Air Force--developed CoS 
Tracking Tools is gaining wider DOD acceptance and we hpe will continue 
to gain momentum as all Services look to act on this important reform 
initiative.
    Thanks to the help of this committee, the National Defense 
Authorization Act for Fiscal Year 2008 included legislation to 
authorize reimbursement of travel expenses not to exceed $300 for 
certain Selected Reserve members who travel outside the normal 
commuting distance because they are assigned to a unit with a critical 
manpower shortage, or assigned to a unit or position that is 
disestablished or relocated as a result of defense base closure, 
realignment or another force structure reallocation. Because of this 
authorization, the Air Force Reserve has been able to retain trained 
and qualified personnel, rather than having to recruit and train new 
personnel.
                    broaden total force initiatives
    The Air Force leverages the value of its Reserve components through 
association constructs. The basic model is an associate wing in which a 
unit of one component has primary responsibility for operating and 
maintaining equipment (such as aircraft), while a unit of another 
component (Air Force Reserve, Air National Guard, or Regular Air Force) 
also operates and maintains that equipment.\3\ This arrangement 
effectively places more people against a piece of equipment, thereby 
gaining more utility from each piece of equipment, and the ability to 
surge as needed, and pull back when not.
---------------------------------------------------------------------------
    \3\ The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Association,'' ``Active Association,'' and ``Air Reserve 
Component Association.''
    Under the ``Classic'' model, so-called because it is the first to 
be used, a Regular Air Force unit is the host unit and retains primary 
responsibility for the weapon system, and a Reserve or Guard unit is 
the tenant. This model has flourished in the Military Airlift and Air 
Mobility Commands for over 40 years. We are now beginning to use it in 
the Combat Air Forces: our first fighter aircraft ``Classic'' 
association at Hill Air Force Base, Utah, attained Initial Operational 
Capability in June 2008. This association combined the regular Air 
Force's 388th Fighter Wing, the Air Force's largest F-16 fleet, with 
the Air Force Reserve's 419th Fighter Wing, becoming the benchmark and 
lens through which the Air Force will look at every new mission. The 
477th Fighter Group, an F-22 unit in Elmendorf, AK, continues to mature 
as the first F-22A associate unit. This unit also achieved Initial 
Operating Capability in 2008 and will eventually grow into a two-
squadron association with the Regular Air Force.
    The Air Force Reserve also established its first Intelligence 
Squadron Association with the 50th Intelligence Squadron at Beale Air 
Force Base, CA. This unit of Reserve and regular airmen delivers real-
time, tailored intelligence to combat forces engaged in missions in 
Iraq and Afghanistan, with data derived from theater Predator/Reapers, 
Global Hawks and U-2s, in partnership with the Total Force team. The 
Air Force is considering additional associate intelligence units for 
Beale and Langley Air Force Bases. These new capabilities create a 
Strategic Reserve Force ready to respond to the call of our Nation, 
capable of being leveraged as operational crews ready and willing to 
support the regular Air Force in everyday missions around the world. 
This model has proven itself and is the basis for the growth of 
associations over the last 5 years.
    Under the ``Active'' model, the Air Force Reserve or Guard unit is 
host and has primary responsibility for the weapon system while the 
regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with three C-9Cs and three C-40s. Additionally, the 
Air Force Reserve will take delivery of an additional C-40 in fiscal 
year 2011, appropriated in the fiscal year 2009 Consolidated Security, 
Disaster Assistance and Continuing Appropriations Act. This additional 
C-40 will help to replace the three C-9Cs, which are costly to maintain 
and fly. To better utilize the current fleet of C-40s at the 932nd, the 
Air Force created an Active Association. We also are benefitting from 
our first C-130 Active Association with the 440th AW at Pope AFB.
    Under the ``Air Reserve Component'' model, now resident at Niagara 
Falls Air Reserve Station in New York, the Air Force Reserve has 
primary responsibility for the equipment while the Guard shares in the 
operation of the equipment and works side by side with the Reserve to 
maintain the equipment. The Air National Guard has transitioned from 
the KC-135 air refueling tanker to the C-130, associating with the 
914th Reserve Airlift Wing. The 914th added 4 additional C-130s, 
resulting in 12 C-130s at Niagara Air Reserve Station. This Air Reserve 
Component Association model provides a strategic and operational force 
for the Regular Air Force while capitalizing on the strengths of the 
Air National Guard and Air Force Reserve. Additionally, in this case it 
provides the State of New York with the needed capability to respond to 
State emergencies.
    The Air Force Reserve has 9 host units and is the tenant at 53 
locations. There are currently more than 100 integration initiatives 
being undertaken by the Air Force and Air Reserve components.
---------------------------------------------------------------------------
    Beyond fiscal efficiencies, however, associations use the inherent 
values that each component brings to the mix. For example, less 
experienced airmen from regular Air Force can be more favorably 
balanced against higher experienced Reserve component airmen. Moreover, 
these constructs can foster mutual respect among components, and can 
lead to a cross flow of ideas. Regular Air Force airmen can bring a 
wider perspective of Air Force operations to an associate unit based on 
their ability to change assignments on a regular basis. For their part, 
Reserve airmen lend stability and continuity to the organization and 
the mission. The ultimate goal is to provide the Air Force and COCOMs 
the best possible capabilities with fewer physical resources by 
leveraging the combined resources of the regular Air Force, Air 
National Guard, and Air Force Reserve.
    The Air Force has been using associations modestly, with varying 
degrees of success, since 1968, primarily in the air mobility missions. 
However, during the last 5 years we have aggressively pursued 
fundamental change to maintain our warfighting capabilities. Our 
central strategy is to use integration/association initiatives to 
leverage the strengths of all three components to make one strong Air 
Force in many mission areas. Failing to consider the Air Force 
holistically risks unbalancing the contributions of each component, 
which are central to the success of the efficient and effective 
delivery of combat capability to the warfighter.
    Associations also present new challenges in the way we develop 
plans to meet the needs of combatant commanders. It used to be, and in 
some cases still is, that our mobilization plans were developed for a 
unit and its equipment to deploy together in support of a given 
operations plan. Associations now must be worked into those plans. We 
have made progress in developing war mobilization plans that deploy 
equipment separately from the units that deploy. But we will 
undoubtedly encounter difficulties in the execution of these plans. We 
still will have to find the sweet spot in the regular Air Force/Air 
Reserve component manpower mix when allocating our people against 
various missions within the Air and Space Expeditionary Force 
construct. We will have to determine how long and how best to access 
Air Reserve component personnel--i.e., mobilize or volunteer--to meet 
that mix so that we can give combatant commanders the most effective 
force. We should consider measuring taskings by associations instead of 
wings.
    If it is to succeed, the Air Force must educate airmen about the 
unique challenges of associations--at all levels, within and among each 
of the components. Advancement within each Service is premised upon 
joint education and experience; advancement should also be premised on 
joint component education and experience. Candidates for leadership in 
associations should be screened and selected based on their experience 
and abilities to lead and work well with other components.
    Force integration is not a process unto itself; it has a purpose, 
an end state. Properly understood, an integrated force is a unified, 
harmonious, effective entity. We are merely at the beginning of this 
process; it will take many, many years before we approach the end 
state. We must look beyond the fiscal efficiencies touted as the basis 
for our undertaking, roll up our sleeves, and get to the hard work 
needed to make us a more effective combat force. Should we do so, we 
will some day look about us and recognize a truly integrated Air Force.
                   modernize equipment and facilities
    The DOD's goal is to fully equip Reserve component units, thereby 
providing a trained and ready force at every stage of the Service's 
force rotation plan. The Air Reserve components, along with the Regular 
Air Force, face significant modernization and recapitalization 
challenges, for both our aircraft and infrastructure. Some Air Force 
Reserve platforms remain out of the fight due to lack of defensive and 
countermeasure systems needed in the CENTCOM Theater, including some of 
our C-5A, A-10, and C-130 aircraft. In addition, as with the regular 
Air Force, we are facing unpredictable fatigue, corrosion, and 
structural component availability concerns on platforms that even our 
superior maintainers cannot correct forever, as we have seen in our C-
5, KC-135, and A-10 fleets. While we continue to meet the requirements 
of the Air Force and the joint team, the current high operations tempo 
has led to our current reality--the increasing uncertainty of our long-
term fleet viability. Similarly, continued risk in the Air Force 
Military Construction (MILCON) program has caused a significant growth 
in the Air Force Reserve Command's facility project backlog. Timely 
modernization is critical to remaining a relevant and capable combat 
ready Reserve Force.
National Guard Reserve Equipment Account
    The National Guard Reserve Equipment Account (NGREA) appropriation 
has resulted in an increase in readiness and combat capability for both 
the Reserve and the Guard. For fiscal year 2009, we received $37.5 
million in NGREA appropriations which resulted in the Air Force Reserve 
Command's ability to purchase additional upgrades for Reserve owned 
equipment. Some of the items that we purchased using NGREA funding 
include: Defensive Systems for C-5s, Line of Sight/Beyond Line of Sight 
capability and new upgraded radar for our C-130 aircraft, and an 
upgrade to the F-16 Commercial Fire Control Computer. Many of these new 
capabilities are directly tied to better air support for our soldiers 
and marines in Iraq and Afghanistan. NGREA funding has helped the Air 
Force Reserve to remain relevant in today's fight as well as the 
ability to remain ready and capable in future conflicts. We thank you 
for your support with this critical program.
Military Construction and Facilities Modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our facilities. During the fiscal year 2008 
budget formulation, both the regular Air Force and the Air Force 
Reserve took risk in MILCON appropriation in order to fund higher 
priorities. This reduction coupled with past shortfall funding in 
MILCON has resulted in a backlog nearing $1 billion for the Air Force 
Reserve.
    We will continue to work within the fiscal constraints and mitigate 
risk where possible to ensure our equipment and facilities are 
modernized to provide a safe and adequate working environment for all 
of our airmen.
                               conclusion
    Mr. Chairman and members of this subcommittee, I am excited to have 
been able to take on this role as Chief of the Air Force Reserve and 
Commander of Air Force Reserve Command. I take pride in the fact that 
when our Nation calls on the Air Force Reserve, we are trained and 
ready to go to the fight. Over 67,000 strong, we are a mission-ready 
Reserve Force capable of serving operationally throughout the world 
with little or no notice.
    The rapidly changing security and economic environment will cause 
Congress, the DOD, and the Air Force to make some difficult choices in 
the year ahead. The Air Force Reserve is highly experienced, cost-
effective force provider well-suited for this challenge. I submit it is 
a hedge against the uncertainties we are facing for which you pay a 
relatively small premium. I firmly believe paying this premium will 
enable the Air Force to achieve its force integration goals and address 
not only its priorities, but also help Congress address the more 
pressing issues we will face as a Nation in the years to come.
    I appreciate the support of this committee for the authorization 
and legislation it provides to our readiness and combat capability. I 
look forward to working with each of you in the future on the 
challenges facing the Air Force Reserve, the Air Force, and the Nation.

    Senator Ben Nelson. Admiral May.

STATEMENT OF RADM DANIEL R. MAY, USCG, DIRECTOR OF RESERVE AND 
               TRAINING, U.S. COAST GUARD RESERVE

    Admiral May. Chairman Nelson, Senator Hagan, Senator 
Burris: It's an honor and pleasure to be here this afternoon 
representing the Coast Guard Reserve. I want to especially 
thank you for that warm welcome.
    Here with me this afternoon is my deputy, Captain Andrea 
Contrada, and also Master Chief Jeff Smith, the Reserve Forces 
Master Chief.
    First of all, I'd really like to thank you and Senator 
Graham for your commitment and for tackling the tough issues 
that face our military personnel, and all the progress that 
you've made in supporting our military men and women.
    The Coast Guard is one of our five Armed Forces. It has a 
long history, a distinguished history of service to our home, 
both here and abroad, as a military, maritime, and multi-
mission service, always ready for all threats and all hazards. 
Because of this mix of military and civil law enforcement 
authorities, the Coast Guard is really uniquely positioned to 
serve as a lead Federal agency for our maritime homeland 
security, while also acting as a supporting agency to the DOD.
    In fact, over 80 percent of our 8,100 Selected Reserve 
Force is directly assigned to our Coast Guard shore units. The 
remainder of our force is spread out and dedicated to 
supporting defense operations. These forces are assigned to our 
eight individual port security units, which are staffed by 
reservists full-time as well as support personnel. Today, Post 
Security Unit 311 is serving in-theater.
    The integration of our Active and Reserve components began 
in the 1990s and enables us to respond quickly when and where 
Operational Reserve Forces are needed. It's aided, in part 
also, by the unique authority held by the Homeland Security 
Secretary by using title 14 of the U.S. Code. Under title 14, 
the Secretary may recall Coast Guard reservists for up to 30 
days at a time for domestic contingencies, including natural 
and manmade disasters, as well as any terrorist attacks.
    This unique authority helped facilitate a rapid response 
for the Coast Guard in response to Hurricanes Katrina and Rita, 
where approximately 700 mobilized Coast Guard reservists 
performed nearly 20,000 person-days in support of our rescue 
and recovery operations in the Gulf region.
    Now, after the tragic events of September 11, and in the 
wake of our largest mobilization, nearly 50 percent of our 
Reserve Force was mobilized. This continues today, where we 
have nearly 700 Coast Guard reservists on Active Duty. They are 
actively participating in a number of missions across the 
entire Coast Guard.
    We thank you again for the Commission, for all that they 
have done. The Coast Guard has been an active participant in 
the Commission on the Guard and Reserves. As you pointed out, 
Mr. Chairman, many of those recommendations and any laws that 
may come from them will apply to the Coast Guard as one of our 
military Services.
    So thank you, again. It's an honor to be here on behalf of 
the Coast Guard men and women. I look forward to any questions 
you may have.
    [The prepared statement of Admiral May follows:]
             Prepared Statement by RADM Daniel R. May, USCG
    Good afternoon, Chairman Levin, Senator McCain, and distinguished 
members of the Senate Armed Service Subcommittee. It is a pleasure to 
have this opportunity to appear before you today to discuss the Coast 
Guard Reserve, its contribution to National Defense and Homeland 
Security, the issues that face the men and women of our Coast Guard 
Reserve and the Coast Guard's ability to sustain the high level of 
quality staffing we currently have.
    As one of the five Armed Forces of the United States, the Coast 
Guard has a long and distinguished history of service at home and 
abroad as a military, maritime, multi-mission service always ready for 
all threats and all hazards. Because of its mix of military and civil 
law enforcement authorities, the Coast Guard is uniquely positioned to 
serve as the Lead Federal Agency for Maritime Homeland Security while 
acting as a supporting agency for National Defense. Founded in 1941, 
the Coast Guard Reserve is the force multiplier for the operational 
Coast Guard, due in part to the complete integration of our Selected 
Reserve Force into Active component units during the last decade. In 
fact, over 80 percent of our 8,100-member Selected Reserve Force is 
directly assigned to Active Coast Guard shore units, where reservists 
hone readiness skills through classroom instruction and on-the-job 
training side-by-side with their Active Duty counterparts. The 
remainder of our Selected Reserve Force is dedicated primarily to 
supporting Defense Operations. The majority of these reservists are 
assigned to our eight deployable Port Security Units (PSUs) which are 
staffed by reservists and Full Time Support (FTS) personnel; the PSU's 
principal mission is to support the Combatant Commanders in strategic 
ports of debarkation overseas. The remaining personnel are assigned to 
Department of Defense (DOD) units, such as the Maritime Expeditionary 
Security Squadrons and combatant commanders' staffs.
                              integration
    The strength the Coast Guard gained through integration in the 
1990s was the creation of this Operational Reserve Force. Although just 
less than one-fourth the size of the Active Duty component at 
approximately 8,100 personnel, this operational Reserve Force acts as a 
surge capability ready and able to respond to any national or domestic 
contingency. They responded magnificently to the attacks of September 
2001, and all contingency operations that have followed. Since 2001, 
cumulative recalls of Coast Guard reservists under title 10 of the U.S. 
Code have totaled over 6,800, with reservists serving at home as part 
of the Coast Guard's Maritime Homeland Security mission and overseas in 
direct support of the combatant commanders. The majority of those 
recalled served domestically as members of Coast Guard units 
safeguarding ports and waterways alongside 95,000 miles of U.S. 
coastline or enforcing security zones in strategic outload ports on the 
Atlantic, Pacific, and Gulf Coasts where supplies and equipment for 
combat forces begin their journey overseas. Coast Guard reservists also 
served overseas since September 2001 as members of PSUs operating in 
Iraq, Kuwait, and Bahrain and as individuals supporting Coast Guard 
units in the region, including cutters under U.S. Fifth Fleet. At the 
height of Operation Iraqi Freedom combat operations in early 2003, 
approximately half of the Coast Guard personnel deployed overseas were 
reservists.
                           post-september 11
    Since September 2001, when we embarked on the largest mobilization 
of Coast Guard reservists since World War II, we have redoubled our 
efforts to capture and capitalize on those lessons learned to further 
improve readiness and ensure a Reserve Force with the right people, 
skills, and training for the missions of the 21st century. We have 
examined our systems for recruiting, training, mobilizing, and 
demobilizing reservists to identify and close readiness gaps. More 
significantly, we undertook a comprehensive review of the Coast Guard 
Reserve that resulted in our Commandant, Admiral Thad Allen, issuing a 
Policy Statement that embodies the three core strategic functions of 
the Reserve Force: Maritime Homeland Security, domestic and 
expeditionary support to national defense, and domestic manmade or 
natural disaster response and recovery. The individual competencies 
required to support these core functions center on boat operations, 
contingency planning and response, expeditionary warfare, law 
enforcement, marine safety, and port security with appropriate force 
levels invested in the administrative and logistical support our 
Reserve Force requires.
                                title 14
    None of this represents a radical change for the Coast Guard 
Reserve, but rather an affirmation of the vital role our reservists 
play as the Coast Guard's operational surge force. One key component of 
that ready surge force is availability and accessibility of individuals 
for mobilization. As with members of the other Reserve components, our 
Reserve men and women are subject to involuntary mobilization under 
title 10 for national security contingencies. However, unlike members 
of the other Reserve components, Coast Guard reservists can also be 
involuntarily mobilized by the Secretary of Homeland Security under 14 
U.S.C. 712 for up to 60 days at a time for domestic contingencies, 
including natural and manmade disasters and terrorist attacks. This 
unique authority provided under title 14 has been used over a dozen 
times since the 1970s to mobilize Coast Guard reservists for a wide 
range of emergencies ranging from the 1980 Mariel Boat Lift to floods, 
hurricanes, and other natural disasters.
    In 2005, it was this special authority used by the Secretary of 
Homeland Security, which allowed the Coast Guard to mobilize 
approximately 700 members of the Coast Guard Reserve for Hurricanes 
Katrina and Rita, providing a ready force for rescue and recovery 
operations in New Orleans and the stricken areas of the Gulf Coast. It 
was used again this past year for nearly 70 members in response to 
Hurricanes Gustav and Ike. In all, members of the Coast Guard Reserve 
mobilized under title 14 for Hurricanes Katrina and Rita performed 
nearly 20,000 person-days of duty in support of Coast Guard rescue and 
recovery operations. Most served alongside their active-duty 
counterparts as individual augmentees. For instance, several reservists 
assigned as Coast Guard Investigative Service special agents were 
mobilized to augment active-duty and civilian agents deployed to New 
Orleans, Baton Rogue, and Gulfport, where they provided armed security 
for senior officials and personnel disbursing cash to Coast Guard 
members. In addition to individual augmentees, the Coast Guard also 
activated two PSUs to provide physical security in New Orleans and 
Gulfport, and to aid in the distribution of relief supplies, a 
departure from their normal mission of deploying overseas in support of 
Defense Operations but a testament to the ability of our reservists to 
mobilize when and where needed to plus-up Coast Guard forces responding 
to an emergency.
    Recent legislative changes have also provided increased capability 
to use our Coast Guard Reserve. The Coast Guard and Maritime 
Transportation Act of 2006 expanded the Secretary of Homeland 
Security's title 14 recall authority to permit mobilization of Coast 
Guard reservists ``to aid in prevention of an imminent serious natural 
or manmade disaster, accident, catastrophe, or act of terrorism.'' 
Other language included in the bill extended the limits on the period 
of recall to not more than 60 days in any 4-month period and to not 
more than 120 days in any 2-year period. This significantly enhanced 
our ability to mitigate major natural disasters and thwart terrorist 
attacks by enabling us to bring Coast Guard reservists on active duty 
even before disaster strikes.
                         organization structure
    A major component of the Coast Guard's success in responding to 
disasters is the Coast Guard's decentralized command and control 
structure. The authority and responsibility to move forces, including 
reservists, establish response readiness levels, and direct operations 
is vested in the regional district and area commanders. This provides 
the most direct oversight of operations at the field level and avoids 
delays caused by unnecessary and time-consuming bureaucratic processes. 
However, the most important factor contributing to the Coast Guard's 
effectiveness in disaster response is the fact that our forces are 
engaged in this type of mission on a daily basis. As the Nation's 
maritime first responder, Coast Guard men and women, Active, Reserve, 
Civilian, and Auxiliary plan for, train and execute missions every 
single day.
                             dod in design
    The Coast Guard also possesses several unique features that help to 
integrate its efforts with those of the DOD, other Federal agencies, 
the National Guard, and State and local authorities. Because the Coast 
Guard is at all times a branch of the military, our communications 
systems, planning processes, personnel training and even our command 
structures have much in common with the DOD Services. Coast Guard 
commanders can be either supported or supporting commanders for 
military operations and we have extensive experience working in and 
with DOD Joint Task Force Headquarters. This allows for easy 
integration of forces and unity of effort when working together during 
major catastrophes. Today, we are closer to DOD than we ever have been 
since World War II with numerous active duty and reservists assigned at 
our combatant commands and various other DOD organizations providing 
key skills in support of our Nation's defense.
                              joint forces
    The Coast Guard has excellent working relationships with all of the 
Armed Forces, providing support and leveraging expertise through mutual 
agreements. At Marine Corps Base Camp Lejeune, NC, the Coast Guard 
partnered with the Marine Corps to develop the Coast Guard Special 
Mission Training Center which is tasked to provide training, doctrine, 
and testing/evaluation in support of mission requirements of the Coast 
Guard, Navy, and Marine Corps operational forces. The Special Mission 
Training Center offers specialized courses for Coast Guard Reserve 
deployable units, and inclusion of Coast Guard personnel in formal 
training conducted by the Navy and Marine Corps.
    In today's joint environment the spirit of cooperation and common 
purpose is exceptionally high. The Coast Guard welcomed the opportunity 
last May to participate in Patriot Hook when PSU 312 working jointly 
with the 452nd Air Lift Control Flight, leveraged the opportunity to 
complete required underway live fire, anti-swimmer grenade training, 
and rehearsal of the movement of personnel and equipment by land and 
air. During the 4-day exercise, held at San Clemente Island, over one-
half million pounds of cargo is transported by the U.S. Air Force from 
various airfields to San Clemente Island.
    As I report to you here today, 120 members of PSU 311 are deployed 
to Southwest Asia as an integral part of the Navy's Maritime 
Expeditionary Squadron. That unit is providing vital water and land 
side security for ports of strategic importance in Kuwait.
                              interagency
    In addition to our work with DOD, the Coast Guard works on a daily 
basis with other Federal, State, and local partners. The Service's 
Ports, Waterways, and Coastal Security mission requires the Coast Guard 
to interact daily with State and local law enforcement and emergency 
response organizations, exercising command structures and building the 
trust critical to effectively execute an emergency response. Coast 
Guard Captains of the Port provide a critical link through Local 
Emergency Planning Committees, Area Maritime Security Committees, 
Harbor Safety Committees, Area Planning Committees, Regional Response 
Teams, and other venues that allow the Coast Guard to build close 
relationships with key partners in disaster response. Because of the 
integrated nature of the Coast Guard, individual reservists play a key 
role in these efforts. Their dual status as Coast Guard members and 
residents of their local communities frequently enables them to 
leverage organizational and personal relationships that yield 
immeasurable benefits during a crisis situation.
    The Coast Guard has built on these important relationships to 
improve our emergency response capability by actively working to 
implement the National Response Framework (NRF). Since 1996, the Coast 
Guard has trained thousands of personnel, including reservists, on the 
Incident Command System, a central component of the NRF and updated its 
full range of contingency plans to reflect the guiding principles of 
the NRF. Additionally, the Coast Guard has realigned and combined 
operational field units to provide full integration of emergency 
response capabilities, and directly support staffing for Joint Field 
Offices, when those entities are in place.
              commission on the national guard and reserve
    The Coast Guard has participated from the start of the Commission 
on the National Guard and Reserve (CNGR) process providing testimony to 
the Commission participating in each of the fact finding sessions, and 
providing a dedicated staff member. Upon completion of the study the 
Coast Guard worked with the Office of the Assistant Secretary of 
Defense, Reserve Affairs (OASD-RA) in evaluating the impact of the 95 
CNGR recommendations. Participating in work groups with the other 
Reserve components and OASD-RA, the Coast Guard provided official 
comments on each of the recommendations and implementation plans for 
those selected for action.
    It is appropriate that the Coast Guard continue to be involved in 
this process as the CNGR recommendations that are implemented will 
likely have significant impact on the Coast Guard Reserve just as it 
will with the other military Services. The Coast Guard is keenly aware 
that laws and policy that affect DOD have a profound affect on the 
Coast Guard Reserve program and workforce. Coast Guard Reserve Affairs 
stands ready to work with OASD-RA at all times.
                               workforce
    Staffing the Coast Guard Reserve workforce is unique to the 
services as Reserve and Active Duty recruiting for the Coast Guard is 
conducted through a single Recruiting Command. The Coast Guard Reserve 
supplements Recruiting Offices with reservists on Active Duty 
(Temporary Active Reserve Recruiters) under the concept that reservists 
are best suited to recruit reservists. In addition to the Reserve 
recruiters, the Recruiting Command has found success in the use of In 
Service Transfer Teams to ensure that all Active Duty personnel that 
are being released from active duty are briefed on the benefits of the 
Coast Guard Reserves, and offered an opportunity join and continue with 
their military career within the Reserves.
                               retention
    Retention in the Coast Guard Reserve has remained steady over the 
course of the past several years with current retention at 92 percent 
for officers and 88 percent for enlisted personnel. These retention 
rates indicate that members see the Coast Guard Selected Reserve as an 
attractive option and, once they join, they want to continue serving. 
It has not been determined that the economy is a factor in retention as 
retention for the Coast Guard Reserve was high before recent economic 
downturns.
             employer support of the guard and the reserve
    The Coast Guard is actively engaged with Employer Support of the 
Guard and the Reserve (ESGR). In February 2008, five Coast Guard 
Commands signed a pledge of participation in recognition of ESGR's 
contribution to the Armed Services. Following up on that pledge, the 
Coast Guard Reserve actively engaged reservists to nominate employers 
for the Secretary of Defense's Freedom Award resulting in a substantial 
increase in nominees over the previous year. ESGR, working with Coast 
Guard Reserve, saw a positive trend of a steady decline of cases 
referred to ombudsman.
                           improved benefits
    The 2008 National Defense Authorization Act along with changes to 
DOD and Coast Guard policy provided improved benefits for members of 
the Coast Guard Reserve. New dwell time policy established a 12-month 
limit on mobilization improving predictability for members, families, 
and employees. TRICARE benefits provide for up to 90-days early access 
to TRICARE medical and dental care when members are notified of 
upcoming deployments. TRICARE Reserve Select extends insurance benefits 
to reservists not on active duty. The Coast Guard initiated an annual 
Periodic Health Assessment that will replace the previous 5 year 
medical exams making them mandatory for all personnel, Active and 
Reserve.
                               challenges
    The Coast Guard has demonstrated its ability to prepare for and 
respond to a wide range of contingencies, including natural disasters 
and terrorist attack, while executing more routine missions, such as 
maritime law enforcement and search-and-rescue. To continue to meet 
these challenges into the future, the Coast Guard continuously examines 
best practices and takes steps to adapt. In 2008 the Coast Guard 
Reserve Program developed an initiative called the Reserve Force 
Readiness System (RFRS) aimed at increasing readiness of Coast Guard 
Reserve Forces. Under RFRS, existing billets will be realigned at the 
operational level providing improved oversight, day-to-day management, 
and readiness of our Reserve Forces. This new organizational construct 
will also provide additional leadership opportunities for senior 
Reserve personnel (officer and enlisted), provide increased mentorship, 
and training for junior personnel, and optimize the placement of FTS 
personnel.
    The Coast Guard is the Nation's premier maritime law enforcement 
agency with broad, multifaceted jurisdictional authority. It is on 
behalf of the men and women of the Coast Guard that I thank you for 
your continued support of the Coast Guard and the Coast Guard Reserve.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Ben Nelson. Thank you very much, Admiral.
    General Vaughn, General Stultz, and to the members of the 
panel: A couple of years ago during the Christmas holidays, 48 
members of the 110th Medical Battalion based in Lincoln, 
Nebraska, found themselves stranded at Fort Lewis, Washington, 
when training was suspended and the base was shut down for the 
holidays.
    Now, military rules prohibited using funds to pay for their 
travel back to Nebraska until training resumed. In a joint 
explanatory statement that accompanied the National Defense 
Authorization Act for Fiscal Year 2009, we urged the Services 
to be mindful of training suspensions and minimal staffing 
periods when devising training schedules for the Reserve 
components. I've drafted legislation, which Senator Graham and 
I will soon introduce, that will correct this deficiency and 
would authorize travel if a Reserve or Guard member is more 
than 300 miles from home and is placed on leave for 5 days or 
more because of training suspensions or staffing issues.
    Now, it's our understanding that this is not a unique 
experience among guardsmen and reservists because of a lack of 
planning on the part of the military unit; servicemembers are 
sent away from home, in some cases thousands of miles, for 
training missions and then the training is suddenly suspended.
    In these cases, isn't it the military's responsibility to 
either plan appropriately and not to waste the time of our 
servicemembers or unnecessarily keep them away from their 
families, or if the military doesn't plan should we pay to send 
them home? Let me say that we got those members home, but we 
raised money from private sources in order to do it, which 
means that there were a number of generous folks who helped do 
it. But it isn't necessarily the responsibility of the private 
citizen to pay for that public cost.
    So my question is, what are your policies for assigning 
training duty during the holiday season, especially as most 
posts go to reduced manning and suspend training during that 
period? Can we start with you, General Vaughn?
    General Vaughn. Senator Nelson, a great issue, inflammatory 
issue. We're 100 percent on your side. We went through this 
thing for several years, dating all the way back to the 39th 
Infantry Brigade, and Wal-Mart and a couple other folks paid 
for that. We have no business passing that on. We made our 
concerns known, and I will tell you that Lieutenant General 
Jack Stultz and I don't have anything to do with scheduling 
when they mobilize and report to the training centers.
    It's absolutely something that we needed the kind of 
emotion and fervor behind it to get that straightened out. This 
year, for our big formations, everything is after the holiday 
period. Now, that's not to say there might not be something in 
there someplace that we don't know anything about. But the 
other piece of that is that we ought to pay for them coming 
back home.
    The ARNG agrees 100 percent with your line of reasoning on 
this.
    General Stultz. Yes, sir. I'll echo what Lieutenant General 
Clyde Vaughn said. Sir, in 1990, Operation Desert Storm, I 
reported with my unit to Fort Eustis, VA, in November right 
after Thanksgiving. Now, I deployed with an advance party into 
Saudi Arabia ahead of them, but the rest of my unit sat at Fort 
Eustis during Christmas holidays, and I saw what it did to 
morale. I said this is crazy, that we have soldiers sitting 
around.
    The past 3 years, as I've traveled around Iraq, 
Afghanistan, Kosovo, the Horn of Africa, and I talked to 
soldiers about what makes you feel good and what do you not 
feel good about, one of the number one subjects they said is 
wasted time: ``I sat at a mobilization station, did nothing, 
and it was wasted time. I could have been with my family.''
    It's a morale issue. It's a morale issue for holidays. It's 
a morale issue for any time where we have them sitting in a 
mobilization station and there's nothing going on.
    So we have made the commitment to wherever possible stop 
that from happening. As Lieutenant General Clyde Vaughn said, 
look at the training and say: ``Hey, listen; if you're not 
going to be there for training, my soldiers aren't going to be 
there.'' Working together with Forces Command and First Army, 
we are now much better than we used to be. We don't do like we 
used to, where there used to be a pre-mobilization plan which I 
had responsibility for, but once they got mobilized, I handed 
them to Forces Command, and they took over, and I lost control.
    Now we have one training plan and we say: ``This is all 
we're going to do in the pre-mobilization time period and this 
is what we're going to do in the post-mobilization time period, 
and we're going to make sure that every day they're at a 
mobilization station they're occupied with some valuable 
training, or they're deployed.''
    In the past 2 years, we've cut the time down, time at a 
mobilization station, from 90 days down to 40 days. Our target 
is 30 days. A unit doesn't need to be in a mobilization station 
longer than 30 days and they can get going.
    So to that point, we've said: ``Listen, if you're not going 
to be there, we're not going to be there.'' If we are there and 
they suspend training, I agree wholeheartedly we ought to send 
the soldier home for the holidays. It's a morale issue.
    Senator Ben Nelson. Would anyone else like to make any 
comments? I think they said it very well, but if there are any 
other comments, we'd certainly like to accept them.
    [No response.]
    I appreciate that very much. It is a morale issue, and we 
will seek to have this legislation introduced shortly. I hope 
this year we'll be able to get it passed, so if those 
unintended consequences occur in the future, we'll be able to 
deal with it appropriately. Thank you.
    One other question here. Prior to this hearing, our 
committee sent out a data call on suicide rates in our Guard 
and Reserve Forces, and we've received the information, we've 
done some analysis on the numbers, and we thank you for the 
responses. The information received, however, did identify what 
I think are some troubling trends. The Army and the Air Force 
were able to provide complete data for suicide rates both while 
Reserves are activated and on drill status. The data you 
provided consistently showed that the number of suicides that 
occurred while on drill status was more than those that 
occurred while deployed.
    This correlates to the qualitative data we received at the 
hearing last week before our committee, which showed that 
servicemembers tend to exhibit more mental health issues when 
they're away from the support structure of the military. 
Obviously, your quantitative data proves to us that we need to 
make certain that our Guard and Reserve Forces have access to 
support structures and medical services even when they're not 
activated.
    In your responses to the data call, some of the Services 
stated that they do not have the authority to investigate the 
death of members while the member is in a non-military status. 
Now, our Guard and Reserve are an Operational Force, and so 
they need to be ready at all times to meet the mission 
requirements. How does each of your Services track the suicide 
of a member who's on drill status? What mechanisms do you need 
in place and/or what can we do to help to ensure that you have 
the capability to track medical records for members while 
they're on drill status?
    I guess why don't we start at this end of the witness table 
and work back. Admiral May, this may be a new issue. I don't 
know how much you've been involved. We did have the other 
Services. We didn't include the Coast Guard, not because we 
intended to exclude you; we just didn't include you.
    Admiral May. Yes, sir, Mr. Chairman. We've been very 
fortunate in the small numbers of Coast Guard men and women 
that have deployed. We have not suffered any suicides 
whatsoever of our Reserve Forces. So that's been a blessing for 
us.
    We do keep track of our folks as they come back, and they 
typically return to a drilling status. We make sure that they 
go through a demobilization process. We monitor their progress. 
There are certainly programs that are available to them should 
they need any medical assistance whatsoever. Then, once they go 
back to a drilling status, obviously we have visibility of 
their health and wellbeing, and if there's anything that's 
identified, we immediately get them to any care that they may 
need.
    Senator Ben Nelson. General?
    General Stenner. Mr. Chairman, the data research that we've 
done was a pretty difficult dig to go find some of these 
things, particularly because we don't have access to their 
civilian medical records and where and when these things 
happened, unless they were filing an insurance claim. Sometimes 
we never knew that there was a cause of death that would have 
been noted as suicide.
    However, the 2003 to 2008 timeframe where we did research 
it, we had 42 completed suicides, if you want to put it that 
way. None of those occurred, for the Air Force Reserve anyway, 
while the member was deployed. Sixteen of the 42, that we did 
find, had deployed at least once prior to their death. Then, of 
the 13 cases that we did have available for review, we did have 
1 that had deployed prior to committing suicide, but it wasn't 
during the deployment that we had the suicide.
    Now, regardless, what we really have here is a microcosm of 
society and some of the realities that occur. The marital 
difficulties and those kinds of things played as well. So, 
pinning down what actually caused that individual to do what 
they did will be a difficult situation. But we are very, very 
cognizant of the fact that we need to be trained and ready and 
have suicide prevention going on, that our folks watch each 
other, they understand each other. We do have Yellow Ribbon and 
the reintegration efforts to help us get more eyes on and more 
data. We're going to put some folks into place, both at the 
command level and regionally, to track the incidence and to 
keep track of the folks who have these issues.
    It will be something that we have as a high priority for 
quite some time to ensure that our folks are taken care of.
    Senator Ben Nelson. I realize it's a lot easier in terms of 
tracking when somebody's activated or somebody is active and on 
Active Duty. But it also occurs when they're not. While some 
might think that there would be a greater opportunity for 
someone to commit suicide while they're deployed, it apparently 
is not the case. We understand some of the reasons are the 
breakdown of romantic or marital relationships or economic 
difficulties.
    We also are aware that sometimes the breakdown in the 
romantic, the marital difficulty, and/or the economic 
circumstances might be because of the deployment or the number 
of deployments that create the separation. We still think it's 
important to track it the best way that we possibly can.
    General Stenner. Yes, sir, we agree, and we're going to 
keep on doing what we're doing.
    Senator Ben Nelson. Thank you.
    General Bergman?
    General Bergman. Yes, sir. While absolutely we agree that 
we need to track it, currently in the Marine Corps Reserve we 
do not have the database available to do that. However, because 
we're about an 80 to 85 percent unit-based force, the ability 
to contact people who don't show up for drill, just like you 
would contact someone who didn't necessarily show up for 
school--what's going on, are you sick, type of thing. We have a 
little bit of an advantage as we focus our efforts in that 
direction.
    The challenge comes when you have a very small percentage 
of young, usually new marines who decide maybe that the 
decision to become a marine wasn't part of their life's plan, 
and now they just quit coming to drill. We deal with that on a 
daily basis, and sometimes it might be 6, 8, 10 months or 
longer before we can get good locations and data on them, on 
their whereabouts.
    So we recognize the need, and we will do everything we can 
to ensure that we get everybody on the roster.
    Senator Ben Nelson. Thank you.
    Admiral Debbink?
    Admiral Debbink. Chairman Nelson, although not required 
under any instructions to do so, we've been actually tracking 
any Navy reservist who committed suicide since July of last 
year. I'm sad to report that we had four such suicides occur, 
not on Active Duty, not in a drilling status. But, as General 
Bergman has just said, we, too, have a unit structure, and when 
someone doesn't show up for drill, work, or whatever, you know 
you're missing somebody.
    So we are changing Navy instructions now to make sure that 
we include all sailors, Active component, Reserve component, no 
matter what status they're in.
    I'd also like to report that we had a couple of good news 
stories, and that is with the money that's come to the Yellow 
Ribbon reintegration program. We've stood up our Returning 
Warrior Workshops and we've also stood up Psychological Health 
Outreach Coordinators. At one of our Returning Warrior 
Workshops, somebody with suicide ideation was identified by 
another sailor and referred to our program, and we believe 
prevented that from happening.
    Additionally, we had a Psychological Health Outreach 
Coordinator visiting a Navy Operational Support Center (NOSC) 
once and identified another sailor, and I'm proud to say both 
those sailors are alive yet today. So, thank you for your 
support of that very important program.
    Senator Ben Nelson. Thank you.
    General Stultz.
    General Stultz. Yes, sir. We in the Army take suicides 
very, very seriously. We have, in the Army Reserve, been 
tracking all suicides, whether they're on or off Active Duty or 
drilling status, because any soldier I lose is a loss, whether 
he was in an active or non-drilling status.
    As you probably know, the Army is in the midst of a 
standdown, where we have taken a standdown approach for doing 
suicide prevention training across the Force. We're doing that 
throughout the Army Reserve. The challenge we have is what you 
just mentioned. I see my soldiers 2 days out of the month. The 
other 28 days out of the month, they're with their families.
    What we're trying to train is awareness, what to look for, 
what the signs are that somebody's having problems, our goal is 
to reduce the stigma to show that it's okay to ask for help and 
what are the resources to reach out to. We're doing a good job 
training the soldiers. We have to train the families because 
they're the ones that are with that soldier the other 28 days 
that we don't see them.
    We do a psychological autopsy on every suicide that we have 
and try to dig in as much as possible, to try to understand and 
to see: is there anything we could have done differently, is 
there anything we could have done to prevent it? As Vice 
Admiral Dirk Debbink just mentioned, during the training that 
we've been conducting, we've already had several cases where 
individuals stepped up and said: ``I need help.''
    We had one case where a soldier took an overdose of pills, 
but then changed, realized after he'd taken the overdose of 
pills, I don't have to do this, and called one of his other 
buddies and said, I need help, I just did this. We were able to 
save him.
    But, we've also had a couple of incidents where soldiers 
took their own lives after leaving a weekend drill or a period 
like that, and in doing the psychological autopsy what we find 
out is we're a support structure to them. They take great pride 
in being the Army Reserve. They feel like we care. When I'm 
with my unit, they care about me, they take care of me. But 
when I go back home, there's nothing there, and that's when 
it's happened.
    We have to really reach out and figure out how do we get in 
touch and stay in touch to provide that support network, the 
other 28 days of the month that we're not with that soldier, 
and to be able to educate the families and the support 
structure around them what to do when something occurs, when 
something's not right. We can take care of them the 2 days we 
have them. It's the other 28 days. As has been reported, the 
majority of our suicides occur off duty. It's not related to a 
deployment. It's not related to the Army specifically. It's 
something that's going on in their life elsewhere that's 
failing, and we just don't know about it.
    Senator Ben Nelson. General Wyatt.
    General Wyatt. Mr. Chairman, the ANG has been tracking 
suicide data actively since September 2004, and we had 46 
completed suicides from September 2004 through December 2008. 
To lend substance to your observation that most of these take 
place outside of the supervision of the military, none of our 
suicides have occurred while the members have been deployed.
    Of the 46 members who have had a suicide history, 41 
percent have had a history of deployment, while 59 had no 
history of deployment. Of the ones who had deployment history, 
32 percent had one deployment, 9 percent had two deployments, 
and 0 percent had more than two deployments.
    We share the same concerns that the Air Force Reserve does 
in the inability to investigate deaths that occur when a member 
is not on status because of resourcing and legal authorities. 
But like the Army Reserve, we take each one seriously and do 
our best to track through our contacts with local law 
enforcement to ascertain the cause of death.
    But just to lend support to your observation, most of our 
problems seem to occur when the member is not under our command 
and control.
    Senator Ben Nelson. General Vaughn?
    General Vaughn. Mr. Chairman, I would echo what General 
Stultz and General Wyatt have had to say. We have tracked them 
very closely. We're probably as tight-knit an organization as 
there can be. Most of them, the great bulk of them, are not on 
Active Duty. They occur back here on this side.
    This is a significant issue for the ARNG right now. We've 
averaged over the last few years--you have the data--about 60 
in both statuses. At the rate we're going, if we hold with the 
same rate, we may see as many as 90 suicides, based on what's 
happened so far.
    Our adjutants general are all over this. I get good, 
accurate reporting, whether on-duty or not. It comes in. We 
assign it properly. As you all know, the report is pending 
right up until you get a coroner's report. Now, we have asked 
our Judge Advocate General for our commanders to be able to do 
a 15-6 investigation, a cursory look at this to say, ``Yes, 
this is what it is because we need the other pieces of the 
investigation.''
    We are into it. We are on the Army plan. Lieutenant General 
Stultz and you both are right there with General Peter 
Chiarelli. The better part of that, the adjutants general, 
really have this thing in their sights. We'll do all we can, 
sir.
    Senator Ben Nelson. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. I'm going to have 
to run again, I apologize, for a budget markup. This is one of 
those days where everybody meets at the same time.
    General Vaughn, about the dental readiness, are these 
numbers right, 52 percent? For the first quarter of fiscal year 
2009, more than half the Army Guard and Reserves, 52 percent, 
were reported as nondeployable due to class 3 or class 4 dental 
readiness status? Is that correct?
    General Vaughn. Senator, that's probably correct because of 
the screening mechanism. In other words, you know how this 
goes. If you go downrange, you get screened, you come back and 
you can't drill for 30, 60, or even 90 days. You're getting 
pretty close to being out of sorts already.
    Now, what is a big deal is that when we started into the 
mobilization stations, we were running about 50 or 60 percent 
dental readiness. Today, we're running at 90 to 92 percent 
readiness. We have made overwhelming progress. Now, the 
screening piece, we have to get better on the screening piece. 
But just because they're not screened out and they're out of 
tolerance on the screening doesn't mean they're not deployable, 
and that's what we're finding.
    Senator Graham. I got you.
    Is there anything we can do to help you there with 
resources?
    General Vaughn. We'll check and see what plays out 
resourcewise here pretty quick. I think that everybody here is 
pretty candid. We're going to come up and tell you. You've 
helped a great deal, and let us ponder that just a little bit, 
and we'll get something to you.
    Senator Graham. Sure. Outstanding.
    One last question. This idea of increasing 20- to 30-year 
retention of military guards and reservists who have hit 20 
years of service. Usually people, particularly in the Guard, 
stay as long as they can. But I've seen, just anecdotally from 
being a reservist myself and being around the Guard a lot, that 
at 20 years of service, they're pretty worn out, and they're 
punching out. Is that generally a problem?
    Let's start with the Coast Guard and work our way 
backwards.
    Admiral May. Senator Graham, we actually are blessed in 
that folks want to stay. In fact, I had a Coast Guard reservist 
who wanted to stay beyond 60 years of age. 60 years old is 
usually the retirement date.
    Senator Graham. But you're not losing guardsmen or 
reservists? Your numbers haven't declined?
    Admiral May. No, sir.
    Senator Graham. Okay. What about the Air Force?
    General Stenner. Sir, they want to stay.
    Senator Graham. Okay. The Marines?
    General Bergman. They want to stay, sir.
    Senator Graham. Navy?
    Admiral Debbink. Sir, they're staying.
    Senator Graham. Okay.
    General Stultz. Sir, it's an issue for us.
    Senator Graham. The Army's taking the brunt of this, the 
Army and the Marine Corps.
    General Stultz. If you go back to Vietnam, we lost the NCO 
corps in Vietnam. If you talk to a lot of the commanders that 
were there during that timeframe, it was because of repeated 
deployments. By about the third deployment, the family and 
everybody else says: ``You have your 20 years of service in; 
you can get out.'' The Active Army lost their NCO corps. It 
took them 10 years to rebuild it.
    I'm concerned we're doing the same thing in the Reserves.
    Senator Graham. Yes, I am, too.
    General Stultz. Right now, I'm short.
    Senator Graham. But the Marines, you're okay?
    General Bergman. At the senior levels. Where we, sir, have 
room to go and grow, and we've identified this, is they're not 
even near the 20-year level. It's a question of how we take 
those corporals and sergeants in the Reserve component and get 
them over that hump to make them want to become E-6s and then 
populate that senior enlisted level.
    Senator Graham. Got you, okay.
    So it is a problem in the Army. I want to get with Senator 
Nelson and find a way to incentivize people to stay past 20 
years of service.
    Air Force again, not a problem, right?
    General Stenner. No, sir.
    Senator Graham. Thank you.
    General Vaughn, you agree with that? We need to get ahead 
of this in the Army?
    General Vaughn. I agree with what Lieutenant General Stultz 
says, that it's mid-level. It's mid-level stuff. If they've 
made the commitment as a colonel or a master sergeant, E-5s, E-
6s, and E-7s have been stagnated a little bit. What they're 
after is the early retirement piece, the piece that may get 
them to stay. When you come with the 90-day and 1-year per 
fiscal year program, all of a sudden we see people's eyes going 
wide open.
    Senator Graham. What I've been thinking about doing is in 
certain selected areas, critical need areas, if you'll stay to 
22 years of service you can retire maybe at 59 years old, and 
just walk your way down to 55 years old, as an incentive to 
stay on.
    Thank you all for your service. All I can tell you is that 
this war has been an incredibly difficult challenge for the 
Active Duty component. For the Guard and Reserve it has been a 
phenomenal challenge. The communities have stood up and stepped 
up. The employers are the unsung heroes of this war as far as 
I'm concerned, along with the Guard and Reserve families.
    We're going to win this thing, and you could not possibly 
fight this war without the Guard and Reserve. Mr. Chairman, we 
talked about this yesterday. From a national point of view, we 
have the most war-ready, combat-ready Guard and Reserve in the 
history of the Nation, and they're being well led. So God bless 
them.
    Senator Ben Nelson. Thank you, Senator.
    When it comes to retaining and incentivizing that group, 
there are a lot of good reasons to do it, not the least of 
which is those are very expensively trained and prepared 
personnel. When we lose them prematurely, we lose part of the 
investment, if not all the investment that we've made, beyond 
what we've received in the way of service. So we obviously have 
every reason in the world to want to retain the members at that 
level if we possibly can.
    So we will look for ways to be able to do this. Before we 
drop them in, we'll run them by you because we want to make 
sure that the incentives really do in fact make sense.
    When we worked on the new GI Bill, the first effort at it 
was comparable to the draft military, and that was taking care 
of people who were leaving. So the first effort at the GI Bill, 
I looked at it, and I said, ``Now we're going to create 
incentives for people to leave, as opposed for incentives for 
people to stay.'' I think that's clearly what we want to do 
here; to make certain that we know exactly what it is that 
we'll get from any kind of solution we come up with.
    Senator Burris, any other questions?
    Senator Burris. Mr. Chairman, thank you. I do have one 
question to all the commanders. Mine deals with a family 
question, in particular the requirement for supporting the 
family members of our deployed or frequently deployed Reserve 
components, the Coast Guard, the Army, the sailors, the 
marines, and the airmen.
    If not properly prepared and supported, the family member's 
negative experience will transfer to the servicemembers who are 
thousands of miles away. So my question is, a RAND study, which 
addressed the deployment experience of the Guard and 
reservists, found that family readiness was a critical aspect 
of preparing a servicemember for Active Duty service. Also in 
the RAND study, emotional and mental problems were mentioned 
most frequently--39 percent of the spouses and 26 percent of 
servicemembers mentioned such problems.
    So, commanders, can you each tell us what steps are we 
taking to deal with the deployment related to the problems with 
the family members that are experiencing the absenteeism and 
the constant uncertainty in the deployments? However you want 
to start; Coast Guard can start.
    Admiral May. Yes, sir. Sir, I think General Stultz 
mentioned this earlier, but taking care of the families of our 
reservists is absolutely the best thing we can do to ensure 
reservists' wellness and that they're ready to fight and be as 
ready as they can for us.
    We have several programs that are in place to support the 
families of the members either while they're deployed or when 
they come back. We have a work life program. We also have an 
Employee Assistance Program that is available for members and 
their families should they need that.
    The other thing we're doing, and this is on behalf of 
Admiral Debbink and the Navy, they have reached out to the 
Coast Guard and offered us to participate in their 
reintegration program, and we're going to sign a Memorandum of 
Agreement with the Navy that will allow Coast Guard men and 
women to take advantage of that great program that they're 
offering for members that have deployed and come back.
    So we're with you, sir, and we're going to do everything we 
can to take care of our families.
    Senator Burris. Thank you.
    Yes, sir?
    General Stenner. I'll echo those sentiments. I'll tell you, 
one of the biggest things we've done, sir, is the 
predictability that comes with starting well ahead of time and 
announcing when it is these folks will be leaving. That gives 
us plenty of time. Six months is the Secretary of Defense's red 
line right now for advising soldiers, sailors, airmen, and 
marines when they're going to be called up to go.
    That gives us and our family readiness shops 6 months prior 
time to get everybody ready, to let them know what it is that 
they have, as far as their benefits go to get them prepared 
with the pieces of paper that they would need in the case of 
wills and child care. Then our family readiness shop takes up 
and we use our spouses as well. We have Key Spouse programs, 
Phoenix Spouse programs, Military OneSource, all of the kinds 
of things that are available to them, and we prep all those 
families prior to the deployment of the member.
    Then we, as was said by Admiral May, keep up with them when 
they come home and make sure that the things that have happened 
along the way that can uproot and upset families are 
accommodated and taken care of, and we get them in touch with 
the right agencies. The Yellow Ribbon program, again, becomes a 
very useful tool to keep those families engaged.
    Senator Burris. How about the Marines?
    General Bergman. Yes, sir. First of all, great question. 
Thank you.
    I think it's important to note that, whether you're Active 
or Reserve in any Service, but I'll speak about the Marine 
Corps here, when we deploy a Reserve marine we take that marine 
from their home, wherever their home is in this country, and 
their family stays most of the time in that comfort zone of 
where they grew up, where they're living. So they have a 
natural support network, whereas an Active component marine 
might have been from Chicago and gotten stationed at Camp 
Lejeune, and that marine deploys and the family decides to go 
back to Rolling Meadows, Naporville, or somewhere to sit out 
that 7-month deployment.
    We have a different set of metrics for support of the 
families, whether it be Active or Reserve. The good news is is 
that, when General Conway became Commandant, one of his first 
statements was: ``I'm going to put the family readiness 
programs and family support programs on a wartime footing.'' He 
felt there was room to grow.
    We have made a myriad of changes, the largest two of which 
are full-time family readiness officers, hired on the payroll 
of the Marine Corps, both Active and Reserve units, down to the 
battalion level. Second to that, once you have the people in 
place, now you add the communications systems because largely--
now, getting back to the Reserve component--what our families 
need, if they're sitting in Chicago, they want to know what's 
going on with their marine. They want to know where he or she 
is. So, as that marine is activated and joins that gaining 
force command, it could be a Reserve command, it could be an 
Active command, the ability to track where he or she is because 
we all want to know where he or she is, how he or she is doing.
    So, thanks to General Conway's efforts, we have made great 
strides in the last couple of years in coupling together the 
Reserve and Active needs through the full-time family readiness 
program.
    Senator Burris. How about the Navy? Do they get on those 
ships for those 6-month tours and the family doesn't know where 
they are?
    Admiral Debbink. Yes, sir, Senator Burris. I think one of 
the keys to all of this is, of course, we all recognize that we 
recruit a servicemember and we retain a family. You've heard 
that saying before.
    Senator Burris. Absolutely.
    Admiral Debbink. So we need to continuously communicate 
with those family members. We look for ways for doing that, 
whether they're deployed, whether they're back here at home, or 
whether they're on a ship. We have things like Family Days. We 
have a very robust Ombudsman program at all of our units.
    Our Navy Operational Support Centers are located throughout 
the country, and they all know to stay in touch with these 
family members while the members are deployed.
    We also have the program you've heard about before, 
Returning Warrior Workshops, where we incorporate the family 
member when they come back, so you're communicating with them 
before they leave and after they come back as well. Military 
OneSource is a fantastic thing we all have available to us. It 
is being funded, of course, by DOD. Just almost anything you 
could ask for, a family member can get via Military OneSource.
    Finally, I do believe the most important thing we can do 
for family members is ensure each and every one of our 
servicemembers has real and meaningful work to do, so when 
they're deployed, they're gone, they're out doing our work, our 
Nation's work, they call back home, they email back home, they 
maybe can't tell you what they're doing, but they can say, 
``Hey, I'm making a huge difference.'' As long as that's the 
case, the family members have been very, very supportive, sir.
    Senator Burris. Thank you.
    General, how about the Army?
    General Stultz. Yes, sir. Family readiness, family support, 
is critical for us. As Vice Admiral Debbink mentioned, if we 
don't retain the family we don't retain the soldier. We've seen 
what the operational tempo will do in terms of performance. 
I've been there on the battlefield with a soldier who can't 
focus because he has family problems back home. He becomes a 
liability, a liability not only to himself, but also to his 
buddies.
    We have put, as Lieutenant General Bergman said, a lot of 
structure into the Army Reserve. We have hired family readiness 
support assistants, full-time people, because we said we can't 
depend on volunteers. The volunteers are burning out, they're 
getting tired. So we've put full-time structure in there, 
trying to get it down to the battalion level. We're not there 
yet.
    We've reorganized our structure on our family readiness 
programs. It's become a command priority, and it's become a 
command measurement also, because in readiness, we measure unit 
readiness by personnel readiness, by equipment readiness, by 
training readiness. We never measured family readiness. We've 
said we have to put that into the equation because the unit's 
not ready if the family's not ready.
    The last thing I would tell you is, as we've developed what 
we call the Army Force Generation Cycle, the 5-year rotation 
where we bring a unit back from theater, reset the unit, get it 
into training year 1, 2, 3, and then deploy it, that family 
readiness becomes part of that cycle, too, because when you 
come home, you have to reset that family readiness group, then 
you have to rebuild them, and then you have to prepare them so 
that when the unit gets ready to deploy we can check the block 
and say the family readiness group is ready, too, and all the 
families are taken care of.
    The last thing I'll mention, because it is a particular 
issue for me: We can't forget about the kids, the stress on the 
kids. We don't know what's going on in their mind. My wife, 
Laura, and I were down at a kids camp, these Operation Purple 
camps we have for kids of deployed soldiers, sailors, marines, 
and airmen. Great camps. We were down at one at Fort Bragg a 
couple of years ago, talking to the counselor, and he said: 
``You never know what's on their mind. We're sitting there with 
two young kids around a campfire, and one's talking about when 
his dad comes back, they're going to go fishing. The other kid 
looks at him and says: `You mean they come back?' ''
    We don't know what they're thinking, and we can't forget 
about the kids and make sure we're taking care of them also.
    Senator Burris. Absolutely.
    General, the Air Force?
    General Wyatt. Yes, sir. The ANG has been deploying AEF 
rotations since about the mid-1990s. My particular wing in 
Oklahoma, for example, first deployed in 1996 and has deployed 
either in Operation Northern Watch, Operation Southern Watch, 
Operation Enduring Freedom, or Operation Iraqi Freedom, nine 
times. Granted, the deployments aren't as long, but they are 
more frequent. We have a few different challenges than perhaps 
the Army does with different types of deployments.
    We're seeing also with some of our reachback capabilities, 
some of our Predator operators, and some of the people who 
provide the information processing, that they'll go to work at 
an ANG base one day, work 8 hours, see some things that most 
Americans don't see, and then go home to the wife and kids. It 
poses or it presents a different challenge.
    The adjutants general tell me that they recognize that 
there are different challenges with the Services, and they need 
to have programs that consider the equities of the Services, 
but they would also like to integrate and leverage the 
capabilities of different programs that are provided by our 
parent Services. To that extent, I think we are in the process 
of working extremely well with the ARNG to lash our two 
programs up so that they complement one another.
    We could use some help, at least the ANG could, in our 
joint force headquarters manning to help facilitate that. But 
we have, for example, one program, the Yellow Ribbon program, 
that has been mentioned before. Reintegration, I think, might 
be a misnomer because I consider it more of an integration; 
it's not just after the deployment. It starts, actually, 
before. An outreach program to the families, the member, the 
kids, to teach them about the programs that are available to 
them to handle all the different challenges that they might 
face and to facilitate access to those programs that are out 
there. Strong Bonds marriage seminars is another.
    It's getting better. I remember back in the days when we 
first started deploying, we had one family support person who 
did all of the work for the entire wing and it was a wait-and-
see-what-developed approach, as opposed to what it is today, 
which is an active outreach program to reach out and touch our 
families and help them through the process.
    Senator Burris. General, do you have any other comments on 
the Army's situation?
    General Wyatt. Senator Burris, I would mirror several of 
the comments here. A couple of things. One is the ARNG manages 
325 family assistance centers by charter throughout the United 
States. Now, that's Air and Army, Navy, Marines, everybody who 
walks in. That's 2.2 million inquiries. Now, that just gets at 
the issues that are out there.
    I think one of the most powerful things that has come out 
of the conflicts that we're in is the power of the family 
readiness groups. Every unit, every deploying unit, has them. 
Now, when you look at the soft spot in what's wrong with our 
organization, we identified something here: the people that 
aren't served by that are the cross-level soldiers, the ones 
that are coming in there from different units, that the 
families are way away from those tight-knit communities.
    So when we looked at that, we said, ``the way to get at 
this family readiness problem and the family issue, so that we 
have the families with their arms all the way around everybody 
and know everybody, is to bring more unit cohesion to our 
organizations.'' That's why we're all about readiness, we're 
all about getting our strength as high as we can in trained 
soldiers, and not cross-leveling, and getting all that out of 
the way because it actually empowers family readiness groups 
because they can get their arms around everybody. So that's 
what we've done. Thanks for the great question.
    Senator Burris. Mr. Chairman, I was out at Walter Reed 
Hospital last Friday, and this is neither a Reserve nor a 
National Guard issue, but I was interviewing some of the 
warriors that were being treated at Walter Reed. I came into 
the room of this young warrior from Illinois. He was being 
discharged, and I asked him: ``Son, what are you going to do?''
    You know what he told me? He said: ``Senator, I'm trying to 
figure out how in the hell I can get back to my unit in Iraq.'' 
I looked at that kid and I almost broke down in tears, because 
he was getting out of his bed with a prosthesis, talking about 
he wanted to go back to be with his unit. You guys are training 
those young men to defend us. God bless you.
    Thank you.
    Senator Ben Nelson. Thank you, Senator. Thank you.
    General Wyatt, it's my understanding that under the auspice 
of Total Force Integration (TFI), the Air Force is now 
considering transfer of priority missions that align with the 
traditional Guard construct to the ANG, thus enabling the Air 
Force to reallocate those freed Active Duty resources to 
missions requiring higher full-time manning.
    I support operationalizing the Total Force, and I want to 
make sure this is done, but I also want to preserve your 
ability to perform the homeland defense and civil support 
missions. Maybe you can give some examples of TFI missions that 
have been assigned to the ANG and in the process of having 
those reassignments have you received the necessary resources 
to see them through so that they don't in some way diminish 
your other resources?
    General Wyatt. Thank you, Senator. Great question, and 
you're right on target.
    The ANG is working with General Stenner, Air Force Reserve, 
and the Air Force Active Duty airmen to identify those 
capabilities that the U.S. Air Force needs that would be ideal 
situations for associations.
    You're very aware of probably one of the greatest 
association examples in your cryptolinguist unit there in 
Nebraska. But you're also aware, because of that association, 
that sometimes we're not properly resourced, even though that's 
a great example of how a guardsman can associate with an Active 
Duty member force structure to provide the capability that this 
country needs.
    Each of the three components has strengths that can be 
leveraged to make us even stronger. We also have some 
weaknesses that, if we can avoid through these associations or 
at least minimize, we can provide more capability to the 
country. We're looking at just about every mission that the 
U.S. Air Force wants to get into, we're looking at ways to 
associate. We're looking at the high operations tempo missions 
that the Air Force is more suited to take because of their 
full-time force, but also associating guardsmen in there to 
provide the surge capability that particular unit might need.
    The Air Force Reserve is doing the same thing. We have 
different types of associations that we're looking at, the 
classic association which originally started with Air Force 
owning the platform, and the Reserve component going to the 
Active Duty. But we see Active associations now where the force 
structure is coming the other way.
    We sometimes get caught up, I think wrongly so, in arguing 
over who owns the capability and because an Active Duty 
component may own the capability that the association should 
take place on an Active Duty base. I think we need to consider 
things like ability to recruit to that particular mission, the 
demographics, the type of mission it is, the particular mission 
design series or the weapons system that we're talking about, 
and then take a look at the different association constructs 
and see which one fits a particular situation better.
    We're investigating a new construct called an Embedded 
Associate, that may offer opportunities to take TFI to the next 
step. I think you're aware that Secretary Donnelly has 
encouraged us, through his TFI-2, to continue working together, 
and I'm proud to say that we're partnering up with my good 
friend Lieutenant General Charlie Stenner, Air Force Reserve, 
and the Active Duty to do exactly that, sir.
    Senator Ben Nelson. Are there any examples of what you 
could do on a TFI mission, if you had greater end strength or 
additional resources that could be put together?
    General Wyatt. Yes, sir. The demand far exceeds the supply. 
The Air Force brought its manpower down and is in the process 
of bringing it back up. I think General Stenner is adding 
4,000-plus to his end strength after having taken his force 
down a few years ago.
    The adjutants' general counsel to the Air Guard was: Don't 
take your manpower down (a few years ago) but take your risk in 
a reduction of our flying hour program, and we did that. But if 
you take a look at the missions that the ANG has already 
accepted from the U.S. Air Force, and the validated required 
manpower needed to perform those missions, we are 2,228 
positions short of what we need.
    That doesn't count the need for air guardsmen to populate 
our joint force headquarters, and it doesn't count all the 
other missions that the Active Duty Air Force is asking the 
Guard and the Reserve to consider. So if the Air Force wants us 
to do these missions, we'll be happy to do it. Our recruiting 
vector is going in the direction that would allow us to recruit 
to those, but we need appropriate resourcing if that's the call 
that will be made by our senior Air Force and Nation's 
leadership.
    Senator Ben Nelson. I certainly agree with you, and I hope 
that as these opportunities are there, and if they do in fact 
increase, that everyone will make us aware of the need to add 
the resources, the end strength, and/or the financial 
resources, to make sure that they happen so we don't end up 
with a cryptolinguist situation where, great idea, just not 
resourced, and therefore a missed opportunity.
    General Wyatt. You're exactly right, sir. At last count, we 
had 136 TFIs that were still pending work with the Active Duty 
and the Reserve. The ANG is involved in 94 of those, so we're 
extremely interested in participating in TFI, but when it 
drives an additional manpower requirement, we would ask to be 
appropriately resourced if that's the direction the Air Force 
wants to go.
    Senator Ben Nelson. As you should. So if you will keep us 
aware of that, that would be very helpful. We'd be more than 
willing to assist and take that into consideration.
    To the other witnesses today: Have you experienced similar 
issues with assignments or consideration of additional missions 
that you might have engaged in if you'd had the resources, 
either the end strength or the financial resources to be able 
to do so? Let's see, yours is a little different, Admiral May, 
but are you running into some things like that?
    Admiral May. Yes, sir, Mr. Chairman. I think that's the 
biggest thing we struggle with each and every day, both on the 
Active Duty side of the Coast Guard and on the Reserve side. 
It's our limited capacity. If you look at the Active Duty 
component, it's about a 41,000 force. The Reserve component is 
about 8,100. So, combined, you're looking at a total force of 
less than 50,000. That's about the size of the New York City 
Police Department, and we have a worldwide mission.
    So we're only limited by our capacity, and certainly if 
there was an opportunity there, we could certainly provide 
greater service to this Nation if we had additional forces, 
yes, sir.
    Senator Ben Nelson. With the concern we have about port 
security and other needs to secure our borders, oceanfront 
property, as well as landlocked locations, certainly it makes a 
lot of sense to be certain we have adequate resources for your 
missions.
    Admiral May. Yes, sir.
    Senator Ben Nelson. Thank you.
    General Bergman?
    General Bergman. The short answer, sir, is no, we haven't 
seen anything significant, whether it be on the potential 
addition of missions or the need for manpower. But we must be 
very mindful of--and General Conway has discussed this in his 
vision and strategy for 2025--the need for the sustainable 
Reserve with the skill sets that the Marine Corps requires. I 
would suggest to you that, as we deploy worldwide, some of the 
skillsets in the Marine Corps Reserve are available because 
these marines, largely senior Marine Reserves, have acquired a 
combination of Marine Corps leadership traits and civilian 
occupation skill sets which provide a very unique and very 
positive blend for some of the places we go.
    Senator Ben Nelson. Admiral Debbink?
    Admiral Debbink. Yes, sir, Mr. Chairman. We talked, of 
course, about there being Navy capabilities, and then the 
question is how best to source those, either with the Active 
component or the Reserve component. This is where the really 
hard work is going on. One example is our Navy Expeditionary 
Combat Command down in Norfolk, which is presently 51 percent 
Reserve component and 49 percent Active component. It seems to 
be working okay right now during the current overseas 
contingencies, but what about later on and what about post this 
period? What's the right mix?
    Those are very difficult questions to answer. We're doing 
the analytics on that question right now. That analysis will 
drive the real solution as to where those capabilities exist on 
the Active component or Reserve component. So it's hard work, 
but we're hard at it.
    Senator Ben Nelson. Thank you.
    General Stultz?
    General Stultz. I get asked every day by the Army to do 
more. If you'd have asked me 3 years ago when our end strength 
was at 20,000 below what we were authorized, we would have 
probably said we couldn't take on any more. Today, we're 500 
short of what our authorized end strength should be, so we're 
growing at a great rate.
    I think there is more we can do. Yes, sir. I just came back 
from a trip to European Command in Stuttgart, Germany, and 
Africa Command, at their request, specifically, because they're 
looking at the same thing we do down in Southern Command 
regarding security cooperation partnership-type programs for 
medical readiness and engineering missions. We're doing things 
in Africa already, building schools, building roads, drilling 
wells, those kind of things that they say--within the Reserve 
components, Guard and Reserve--you guys have the civilian 
skills that blend nicely with this, and they're not long-term 
missions. In a lot of cases, it's 3 months or 4 months of work. 
Can you do more? Can you take these on because the Active Force 
is committed to Afghanistan or Iraq, and we can't get any 
resourcing for these types of exercises?
    We could do more if we had more to work with. Likewise, 
when the Army was given the go-ahead to grow to 547,000, which 
was an increase of 65,000 over 482,000 that they originally 
had, what we saw happening out there was that everybody thought 
they had something of a blank check. So a lot of these Army 
units that were at one time a multiple component unit, split 
between Reserve and Active, the Army came to us and said: 
``We're just going to go Active pure; we don't need the Reserve 
anymore because we're growing. So you go ahead, take your 
structure, and grow something else,'' which we did.
    We grew 16,000 additional military police, transportation 
experts, engineers, and medical personnel in the Army Reserve. 
Now the Army's coming back to us and saying: ``Just kidding; we 
really do need you in these multiple component units.'' We've 
said: ``But we've already committed the spaces. So, if you're 
going to ask us to fill out these Active component units now as 
multiple component headquarters, you have to give us more 
strength at the end.''
    So I think there is a lot more we can do. As I led off 
with, we are a great return on investment, as are all the 
Reserve components. We're limited in terms of end strength and 
capability.
    Senator Ben Nelson. General Vaughn?
    General Vaughn. Sir, we take on every mission that's out 
there, and we don't turn any down. It's those that we can't see 
that really disturb us. We are on track in our surge to be a 
great at-the-ready organization. We need to keep the equipment 
thing flowing like it is, get our full-time support piece that 
you've helped us with in the appropriate numbers, and it's 
probably getting there now.
    The issue that we have in front of us for the Army Guard is 
that, today, we stand at 368,000. It's about 16,000 over the 
appropriated strength, but about 10,000 over the language that 
was in the supplemental. We don't have the money, and we're 
going to have to pull back towards that 358,000.
    But I will tell you this: It's going to be healthy for us, 
because we have two problems. We have a dinosaur of a Cold War 
era relic in the way that we man up our Force. We take 
individuals in that want to be soldiers, but that are not yet 
soldiers, and swear them in at day 1. This is 60 years old, the 
nearest that I can see.
    Now, those soldiers count against our spaces. On the Active 
side, they only count those folks that are really soldiers. 
We're going to convert into a system just like the Active Army 
does over the next 8 months. I think we're going to get there. 
Then my successor's going to come back and ask for an end 
strength increase because we also need an over strength account 
to take care of those that are in training, just exactly like 
the Active Army has. This will then have you exactly postured 
to where, when you ask the Guard to do something, you can rest 
assured they're not going to have to cross-level a bunch of 
folks to do it, and they're going to go and do it.
    So, we just have to keep it on the rails that we're on 
right now. I think we're going to have to look at a strength 
increase at some point in time for this training account, or 
we're going to have to reduce some force structure to get the 
readiness we need.
    Senator Ben Nelson. I think it's important that you do that 
and get into that position because it's easy to predict that 
we're going to be needing some help along the southern border 
with the drug war. It's war nevertheless, no matter what it may 
consist of. It would not be surprising if you were asked to 
take some role in helping quell the violence along that border; 
that is almost certainly going to happen soon.
    I've asked all the questions I have, but I may not have 
asked all the questions I should have. So I ask, is there 
anything that I haven't asked you that I should have or 
anything that we've left out that you'd like to comment on? I 
won't be embarrassed for not having asked something I should 
have if you add anything to it.
    Have I missed anything?
    [No response.]
    Senator Ben Nelson. We, as a committee, appreciate very 
much your involvement. Thank you for being here at this hearing 
today. There's a great deal of interest in these subjects and 
we want to get it right, and we want to make sure you receive 
whatever you need. You know that there's a place to come, tell 
us, ask for it, and we'll work with you to get it accomplished. 
It's too important not to.
    May God bless you. May God bless the men and women under 
your command and all those who wear our uniform all over the 
world.
    Thank you very much.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                  yellow ribbon reintegration program
    1. Senator Akaka. Secretary Hall, in my own State of Hawaii, over 
5,000 members of the National Guard and Reserve have deployed in 
support of Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF). Because of Hawaii's geographically separated environment, it 
complicates outreach efforts to these National Guard and Reserve 
members before, during, and after deployments. I'm encouraged that the 
Yellow Ribbon Reintegration Program (YRRP) will go a long way in 
addressing this issue. How would you assess the YRRP's impact on Guard 
and Reserve members that are geographically separated from military 
installations?
    Mr. Hall. The Department of Defense (DOD) YRRP events provide 
National Guard and Reserve members and their families with information, 
services, referrals, and proactive outreach opportunities throughout 
the entire deployment cycle. While some events are held at National 
Guard and Reserve component installations, we usually use non-military 
facilities to provide events in geographically centric locations for 
Reserve component members and their families, which negates most, if 
not all, YRRP accessibility issues that might occur by holding YRRP 
events at remotely situated military installations. Prior to the 
establishment of the DOD YRRP, the Services' Reserve components (Army 
National Guard, Army Reserve, Navy Reserve, Marine Corps Reserve, Air 
National Guard, and Air Force Reserve) used Service programs to meet 
the intent and requirement of the program. DOD is working with all 
Services, both Active and Reserve components, to create standardized 
programs that combine the best practices of each Service to better 
support servicemembers and their families. The impact of the DOD YRRP 
enables the components to deliver conveniently located, effective, 
timely, and standardized support to servicemembers and their families 
throughout the entire deployment cycle regardless of Service 
affiliation or unit location. This will assist commanders in ensuring 
the highest possible readiness of their units and the health and well-
being for our entire DOD military community.
    As this is the first year of implementation for the YRRP, we are 
working to ensure that the program can be tailored effectively to meet 
local needs. We are particularly sensitive to the difficulties we may 
encounter in establishing the program in geographically challenged 
areas such as in Hawaii and Alaska. The advisory board created by the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008, section 
582, will provide an initial report to the Armed Service Committees on 
September 11, 2009, which will assess our progress. The report is to 
cover an evaluation of the implementation, an assessment of resource 
requirements, and any recommendations they deem necessary to ensure the 
YRRP maintains ``closer coordination with the State National Guard and 
Reserves.''

             commission on the national guard and reserves
    2. Senator Akaka. Secretary Hall, the Commission on the National 
Guard and Reserves recommended ``. . . DOD should be prepared to 
provide the bulk of the response to a major catastrophe that 
incapacitates civilian government over a substantial geographic area 
and that DOD should initiate the necessary planning, training, and 
coordination for such events.'' In my State of Hawaii, this is of 
particular interest to me because of our location. From the information 
your office has received to this date, what recommendation(s) would you 
make to current policy to address any planning or training shortfalls 
to prepare DOD for an incapacitating catastrophe?
    Mr. Hall. Based on this recommendation of the Commission on the 
National Guard and Reserves, the Secretary of Defense, in a November 
24, 2008, memorandum, directed the Chairman of the Joint Chiefs of 
Staff, in consultation with the Department of Homeland Security and 
other Federal agencies, and representatives of State and local 
officials as appropriate, to assess U.S. Pacific Command, U.S. Northern 
Command, and National Guard Bureau plans to determine their adequacy to 
meet the demands of an incapacitating catastrophe.
    In addition, there are two significant planning efforts ongoing at 
the Federal and State level. On December 3, 2007, the President issued 
Annex I (``National Planning'') to Homeland Security Presidential 
Directive-8 (``National Preparedness''). Annex I required the Secretary 
of the Department of Homeland Security (DHS), in coordination with the 
heads of Federal agencies with a role in homeland security, to develop 
interagency plans for each of the 15 national planning scenarios and 
for the head of each Federal agency with a role in homeland security to 
develop an operations plan to execute the roles and responsibilities 
assigned in the interagency plans.
    At the State level, last October, the Federal Emergency Management 
Agency, in partnership with DOD and State Governors, began the Task 
Force for Emergency Readiness (TFER) initiative. A TFER is a planning 
activity, operating under the authority and direction of a Governor, 
supported by the Secretary of DHS and the Secretary of DOD and 
augmented by the expertise of the National Guard, that is intended to: 
(a) support participating States' Hazard Identification and Risk 
Assessment processes to identify threats/hazards, vulnerabilities, and 
consequences; (b) develop State operations plans for the national 
planning scenarios; (c) synchronize and integrate, as appropriate, 
State operations plans with Federal operations plans for the national 
planning scenarios; (d) synchronize and integrate such State operations 
plans with those of other States; (e) support the use of State 
operations plans for training and exercises consistent with section 648 
of the Post-Katrina Emergency Management Reform Act of 2006 (6 U.S.C. 
section 748); and (f) support State efforts to monitor and improve 
their operational readiness consistent with the national preparedness 
system required by sections 641-647 of the Post-Katrina Emergency 
Management Reform Act of 2006 (6 U.S.C. sections 741-747). Currently, a 
five State TFER pilot program is underway in Hawaii, Massachusetts, 
South Carolina, Washington, and West Virginia. In the future, DOD hopes 
to see a TFER established and planned in every State. With a TFER in 
every State, we will have taken a revolutionary step in moving beyond 
asking questions about needed capabilities and resources, proper 
response actions, and responder readiness to actually having answers.

                               retention
    3. Senator Akaka. Lieutenant General Vaughn, Lieutenant General 
Wyatt, Lieutenant General Stultz, Vice Admiral Debbink, Lieutenant 
General Bergman, Lieutenant General Stenner, and Rear Admiral May, 
during the hearing, Secretary Hall mentioned the remarkable 111 percent 
recruitment rate of the National Guard and Reserve. I applaud the 
efforts of Secretary Hall's office and the Services for accomplishing 
this level of success during a time of war. In your opinion, what are 
the most critical programs available to your Service that will retain 
our servicemembers?
    General Vaughn. The strength of the ARNG is in communities, 
service, and belonging to a proud organization. In addition to that 
basic reason for serving, the pay, retirement benefits, vacation, and 
travel savings, and other related benefits of service, to include 
Veteran's preference in hiring and housing loans, are great motivators 
for our citizen soldiers.
    Currently there are several programs being utilized to retain 
soldiers in the ARNG. These programs help to keep quality soldiers in 
our organization. The following are some of the programs that have been 
proven to be effective:
    The Extend to Defend program recognizes the soldier and spouse with 
a certificate and other awards of appreciation when the soldier extends 
his/her service. The awards presented vary based on the length of time 
the soldier has served. The Bronze Level recognizes soldiers with 1 to 
9 years of service, the Silver Level represents 10 to 14 years and the 
Gold Level is 15 to 20 years. The recognition of years of service 
rendered by the soldier and family has been very successful, especially 
since families are rarely recognized for their selfless support.
    TRICARE and dental benefits that are now offered to National Guard 
soldiers are instrumental not only in readiness, but in retention as 
well. These affordable and convenient programs are excellent benefits, 
and in today's economy this has been a strong retention tool to many 
people who may otherwise be uninsured.
    Reenlistment bonuses have been a staple of the ARNG. These bonuses 
retain quality soldiers by means of extra income which could be used 
for a home, car, bills, et cetera. Retention bonuses have been used for 
many years by the military to retain top quality soldiers and help the 
ARNG retain strong, qualified individuals.
    Lieutenant General Wyatt. In the Air National Guard, the most 
critical programs for retention are: the Montgomery GI Bill, 
Reenlistment Critical Skill Bonus, Residency Stipend, Health 
Professional Critical Skill Bonus, Family Readiness Program, Yellow 
Ribbon/Hometown Heroes and TRICARE.
    Lieutenant General Stultz. The following are Army Reserve critical 
programs. These programs will provide the maximum benefit to soldiers 
and their families.
Reenlistment Bonuses
    The Army Reserve will most likely meet its end strength objective 
of 205,000 this year. However, a strength imbalance currently exists 
within some grades and career specialties. It is critical that we 
sustain the flexibility to offer monetary and non-monetary incentives 
to continue to recruit and retain the best and brightest soldiers. We 
must retain maximum flexibility to quickly tailor incentives to manage 
the force. Additionally, TRICARE Reserve Select (TRS) and all education 
benefits, including tuition assistance (TA), have proven to be very 
valuable resources in retention efforts, especially in challenging 
economic conditions. Finally, we must sustain the flexibility to offer 
incentives such as the Critical Skills Retention Bonus, targeted to 
specific grades and specialties, to manage and shape the force.
Education Benefits
    The Army Reserve TA Program, the Montgomery GI Bill-Selected 
Reserve (MGIB-SR), and the Reserve Educational Assistance Program 
(REAP) have all been directly related to retaining quality Army Reserve 
soldiers. TA is available for voluntary off-duty education and pays up 
to $250 per semester hour with a maximum of $4,500 per fiscal year. A 
Reserve soldier must be actively attending battle assemblies as a 
satisfactory participant in order to use TA. To qualify for the MGIB-
SR, a soldier must have a 6-year obligation to serve in the Selected 
Reserve after June 30, 1985. Servicemembers may be entitled to receive 
up to 36 months of MGIB-SR benefits. The REAP makes certain soldiers 
eligible who were called or ordered to Active Duty in response to a war 
or a contingency operation for at least 90 days or more after September 
11, 2001. They may be eligible to receive up to 36 months of REAP 
benefits depending on length of service. Both the MGIB-SR and REAP can 
be combined with TA.
Retirement System
    First, the Army Reserve retirement system helps provide a sense of 
closure for those who have selflessly dedicated so many years of their 
lives to the defense of and service to our country, often at great 
personal sacrifice to themselves and their families. Additionally, it 
provides a very important and valuable incentive to servicemembers to 
continue service to 20 years. Retirement eligibility following 20 years 
of service in the Army Reserve remains one of the most effective 
incentives to promote retention and continued service. Since fiscal 
year 2003, over 36,000 Army Reserve soldiers and families have retired. 
When treated with dignity and respect, each of them can become a future 
recruiter for the Army Reserve. Second, changing the Reserve component 
servicemember retirement eligibility age to less than 60 for Active 
Duty mobilization tours in support of OEF can be a longer-term 
retention factor for both the soldier and their families. This change 
also could potentially equalize retirement benefits across the Federal 
Government while giving soldiers a tangible reason to continue to 
serve.
Health Care TRICARE Reserve Select
    TRS provides health care coverage and prescription medications for 
our soldiers and their families. It is a flexible, premium-based 
system, available to our soldiers serving in a Select Reserve status.
    TRS provides an excellent benefit for our soldiers and families who 
may not be offered a health care plan through their employers, or who 
have a plan with higher costs. It also provides an opportunity for 
seamless health care coverage as our soldiers are called to Active Duty 
and return to Select Reserve status.
Employer Partnership Initiative
    The Army Reserve is implementing leading-edge employer relations 
programs that promote a continuum of service, sustain soldiers' well-
being during mobilization periods, and provide career-enhancing 
employment opportunities. This partnership initiative benefits 
employers by referring highly qualified, competent, and disciplined 
soldiers to work within their communities. This collaboration builds 
new capabilities to compliment both military and civilian skills. The 
employers and the Army Reserve share the same talent pool. Partnering 
with industry for a shared workforce helps to ensure success in better 
qualified soldiers/employees and it facilitates a longer-term 
relationship as the soldier cycles through training opportunities, 
tours of duty, and reintegration.
    Admiral Debbink. There are several critical factors and programs 
that influence sailors' decisions to ``Stay Navy'' and facilitate the 
retention of top performing Selected Reserve sailors.
    At the tactical level, our affiliation and retention bonus 
programs, targeted at specific year groups, communities, and critical 
wartime specialties, remain essential to retaining the right people for 
the right job. Reserve bonuses are critical to our ability to target 
sailors in undermanned ratings and critical skills.
    Additionally, drill pay, which provides Selected Reserve sailors a 
source of competitive monthly income that augments their overall 
earnings, a robust retirement plan that offers a monthly annuity 
adjusted for inflation, and access to comprehensive quality health-
care, continue to provide unique and unparalleled financial and medical 
security and stability for Reserve component sailors and their 
families.
    Also key to Reserve component retention success, at all pay-grades, 
is that we provide sailors with meaningful work that allows them to see 
the results of their efforts and how that contributes to mission 
success. During a recent visit to the Central Command Area of 
Responsibility, as I spoke with many Reserve component sailors, I 
observed first-hand their high levels of motivation and heard of their 
continued desire to serve.
    Among our highest priorities is to recruit and retain the best and 
brightest sailors so we can continue to deliver full-time excellence 
through part-time and full-time service that enhances the Navy Total 
Force, now and in the future. These programs and initiatives contribute 
significantly to the success we are having in achieving this vital 
goal.
    General Bergman. The Reserve incentives that are currently offered 
under title 37 U.S.C. and the NDAA are critical to continuing to access 
and retain both our Reserve officer corps and our Reserve enlisted 
marines. Funding of these programs is essential. The various incentives 
provide flexibility and options for the servicemember to consider while 
giving the service level headquarters the ability to target certain 
critical skills, as needed. Programs in question are:
Officer Programs

         The Selected Marine Corps Reserve (SMCR) Officer Education 
        Loan Repayment Program that provides up to $30,000 for college 
        loan repayments for officers that affiliate and continue to 
        participate in the SMCR.
         The Officer Accession Incentive that offers $4,000 to 
        infantry officers who affiliate and continue to participate for 
        at least 4 years with the SMCR.
         The Officer Affiliation Bonus that pays a $10,000 lump sum 
        payment for company grade officers and those majors that are 
        naval aviators for a 3-year affiliation with an SMCR unit.
         The Transition Affiliation Bonus (TAB) that provides for a 
        $3,500 lump sum payment for those Active component company 
        grade officers that affiliate with the SMCR for 3 years. The 
        TAB is also available to Active component naval aviators who 
        affiliate with the SMCR for 3 years.

Enlisted Programs

         The SMCR Enlistment Bonus provides a $20,000 lump sum payment 
        to enlisted marines with critical skills who enlist for a 
        standard 6 <greek-e> 2 obligation.
         The SMCR Reenlistment Bonus provides a $15,000 lump sum 
        payment to enlisted marines with critical skills that reenlist 
        and serve a minimum 3-year obligation with the SMCR.
         The SMCR Enlisted Affiliation Bonus provides a $15,000 lump 
        sum payment to Active component marines who affiliate with the 
        SMCR for a 3-year commitment upon their EAS from Active 
        service.
         The MGIB-SR Kicker provides up to $350 a month for up to 36 
        months of full time enrollment for those SMCR marines with 
        critical skills who commit to a standard 6 <greek-e> 2 
        obligation to the SMCR.
         The Active Reserve Enlisted Affiliation Bonus provides a 
        $15,000 lump sum payment to marines with a critical skill that 
        joins the Active Reserve for a 3-year obligation.
         The Active Reserve Reenlistment Bonus provides a $15,000 lump 
        sum for those Active Reserve marines with a critical skill that 
        reenlist for at least a 3-year obligation.

    General Stenner. Congress continues to provide the Air Force 
Reserve with the tools necessary to improve retention rates among our 
career airmen. In recent years, the list of notable retention tools has 
grown to include retention bonuses for our hard-to-fill critical 
skills, the post-September 11 GI Bill, reduced TRICARE premiums, 
reduced age retirement pay eligibility, in-active duty travel pay, and 
the YRRP. Predictable deployment and mobilization schedules are 
additional tools we use to aid our retention efforts. Having the 
ability to inform our reservists, in advance, when they are vulnerable 
for deployment allows us to take care of the all important Reserve 
Triad: the reservist; the family; and the civilian employer.
    With the assistance of this committee, the Air Force Reserve has 
expended a great deal of time and effort in developing recruitment and 
retention programs that attract and keep the talented citizen airmen 
that are this country's great strength. In our efforts to do so, we 
remain cognizant of our capacity to integrate with the Regular Air 
Force and Air National Guard, and our role as a force provider in 
support of the joint warfighter. To that end, we gain from the civilian 
skills, capabilities, and experience that our citizen airmen provide 
and match those attributes with requirements developed from the mission 
areas of the Air Force. We retain talented airmen by providing them 
with meaningful service in relevant and vital mission areas. As the Air 
Force evolves to assume emerging missions, the Air Force Reserve will 
evolve with it.
    Admiral May. Since September 11, 2001, the retention rates in the 
Coast Guard Reserve have remained relatively high, ranging from 87 to 
89 percent, in spite of a significant increase in the operational tempo 
of our Reserve Forces. I feel this is directly related to the many 
benefits we continue to provide our servicemembers and continually 
strive to improve, such as TRS, dental coverage, and TA programs.
    We have also answered some of their concerns about the increase in 
operational tempo by providing clear mobilization and dwell-time 
expectations in the utilization of the Total Force so our reservists, 
their families, and employers have the planning factors and stability 
required to balance their civilian career, family, and service in the 
Reserves. Most importantly, the high retention rate is a testament to 
our servicemembers' dedication and loyalty to our Coast Guard missions 
and our country.

    4. Senator Akaka. Lieutenant General Vaughn, Lieutenant General 
Wyatt, Lieutenant General Stultz, Vice Admiral Debbink, Lieutenant 
General Bergman, Lieutenant General Stenner, and Rear Admiral May, what 
initiatives/programs do you recommend implementing to assist with 
retention efforts?
    General Vaughn. The following initiatives assist with retention: 
funding for soldiers to attend military schools as part of the 
retention effort has a substantial impact on ARNG retention. The 
benefits to the Guard would be substantial savings over traditional 
bonuses, a better trained force, and improved morale. The ARNG is 
currently using Air Assault School as an incentive template of how such 
retention efforts could work.
    Educational benefits motivate many applicants to enlist in the 
ARNG. As our soldiers grow in their careers, advanced degrees and 
certifications progress them in position and income.
    Education programs focused on our mid-grade NCOs and officers 
benefit both their civilian employer and their military employer. 
Currently, the ARNG is working with the United States Border Patrol for 
the benefit of both organizations. This partnership allows soldiers the 
opportunity to gain full time employment with the Border Patrol upon 
enlisting into the ARNG. Implementing this as a retention tool helps 
retain soldiers as they see full-time employment opportunities 
available to them.
    Similar to the Border Patrol partnership is the Drive the Guard 
program. This program offers the soldier training as a commercial truck 
driver that will lead to a Commercial Drivers License. Once the soldier 
has completed the training he is guaranteed a job with a trucking 
company, arranged by our partners in this program. This program is not 
only a recruiting program, but can be used as a retention program as 
the ARNG is helping members enter a civilian career field that offers 
future growth and benefits. Additional funding would allow more new and 
existing ARNG soldiers to begin careers as truck drivers and remain 
active members of the ARNG.
    Recognizing the spouse and families sacrifice is also imperative to 
retention. Providing family strengthening experiences in appropriate 
settings which demonstrate our Nation's gratitude to soldiers and 
families will increase family support for ARNG membership.
    General Wyatt. Our Air National Guard incentive program is a 
critical component in our recruiting and retention efforts and serves 
to motivate and support manning requirements in units with skills that 
are severely or chronically undermanned. It is established to encourage 
the reenlistment of qualified and experienced personnel. The Air 
National Guard saves on average $62,000 in training cost for every 
qualified member we retain or recruit.
    We believe reenlistment and affiliation bonuses would encourage 
members to retrain into critical skill areas such as chaplains and 
health professionals. While we do have the authorization to offer these 
bonuses, we lack the flexibility within our current budget to fund many 
of them. Further, we need changes to the cumbersome program 
requirements and process for paying student, chaplain, and health 
professional loans. These requirements and processes are impeding our 
retention efforts in these critically needed areas. Finally, offering 
Federal TA for Air National Guard members in Title 32 status would also 
enhance our retention efforts.
    General Stultz. The Army Reserve is in the process of developing a 
strategy to transform the Full-Time Support (FTS) at the unit level 
which will better support readiness and mobilization of Army Reserve 
units on a continual basis. Evolving the FTS program requires 
addressing: Active-Reserve soldier staffing (AGRs); Army civilians; 
contractors; and unit members on orders beyond their statutory 39 
training days per year. Currently, there are three studies underway to 
quantify FTS issues and inform policymakers. One study is determining 
the adequacy of FTS billets across the Reserve components. Another 
study is providing a ``capabilities and competencies'' analysis of FTS 
across the Army Reserve. The third is examining the use of dual status 
military technicians within the Army Reserve. These studies will lead 
to the development of a capabilities-based FTS solution for the 
operational demands in support of Army Force Generation.
    Admiral Debbink. I appreciate Congress' foresight and concern for 
the retention of our Reserve servicemembers, and I'd like to thank 
Congress for the authorizations of these retention bonus initiatives to 
date. Continued congressional support for flexible special and 
incentive pays, which allows us to target specific year groups, 
communities, and critical wartime specialties remain vital to our 
ability to recruit and retain the right people for the right job 
through the most cost effective means. These authorities are critical 
force shaping tools to retain sailors in undermanned ratings and 
critical skill areas.
    Additionally, your continued support for development of flexible 
and responsive policies, processes, and systems that support 
``Continuum of Service'' and ``Sailor for Life'' initiatives will ease 
the burdens of service for Reserve sailors and their families, while 
helping us provide a favorable life/work balance for all who serve. 
Initiatives, such as the recently enacted post-September 11 GI Bill and 
Early Retirement Credit for Active Duty service, enhance our ability to 
recruit high quality sailors and to retain them and their families for 
life.
    Reserve component retention rates among both officer and enlisted 
remain high, while attrition rates remain at historic lows. In fiscal 
year 2008, attrition rates were approximately 25 percent for enlisted 
and 15 percent among officers, contrasted with historical averages of 
approximately 29 percent and 19 percent, respectively. Additionally, we 
are continuing to judiciously apply force shaping tools to maximize 
``Fit,'' while targeting the optimal number of prior service enlisted 
accessions to comply with budgetary and strength controls.
    Congress' continued legislative support of these programs and 
initiatives provide us with the necessary tools to retain our best and 
the brightest sailors, as part of the Navy Total Force.
    General Bergman. The key to any retention effort is retaining 
quality Career Retention Specialists throughout the Marine Corps, not 
only the Reserves, and providing them with the tools to encourage 
marines to consider making a career out of the military. Targeting 
programs to retain/expand the Career Retention Specialist Force would 
ultimately benefit the Marine Corps and more importantly the individual 
marine. This would enable every marine the opportunity to explore more 
fully career opportunities available to them.
    General Stenner. This committee's support of family support 
programs such as the YRRP, retention bonuses for our hard-to-fill 
critical skills, affordable TRS, and reduced age retirement 
eligibility, is essential to our retention efforts. While this list is 
not all inclusive, we believe there are additional tools that would 
help to increase retention rates. For example, identifying avenues to 
reduce the age for collecting Reserve retirement pay would be another 
great incentive to help us keep our experienced career airmen. We 
routinely hear of incidents where members of the Millennial generation, 
born in the 1980s, are not willing to serve over 20 years then have to 
wait an additional 10 years to receive a reduced annuity as compared to 
the Active component. We believe it would be beneficial if the 
mandatory age for collecting retirement pay was lowered. Additionally, 
medical coverage after retirement is a priority for the care of our 
members and their families. Providing the option of purchasing TRS 
beyond retirement should also increase retention.
    Admiral May. Since September 11, 2001, the retention rates in the 
Coast Guard Reserve have remained relatively high, ranging from 87 to 
89 percent, while the operational tempo and demands on our Reserve 
Forces have significantly increased. Although retention rates remain 
within our goal, we continue to analyze the use of reenlistment bonuses 
to incentivize servicemembers with critical skill sets at pay grades 
with a shortfall to stay past their initial obligations. The many 
existing benefits, combined with new benefits such as the post-
September 11 GI Bill and reduced premium TRS continue to assist in the 
improvement of our high retention.
    Additionally, within the Coast Guards modernization effort, we are 
reprogramming senior enlisted billets where best positioned to mentor 
junior enlisted reservists and strengthen participation and training 
plans. This senior enlisted cadre will provide expertise, oversight, 
and leadership at the field level, giving junior Reserve servicemembers 
guidance for a successful career and ensure more effective and 
efficient training of our integrated workforce. Experience shows that a 
higher level of engagement with a junior enlisted member's career and 
training results in a more satisfied and trained reservist who is more 
inclined to reenlist.

    5. Senator Akaka. Lieutenant General Vaughn, Lieutenant General 
Wyatt, Lieutenant General Stultz, Vice Admiral Debbink, Lieutenant 
General Bergman, Lieutenant General Stenner, and Rear Admiral May, the 
21st century GI Bill provides enhanced educational benefits for 
veterans and servicemembers who have served in the armed services after 
September 11, 2001. The bill goes into effect on August 1, 2009. What 
steps has your Service taken to implement this program across the Guard 
and Reserve by August 1, 2009?
    General Vaughn. The post-September 11 GI Bill is a Title 38 
Department of Veterans Affairs (VA) run program; however, this new 
program will affect all servicemembers ordered to Active Duty under 
U.S.C. sections 688, 12301(a), 12301(d), 12301(g), 12302, or 12304. For 
the ARNG this equates to Title 10 Active Guard and Reserve, Title 10 
Active Duty for Operational Support, Title 10 Contingency Operations 
Temporary Tour of Active Duty mobilizations, and those who join the 
ARNG with Active component service post-September 11.
    Currently the ARNG is awaiting final policy from the Army G1. Once 
this policy is received, potentially by June 1, 2009, the ARNG will 
send out an Education and Incentives Operation Messages to all States 
and territories with policy guidance for this program. Education 
Service Officers (ESO) and Educational staff will be informed on this 
new program in July at the annual ARNG Education Conference. Additional 
training is under development as a special 2-day workshop to be 
conducted at the ARNG Professional Education Center at Camp Robinson, 
AR. The new program will also be incorporated into the curriculum of 
our semi-annual training offered to State educational staff; the next 
class is scheduled for November 2009.
    General Wyatt. The Air National Guard provides weekly information 
to the field Retention Office Managers regarding post-September 11 
implementation and VA resources available to members. To date we have 
not received official instructions for implementation from the Office 
of the Secretary of Defense, Reserve Affairs. While we await this 
guidance, we do have a tentative plan in place to provide additional 
training to the Retention Office Managers when the web application 
comes online. We believe there will be a need for additional manpower 
resources to train site users for the web application, facilitate the 
benefits transfer application process, and to provide conflict 
resolution for eligibility questions from the VA.
    General Stultz. The Army Reserve has partnered with the Office of 
the Secretary of Defense (OSD) Reserve Affairs and other Reserve 
component service representatives, the Army G-1, the Defense Manpower 
Data Center, and the VA regarding the post-September 11 GI Bill 
initiative since it was enacted on June 30, 2008. The Army Reserve has 
participated in all post-September 11 working group efforts hosted by 
OSD Reserve Affairs over the past 10 months and will continue to 
provide feedback to OSD Reserve Affairs on post-September 11 GI Bill 
policy and procedural issues. Additionally, the Army Reserve has 
conducted various informational workshops and seminars with Education 
Services Specialists, retention personnel, and Human Resources 
Officers. The Army Reserve will continue to track the implementation 
and impact of the new GI Bill program for Army Reserve soldiers and 
families. The Army Reserve is advertising the new GI Bill program 
through its websites and will continue coordination efforts with OSD 
Reserve Affairs until full implementation occurs on August 1, 2009.
    Admiral Debbink. Navy has taken several steps as a Total Force in 
preparation for the post-September 11 GI Bill program launch later this 
year. Navy, in an ongoing collaborative effort with the OSD and the 
other Services, is working to develop implementing policy for Service 
management of the program. Additionally, Navy has conducted analyses on 
the potential retention and recruiting impacts for both Active and 
Reserve components.
    In order to facilitate implementation, Navy has begun a rigorous 
communications plan to educate the fleet on the provisions of the post-
September 11 GI Bill and to provide sailors with updates as details are 
refined. Navy has been working extensively with OSD and the Defense 
Manpower Data Center to develop an online interface for seamless 
eligibility determination and transferability election. The website 
will have an Active component portal and a Reserve component portal to 
convey general program information as well as facilitating automated 
eligibility verification and election to transfer benefits. We have 
also initiated a training plan to educate recruiters (Navy recruiters 
are responsible for both the Active and Reserve missions), Navy 
Operational Support Center leadership teams, career counselors, Navy 
College Office counselors, Recruit Training Command instructors, 
officer commissioning program mentors, and educational services 
officers to effectively impart information regarding the provisions and 
eligibility criteria of the program.
    Post-September 11 GI Bill information is readily available on our 
integrated online learning network, Navy Knowledge Online, and other 
frequently-visited Navy websites, which link to the VA Web site. We 
have also communicated information about the new program to sailors in 
the fleet through entries on each sailor's leave and earnings 
statement. We continue to circulate news articles and bulletins through 
various media outlets and host fleet-wide question-and-answer outreach 
sessions through mobile team trainers. These endeavors will continue to 
include the Active and Reserve component--both are working as a team to 
ensure the entire Navy stays abreast of the new program and any changes 
forthcoming.
    Strategic communications about the post-September 11 GI Bill are 
essential to ensuring sailors are well-informed and prepared to take 
full advantage of benefits the program offers. We will continue to work 
collaboratively to ensure successful implementation of the post-
September 11 GI Bill.
    General Bergman. MFR MCCS continues to market Lifelong Learning 
Programs to include the post-September 11 MGIB through all available 
means; direct emails to units, briefings at various conferences and 
trainings and through our Family Readiness Officers. Additionally, we 
have created a dedicated email to support lifelong learning issues/
questions: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a777c687f7e6f797b6e7375747a6f69777914777376">[email&#160;protected]</a> and have revamped and updated a more 
user friendly Education Web site http://www.mfr.usmc.mil/hq/mccs/edu/
edu.html. In January 2009 we conducted our first Lifelong Learning site 
visit and another in February. In March 2009 we started conducting 
customer surveys to better serve the Force and to evaluate their needs. 
We have been approved for funding to conduct our first ever Lifelong 
Learning Conference for Unit Education Officers, currently scheduled 
for August 2009, specifically to provide the most up-to-date 
information on the new post-September 11 MGIB. We will also continue to 
conduct site visits upon request. A power point presentation was 
created and emailed to units with as much details as possible provided 
from HQMC/OSD.
    MFR MCCS is committed to provide quality education opportunities 
and information to all marines and sailors with TA and counseling 
services on most up-to-date changes stationed onsite and at 184 sites 
located throughout the United States.
    General Stenner. Air Force representatives have been working 
closely with the DOD in establishing the service policy for the 
implementation and execution of the post-September 11 GI Bill. The Air 
Force Reserve has been involved in several working groups and other 
sessions to ensure that all pertinent details are identified and 
addressed prior to final development of the policy guidance. We stand 
ready to implement the new program and are keeping functional agencies 
that will play a key role in implementing and sustaining the program 
abreast of pending guidance.
    Admiral May. The Coast Guard Personnel Management Directorate and 
the Coast Guard Office of Reserve Affairs continue to work closely with 
the Office of the Under Secretary of Defense, Personnel and Readiness, 
to ensure the timely transmittal of information to the Defense Manpower 
Data Center regarding qualified personnel. This process will ensure 
that the VA has the most accurate information required to make 
determinations on qualified benefits when our servicemembers make 
application for GI Bill benefits for higher education.
    The Coast Guard has also disseminated information to its members 
through message traffic, through information posted to Coast Guard 
Central on the internet and intranet, and through various periodicals 
distributed to the field announcing the new educational benefits 
available to Active and Reserve military members. We will continue to 
use this multi-media approach to provide our servicemembers with the 
most up-to-date information regarding this new benefit.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                           dual-use equipment
    6. Senator McCaskill. Lieutenant General Vaughn, due to ongoing 
requirements and demands related to overseas missions such as OIF, the 
historic equipment on-hand (EOH) percentage for the ARNG has been about 
70 percent. Fiscal year 2006 EOH declined to approximately 40 percent 
due to cross-leveling of equipment to support immediate deployment 
requirements. It increased to about 49 percent in fiscal year 2007. By 
the end of fiscal year 2008, the ARNG had 76 percent of its required 
EOH when deployed equipment is included. One of the primary reasons why 
these numbers are so low is that Guard components traditionally have 
had to leave equipment and vehicles in country (i.e. Iraq) for follow-
on forces' use. As a result of these vehicle and equipment shortages, 
National Guard personnel have limited mobility when conducting military 
support to civilian authority missions. Up-armored and tactical 
vehicles do not necessarily maneuver well in urban environments and 
have limited seating capacity. Many National Guard units, therefore, 
require commercial, non-tactical vehicles (i.e. passenger vans, pick-up 
trucks, and sport utility vehicles) to fill the gap between authorized 
and on-hand vehicles for transportation and evacuation purposes during 
emergency response operations.
    National Guard units continue to respond to State and federally 
declared disasters requiring passenger transportation, evacuation 
support, and cargo movement. Often times, units are unable to bring 
enough manpower to bear on a mission in a timely manner due to 
limitations of tactical vehicles. To overcome this obstacle, some have 
argued that their National Guard forces be allowed to make up the 
difference between authorized and on-hand tactical vehicles through the 
procurement of commercial vehicles. National Guard units could 
potentially draw these commercial vehicles from a centralized pool for 
use only during an emergency event. This would in turn greatly increase 
response time for both State-wide response and when providing emergency 
and medical assistance forces to other States.
    Do our National Guard forces have the adequate mix of non-tactical 
vehicles it needs to respond to domestic emergencies and disaster 
events? If not, where are the shortfalls and what are the funding or 
bureaucratic constraints to get what you need?
    General Vaughn. The concept of utilizing nontactical vehicles to 
bridge the gap in authorized equipment such as HMMWVs has been reviewed 
by the ARNG. The basis of meeting both the Guard's wartime and Homeland 
Defense and Defense Support to Civil Authorities (DSCA) missions has 
always been on hand unit equipment. The goal is to equip units to 100 
percent of requirements to ensure that adequate equipment remains in 
the State to perform domestic response missions when a portion of its 
forces are deployed. A 100 percent equipped ARNG ensures we can train 
and deploy the unit for a Federal mission while simultaneously having 
the proper and authorized EOH, which our soldiers are trained to use 
for State missions. As the base requirement, using unit equipment for 
domestic response minimizes the overall ARNG equipping bill and enables 
training on the equipment used in wartime. Dual use of unit equipment 
is what makes the ARNG a modern and interoperable force. Reliance on a 
commercial fleet of vehicles for State missions may not meet the 
training requirements of our soldiers to ensure their readiness for 
overseas contingency operations.
    Good progress has been made in improving the posture of the ARNG 
light tactical fleet. The ARNG currently has 84 percent of authorized 
HMMWVs on hand. By the end of fiscal year 2010, the ARNG will field 93 
percent of required HMMWVs. While this is not fully modernized 
equipment, as most vehicles are not armored, it works in favor of 
mobility and maneuverability to support the domestic response mission. 
Some specific new up-armored HMMWV models are extremely heavy and wide, 
and of questionable value in domestic response.
    The ARNG is already authorized approximately 10,000 light vehicles 
in the Table of Distribution Allowance non-tactical fleet. Some of 
these vehicles are government-owned and some are leased from General 
Services Administration. This non-tactical fleet has been funded at 65 
percent. The shortage of buses, sedans, and light trucks does inhibit 
moving people and equipment.

                           disaster response
    7. Senator McCaskill. Lieutenant General Vaughn, it has been stated 
by some that while advances have been made in pre-event coordination of 
National Guard forces with the interagency prior to a disaster 
response, there is not always a commensurate level of re-event 
resourcing and authorization that it needs to adequately respond to 
civil emergencies. At times this situation has manifested itself in the 
adjutants general being unable to control their own organic equipment 
and assets due to coordination mechanisms and chains of command that 
have to occur with Federal authorities. For instance, coordination of 
limited DOD aero-medical evacuation assets continues to be an ongoing 
issue for many States during a disaster response. The adjutants general 
have to compete for limited assets and even work with Transportation 
Command (TRANSCOM) for approval to use their own resources even at 
times. One might argue that the conditions should be set to better 
enable DOD aircraft transportation resources be made available for 
Governors and adjutants general to handle their own evacuation problems 
prior to an emergency.
    Is the process for adjutants general and Governors to coordinate 
use of critical assets with Federal authorities in times of domestic 
crisis relatively efficient or in need or review?
    General Vaughn. The ARNG is now an operational force, supporting 
requirements and missions both at home and overseas. We continue to 
increase our equipment readiness posture, as well as improve the 
relationships we have built with the interagency. State Joint Forces 
Headquarters will equip their units to their required level, while 
balancing both domestic and overseas contingency requirements to 
prepare for or respond to emerging crises. Emergency Management 
Agreement Compacts (EMACs) involve the temporary movement of equipment 
across State lines to help address shortages of equipment in other 
States during emergencies. The ARNG prioritizes its equipment fills 
according to mission type, and continues to fill toward 100 percent. 
Although your question indicates a competition for resources between 
the Governors, their adjutants general, and Federal organizations, 
within the ARNG, each Governor has control over his/her State's 
equipment to respond to emergencies within their State. EMACs 
facilitate the use of that equipment between States, prior to crises. 
At NGB, we work with States to help coordinate equipment sharing.
    You gave an example of how aero medical evacuation assets continue 
to be an ongoing issue for many States during disaster response, and 
that States have to compete with TRANSCOM for assets. In the ARNG, that 
is not the case. Any rotary wing assets within the ARNG are only moved 
with the consent of the State's Adjutant General. With that said, the 
advent of the chemical, biologic, radiologic, nuclear, or high yield 
explosives (CBRNE) Consequence Management Response Force (CCMRF) has 
created some constraints in rotary wing aircraft employment across 
State boundaries. Although aircraft designated for the CCMRF mission 
cannot cross State lines while designed as CCMRF assets, they can 
however participate in the response to their own State's emergencies. 
This constraint applies to personnel and equipment in support of the 
ground forces CCMRF mission as well. Insofar as a State's ability to 
handle their own evacuations prior to an emergency, for evacuation by 
air, the Air National Guard would be better suited to answer that 
question as they have the fixed wing aircraft capability that would 
better address the requirement for mass evacuation. To answer your last 
question, there is always room for improvement in the coordination done 
between the States and Federal authorities. Some of the improvements we 
have implemented within the ARNG include the employment of Joint 
Enabling Teams, comprised of subject matter experts from various staff 
elements who are sent to an affected area to act as liaisons from 
National Guard Bureau to the State to facilitate information flow. 
Prior to hurricane season, conferences are held with the hurricane 
States, National Guard Bureau, and Federal agencies, to work through 
process improvements, changes to procedures, and update agreements.
    There are always challenges in responding to any crisis. We are 
better as an organization and continue to gain efficiencies. We are 
better as a response force. We are better as a Nation since Hurricane 
Katrina in responding to crisis situations. Even during Hurricanes 
Katrina and Rita, units across the country quickly mobilized and 
responded to the needs of the Governors of Louisiana and Mississippi, 
beginning within 72 hours after receiving the call. More than 50,000 
trained and equipped soldiers and airmen deployed to the Gulf Coast to 
help with rescue and recovery. The ARNG will respond in the future when 
needed, quickly, and to the best of our abilities, wherever we are 
needed in the United States to perform the mission we are given.

                       medical evacuation assets
    8. Senator McCaskill. Lieutenant General Vaughn and Lieutenant 
General Wyatt, are there adequate numbers of DOD aero medical 
evacuation assets available to National Guard forces in times of 
emergency?
    General Vaughn. The ARNG is on a path over the next few years to 
potentially possess a total of 27 aeromedical evacuation companies, but 
is pending Army's approval. This equates to 252 ARNG UH-60 aeromedical 
evacuation aircraft and 48 ARNG UH-72 medical evacuation aircraft. This 
amount of future aeromedical evacuation capability given our 
requirements overseas greatly enhances the ARNG's ability to be 
available in times of emergency. The ARNG may still have a small 
capability gap in additional UH-72 aircraft. Currently, the Guard is 
assessing that gap to determine any additional requirements across all 
the States, territories, and the District of Columbia
    General Wyatt. In the Air National Guard, we have identified a 
requirement for three additional complete equipment sets. Additionally, 
there is a need for specific equipment packages to accommodate the 
transfer of special needs patients. Finally, we have requested a 
manpower study (priority one) to determine the proper manning for 
support of U.S. military operations overseas and homeland defense 
support.

                 consequence management response force
    9. Senator McCaskill. Lieutenant General Vaughn, the CCMRF consists 
of about 4,700 joint personnel who would deploy as the DOD's initial 
response force for a CBRNE event. The force would support civil 
authorities to save lives, prevent further injury, and provide 
temporary critical life support. The current CCMRF consists of three 
brigades that form the core of the multi-component, multi-service 
response force. These three units are the 1st Brigade Combat Team of 
the 3rd Infantry Division from Fort Stewart, GA; the 1st Medical 
Brigade from Fort Hood, TX; and the 82nd Combat Aviation Brigade from 
Fort Bragg, NC. The force also includes Air Force medical and 
engineering elements, Marine Corps technical support forces, and 
elements of the Defense Threat Reduction Agency and Defense Logistics 
Agency in order to conduct assessment, search and rescue, 
decontamination, medical, aviation, engineering, and logistics 
missions. The next CCMRF scheduled for 2009 is scheduled to be 
comprised of National Guard forces, which might tend to pull soldiers 
in high-demand/low-density occupational specialties from their organic 
units and might impede a State's ability to provide military support to 
civil authorities during emergency response operations.
    Do you foresee Governors losing control of high-demand/low-density 
Guard assets by having to commit forces to the CCMRF, or are these 
concerns unfounded?
    General Vaughn. No. Once units have been identified for the CCMRF 
mission, these units are dedicated specifically to that mission, but 
will remain available for State missions, if required. CCMRF units can 
perform DSCA operations, but not simultaneously to a CBRNE incident. As 
a result, Governors will not lose assets and forces that have been 
identified for the CCMRF mission unless a CBRNE incident occurs.

    10. Senator McCaskill. Lieutenant General Vaughn, what States/units 
are slated to source their forces to the CCMRF in the near term?
    General Vaughn.
Units scheduled for 2009

  Kentucky................................  63rd Theater Aviation
                                             Brigade
  Colorado/Nebraska.......................  Headquarters 2-135th General
                                             Support Aviation Battalion
  Colorado................................  A/2-135th General Support
                                             Aviation Battalion
  Colorado/Nebraska.......................  B/2-135th General Support
                                             Aviation Battalion
  Colorado/Nebraska.......................  C/2-135th General Support
                                             Aviation Battalion
  Colorado/Nebraska.......................  D/2-135th General Support
                                             Aviation Battalion
  Colorado/Nebraska.......................  E/2-135th Field Support
                                             Company
  Arkansas................................  Detachment 1, B/449th
                                             Aviation Services Battalion
  Florida/Alabama.........................  B/1204th Aviation Services
                                             Battalion
Units scheduled for 2010

  South Carolina..........................  Headquarters 218th Maneuver
                                             Enhancement Brigade
  South Carolina..........................  4-118 Infantry Battalion
  South Carolina..........................  218th Support Battalion
  South Carolina..........................  251st Area Support Medical
                                             Company
  South Carolina..........................  111 Signal Company
  South Carolina..........................  1052nd Medium truck Company
  South Carolina..........................  108th Public Affairs
                                             Detachment
  North Dakota............................  3662nd Maintenance Company
  Michigan................................  Headquarters 146th Medical
                                             Battalion
  Michigan................................  1171st Area Support Medical
                                             Company
  Alabama.................................  Headquarters 115th Signal
                                             Battalion
  Alabama.................................  B/115th Signal Company
  Wisconsin...............................  357th Signal Company

    11. Senator McCaskill. Lieutenant General Vaughn, will Governors 
and adjutants general be able to pull these forces back from this 
requirement in the case of an exigent circumstance requiring their 
presence, i.e. natural disaster?
    General Vaughn. Yes, the CCMRF units remain available for State 
missions. However, it is recommended that units perform State missions 
only and not respond to DSCA operations outside their State due to the 
CCMRF mission requirement.

    12. Senator McCaskill. Lieutenant General Vaughn, will all these 
forces be collocated in one location on a constant alert level or will 
they be kept in their organic State to be called upon whenever needed?
    General Vaughn. The CCMRF forces will remain organic to their State 
until Federalized for a CBRNE incident. This applies for both CCMRF 
aviation and ground forces.

    [Whereupon, at 4:41 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
